  Office of Inspector General
 U.S. Department of Housing and Urban Development


Semiannual Report
   to Congress
                       October 1, 2005, through March 31, 2006
                                 Profile of Performance
                    For the Period, October 1, 2005, through March 31, 2006
            Audit and Investigation Results             Audit         Investigation   Hotline      Combined

Recommendations That Funds Be Put to Better Use        $589,887,746                   $2,352,885   $592,240,631
Management Decisions on Audits with Recommendations    $549,804,443                                $549,804,443
that Funds be Put to Better Use
Questioned Costs                                        $52,223,731                                 $52,223,731
Management Decisions on Audits with Questioned Costs    $58,627,445                                 $58,627,445
Indictments/Informations                                                        747                        747
Convictions/Pleas/Pretrial Diversions                                           443                        443
Civil Actions                                                                    33                         33
Investigative Recoveries/Receivables                                   $165,353,197     $82,697    $165,435,894
Funds Put to Better Use                                                 $67,475,744                 $67,475,744
Collections from Audits                                 $28,210,875                                 $28,210,875
Administrative Actions                                          13             1174                       1187
Personnel Actions                                                                24                         24
Arrests                                                                       1,536                       1,536
Search Warrants                                                                  58                         58
Weapons Seized                                                                    3                           3
Subpoenas Issued                                                 4              448                        452
Inspector General’s Message
                              It is with great pride that I present the U.S. Department of
                         Housing and Urban Development (HUD) Office of Inspector
                         General (OIG) Semiannual Report to the Congress for the first half
                         of fiscal year 2006. In the time since our last report, HUD OIG
                         employees – auditors, agents, attorneys and support staff – have
                         been hard at work on their assigned tasks. Whether it is
                         Hurricane disaster relief, single-family housing fraud, Section 8
                         rental subsidy fraud, or any fraud against HUD programs or
                         operations, the HUD OIG is engaged and garnering results, for
                         which we are justly proud.

                            During the reporting period, we had $304,049,725 in Funds
Put to Better Use, Questioned Costs of $52,223,731 and $165,435,894 in Recoveries and
Receivables. This is exceptional work by our staff that has resulted in significant positive
impact on fraud and misuse of taxpayer dollars. I am grateful to the auditors, agents, and
evaluators who worked so hard this year to achieve this milestone.

     I direct your attention to our high profile audits and investigations. HUD OIG staff
increased and improved their cooperation and collaboration with the Department, and as
a result, developed and implemented better and more effective audit recommendations.
The HUD OIG Office of Investigation agents also enhanced their cooperation with the
Department as a new source or indicator for new investigative avenues.

    Our emphasis on the Section 8 Housing Choice Voucher program continues to be a
high priority. Congress was clear that it wanted answers as to why the Section 8 program
was prone to fraud and waste. Our audit plan this year selected 15 programs at public
housing authorities. Although our audits found significant administrative non-compliance
and improper payments, the living conditions of the residents was a greater concern. We
inspected 254 units at three authorities (San Juan, PR; Miami-Dade, FL; and Winston-
Salem, NC.) We found 91 percent did not meet minimum housing quality standards, and
39 percent of the failed units had serious deficiencies. Tenants lived in units that were not
decent, safe, nor sanitary. The Department shared our concern about these conditions
and agreed that housing assistance payments for units that did not meet standards had to
stop.

    All of this led us to a more efficient and effective HUD OIG, better at recovering
taxpayer funds and bringing people to justice who perpetrate crimes.

     It is with obvious and justifiable pride that I thank the staff of the HUD OIG for their
tireless work in their struggle against waste, fraud, and abuse on the Nation’s housing
and urban development programs.




    Kenneth M. Donohue
    Inspector General

Inspector General’s Message                                                                     iii
     Strategic Plan
                                             Vision
          We are a trusted and respected resource for HUD, Congress, and the American
              public in ensuring the integrity, efficiency, and effectiveness of HUD
              programs and operations. We are committed to working jointly with
                             HUD management to achieve their goals.



                                             Mission
             Promote the integrity, efficiency, and effectiveness of HUD programs and
              operations to assist the Department in meeting its mission.
             Detect and prevent waste, fraud, and abuse.
             Seek administrative sanctions, civil recoveries and/or criminal prosecution
              of those responsible for waste, fraud, and abuse in HUD programs and
              operations.



                Goal 1                          Goal 2                     Goal 3
             Effectiveness                     Efficiency               Our Employees
      Help HUD resolve its “Major          Maximize results and        Become the “Employer
       Management Challenges”            provide responsive audit        of Choice” among
         by being a relevant and          and investigative work        Offices of Inspectors
       problem-solving advisor to        for mandated, requested,             General.
      HUD and our Stakeholders.           or self-initiated efforts.




                                              Objectives
          Contribute to Improving          Achieve a highest            Invest in people.
           the Integrity in Single           Return on Investment         Invest in the
           Family Insurance                  (ROI) with available          organization.
           Programs.                         resources.
          Contribute to a Reduction        Provide quality
           in Erroneous Payments in          results to customers
           the Rental Assistance             in a timely manner.
           Programs.
          Contribute to Improving
           HUD’s Execution and
           Accountability of Fiscal
           Responsibilities.
          Contribute to resolving
           significant issues raised
           or confronted by HUD
           and our Stakeholders.


iv                                                                               Strategic Plan
Strategic Goals
                                 Goal 1 - Effectiveness
 Objectives:
     Contribute to improving the integrity of single-family insurance programs.
     Contribute to a reduction in erroneous payments in the rental assistance
     programs.
     Contribute to improving HUD’s fiscal accountability.
     Contribute to resolving other significant issues raised or confronted by HUD and our
     stakeholders.
Target     As of
           March                              Key Measurements
          31, 2006
 75%        3        75% of the recommendations reach management decisions within 120 days.

 85%        3        85% of the dollars associated with recommendations are sustained.

 80%        3        80% of all audits conducted are targeted at areas of significant interest to
                     either HUD or OIG stakeholders.

 80%        3        80% of stakeholders rate OIG products and services good or better.

 66%        3        66% investigations referred for criminal, civil, or administrative action will
                     focus on FHA single-family mortgage fraud and Section 8 rental assistance
                     overpayment.

                                   Goal 2 - Efficiency
 Objectives:
     Maintain a high return on investment (ROI).
     Provide timely and quality results to customers.
Target     As of
           March                              Key Measurements
          31, 2006
  8:1       3        Sustain a return on investment (ROI) of 8:1.

 70%        3        70% of external audits completed within 2000 hours.

  4/6       3        Regional investigative performance for regions without forensic auditors
Actions              will average 4 actions per FTE per year. Regions with forensic auditors will
per FTE              average 6 actions per FTE per year..

                            Goal 3- Employer of Choice
 Objectives:
     Invest in people.
     Invest in the organization.
Target     As of
           March                              Key Measurements
          31, 2006
Nov 06      3        Implement a leadership development program for succession planning.

 80%      NEW        80% of employees rate organization good or better.


Strategic Goals                                                                                       v
                         Audit Reports Issued by Program

               Single-Family                                       Public and Indian
                  Housing                                              Housing
                    25%                                                   40%




      Community
       Planning &
      Development               Other                    Multifamily Housing
          10%                   12%                              13%




                   Monetary Benefits Identified by Program
                      Single-Family
                         Housing                               Public & Indian
      Community            6%                                     Housing
       Planning                                                     18%
     & Development
          6%



                                                                        Multifamily
                                                                         Housing
                                                                           6%
                                                     Other
                                                     64%




               Monetary Benefits Identified in Millions of Dollars
         450
                                             $411
         400
         350

         300
         250
         200

         150
                  $114
         100
                                  $36                        $40           $41
          50

           0    Public and     Multifamily   Other     Community       Single-Family
                  Indian        Housing                 Planning &        Housing
                 Housing                               Development




vi                                                                                     Audit Charts
                   Investigation Cases Opened by Program (Total: 736)

                Community Planning
                  & Development          Other/GNMA
                                                                    Single-Family
                                            3% (19)
                     6% (42)                                           Housing
                                                                      16% (115)

             Multifamily
              Housing
              10% (74)




                                                               Public and Indian Housing
                                                                       65% (486)




                Investigation Recoveries by Program (Total: 165,353,197)
                                             Community Planning &
                            Multifamily          Development
                              Housing           5% ($8,205,359)        Other/GNMA
                           2% ($3,931,894)
                                                                       0% ($30,685)
             Public & Indian
                Housing
             5% ($8,829,801)




                                                                          Single-Family
                                                                             Housing
                                                                        88% ($144,355,458)




Investigation Charts                                                                         vii
       Acronyms List
        AIGA     Assistant Inspector General for Audit
        AIGI     Assistant Inspector General for Investigations
        ARIGA    Assistant Regional Inspector General for Audit
        ASAC     Assistant Special Agent in Charge
        ATF      Bureau of Alcohol Tobacco and Firearms
        CDBG     Community Development Block Grants
        CID      Criminal Investigation Division
        CPD      Community Planning and Development
        DAIGA    Deputy Assistant Inspector General for Audit
        DAIGI    Deputy Assistant Inspector General for Investigation
        DEA      Drug Enforcement Administration
        DOJ      U.S. Department of Justice
        FBI      Federal Bureau of Investigation
        FDIC     Federal Deposit Insurance Corporation
        FEMA     Federal Emergency Management Agency
        FFMIA    Financial Management Improvement Act of 1996
        FHA      Federal Housing Administration
        FHASL    Federal Housing Administration Subsidiary Ledger
        FINCEN   Financial Crimes Enforcement Network
        FIRMS    Facilities Integrated Resources Management System
        FY       Fiscal Year
        GAO      Government Accountability Office
        GNMA     Government National Mortgage Association (aka Ginnie Mae)
        HAP      Housing Assistance Payment
        HHS      U.S. Department of Health and Human Services
        HIV      Human Immunodeficiency Virus
        HKFTF    Hurricane Katrina Fraud Task Force
        HOME     Home Investment Partnership Program
        HOPWA    Housing Opportunities for Persons with AIDS
        HRRC     Hurricane Recovery and Response Center
        HUD      U.S. Department of Housing and Urban Development
        IG       Inspector General


viii                                                                    Acronyms List
   IRS          Internal Revenue Service
   JTTF         Joint Terrorism Task Force
   LAS          Loan Accounting System
   MAHRA        Multifamily Assisted Housing Reform Act
   NAHRO        National Association of Housing and Redevelopment Officials
   OA           Office of Audit
   OI           Office of Investigation
   OIG          Office of Inspector General
   OMB          Office of Management and Budget
   OND          Officer Next Door
   PDDA         Presidentially-Declared Disaster Areas
   PFCRA        Program Fraud Civil Remedies Act
   PHA          Public Housing Authorities
   PHSI         Public Housing Safety Initiatives
   PIH          Office of Public and Indian Housing
   PMA          President’s Management Agenda
   REAC         Real Estate Assessment Center
   REAP         Resource Estimation and Allocation Process
   REO          Real Estate Owned
   RESPA        Real Estate Settlement and Procedures Act
   RHIIP        Rental Housing Integrity Improvement Project
   RIGA         Regional Inspector General for Audit
   SA           Special Agent
   SAC          Special Agent in Charge
   SSA          Social Security Administration
   SSN          Social Security Number
   TEAM         Total Estimation and Allocation Mechanism
   TND          Teacher Next Door
   USAO         U.S. Attorney’s Office
   USDA         U.S. Department of Agriculture
   USMS         U.S. Marshals Service
   USPS         U.S. Postal Service
   VA           U.S. Department of Veterans Affairs
   VOE          Verifications of Employment



Acronyms List                                                                 ix
    Table of Contents
    Chapter 1 - HUD’s Management and Performance Challenges                               1
          The HUD Office of Inspector General                                             2
          Major Issues Facing HUD                                                         2
    Chapter 2 - HUD’s Single Family Housing Programs                                      9
          Audits                                                                         10
          Investigations                                                                 18
    Chapter 3 - HUD’s Public and Indian Housing Programs                                 33
          Audits                                                                         34
          Investigations                                                                 47
    Chapter 4 - HUD’s Multifamily Housing Programs                                       61
          Audits                                                                         62
          Investigations                                                                 67
    Chapter 5 - HUD’s Community Planning and Development Programs                        71
          Audits                                                                         72
          Investigations                                                                 76
    Chapter 6 - Hurricane Relief Oversight                                               83
    Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                  91
          Audits                                                                         92
          Investigations                                                                 96
          OIG Hotline                                                                    96
    Chapter 8 - Outreach Efforts                                                         99
    Chapter 9 - Review of Policy Directives                                             107
          Proposed Rules                                                                108
          Proposed Notices                                                              109
          Mortgagee Letter                                                              110
    Chapter 10 - Audit Resolution                                                       115
          Delayed Actions                                                               116
          Significant Management Decisions with Which the OIG Disagrees                 119
          Federal Financial Management Improvement Act of 1996                          121
    Appendix 1 - Audit Reports Issued                                                   123
    Appendix 2 - Tables                                                                 131
          Table A - Audit Reports Issued Prior to Start Period with No Management
          Decision at March 31, 2006                                                  132
          Table B - Significant Audit Reports Described in Previous Semiannual Reports
          in Which Final Action Had Not Been Completed as of March 31, 2006           134
          Table C - Inspector General Issued Reports with Questioned and Unsupported
          Costs at March 31, 2006                                                     145
          Table D - Inspector General Issued Reports with Recommendations that Funds
          Be Put to Better Use at March 31, 2006                                      146
          Explanations of Tables C and D                                              147
    HUD OIG Operations Telephone Listing                                                149



x                                                                         Table of Contents
Reporting Requirements
The specific reporting requirements as prescribed by the Inspector General Act of 1978,
          as amended by the Inspector General Act of 1988, are listed below:
Source/Requirement                                                                     Pages
Section 4(a)(2)-review of existing and proposed legislation and regulations.          107-114
Section 5(a)(1)-description of significant problems, abuses, and                1-97, 107-122
deficiencies relating to the administration of programs and operations
of the Department.
Section 5(a)(2)-description of recommendations for corrective action with respect        9-97
to significant problems, abuses, and deficiencies.
Section 5(a)(3)-identification of each significant recommendation          Appendix 2, Table B
described in previous semiannual report on which corrective action
has not been completed.
Section 5(a)(4)-summary of matters referred to prosecutive authorities                   9-97
and the prosecutions and convictions that have resulted.
Section 5(a)(5)-summary of reports made on instances where information           No Instances
or assistance was unreasonably refused or not provided, as required by
Section 6(b)(2) of the Act.
Section 5(a)(6)-listing of each audit report completed during the                   Appendix 1
reporting period, and for each report, where applicable, the total
dollar value of questioned and unsupported costs and the dollar value of
recommendations that funds be put to better use.
Section 5(a)(7)-summary of each particularly significant report                          9-97
and the total dollar value of questioned and unsupported costs.
Section 5(a)(8)-statistical tables showing the total number of             Appendix 2, Table C
audit reports and the total dollar value of questioned and
unsupported costs.
Section 5(a)(9)-statistical tables showing the total number of audit       Appendix 2, Table D
reports and the dollar value of recommendations that funds be put
to better use by management.
Section 5(a)(10)-summary of each audit report issued before the            Appendix 2, Table A
commencement of the reporting period for which no management
decision had been made by the end of the period.
Section 5(a)(11)-a description and explanation of the reasons for                No Instances
any significant revised management decisions made during the
reporting period.
Section 5(a)(12)-information concerning any significant management                    119-121
decision with which the Inspector General is in disagreement.
Section 5(a)(13)-the information described under section 05(b) of the                     121
Federal Financial Management Improvement Act of 1996.


Reporting Requirements                                                                           xi
         Chapter 1
    HUD’s Management
and Performance Challenges
    The HUD Office of                               Major Issues Facing HUD
    Inspector General                                   The Department’s primary mission is to
         The U.S. Department of Housing and         expand housing opportunities for American
    Urban Development (HUD) Inspector               families seeking to better their quality of life.
    General is one of the original 12 Inspectors    HUD seeks to accomplish this through a
    General authorized under the Inspector          wide variety of housing and community
    General Act of 1978. Over the years, the        development grant, subsidy, and loan
    Office of Inspector General (OIG) has forged    programs. HUD’s fiscal year (FY) 2006
    a strong alliance with HUD personnel in         enacted budget is about $48 billion,
    recommending ways to improve                    including about $12 billion in emergency
    departmental operations and in prosecuting      supplemental appropriations to address the
    program abuses. OIG strives to make a           impact of the hurricanes that devastated the
    difference in HUD’s performance and             Gulf of Mexico coastal areas during 2005.
    accountability. OIG is committed to its         Additionally, HUD assists families in
    statutory mission of detecting and              obtaining housing by providing Federal
    preventing fraud, waste, and abuse and          Housing Administration (FHA) mortgage
    promoting the effectiveness and efficiency      insurance for single-family and multifamily
    of government operations. While                 properties. At the end of FY 2005, FHA’s
    organizationally located within the             outstanding mortgage insurance portfolio
    Department, OIG operates independently          was about $416 billion. The Government
    with separate budgetary authority. This         National Mortgage Association (GNMA),
    independence allows for clear and objective     also known as Ginnie Mae, through its
    reporting to the Secretary and the Congress.    mortgage-backed securities program, gives
    OIG’s activities seek to                        issuers access to capital markets through the
                                                    pooling of federally insured loans.
         Promote efficiency and effectiveness in
                                                         With about 8,800 staff nationwide, HUD
         programs and operations,
                                                    relies upon numerous partners for the
                                                    performance and integrity of a large number
         Detect and deter fraud and abuse,          of diverse programs. Among these partners
                                                    are hundreds of cities that manage HUD’s
         Investigate allegations of misconduct      Community Development Block Grant
         by HUD employees, and                      (CDBG) funds, hundreds of public housing
                                                    authorities that manage assisted housing
         Review and make recommendations            funds, thousands of HUD-approved lenders
         regarding existing and proposed            that originate and service FHA-insured
         legislation and regulations affecting      loans, and hundreds of Ginnie Mae
         HUD.                                       mortgage-backed securities issuers that
                                                    provide mortgage capital.
        The Executive Office and the Offices of
    Audit, Investigation, Counsel, and                   Achieving HUD’s mission continues to
    Management and Policy are located in            be an ambitious challenge for its limited
    Headquarters. Also, the Offices of Audit and    staff, given the agency’s diverse mission, the
    Investigation have staff located in eight       thousands of program intermediaries
    regions and numerous field offices.             assisting the Department in this mission,
                                                    and the millions of beneficiaries in its
                                                    housing programs. HUD’s management
                                                    problems have for years kept it on the
                                                    Government Accountability Office’s (GAO)

2                                                  HUD’s Management and Performance Challenges
list of agencies with high-risk programs.       Department. OIG submitted its latest
HUD’s management team, GAO, and OIG             assessment on October 18, 2005. These
share the view that improvements in human       reported challenges are the continued focus
capital, acquisitions, and information          of our audit and investigative efforts. HUD
systems are essential in removing HUD           is working to address these challenges and
from its high-risk designation. More            in some instances, has made significant
specifically, HUD must focus these              progress in correcting them.             The
improvements on rental housing assistance       Department’s management challenges and
programs and single-family housing              current efforts to address these challenges
mortgage insurance programs, two areas          are as follows.
where financial and programmatic exposure
is the greatest. That HUD’s reported                 Financial Management Systems. Since
management challenges are included as part      FY 1991, OIG has annually reported that the
of the President’s Management Agenda            lack of an integrated financial system in
(PMA) is indicative of HUD’s important role     compliance with all Federal Financial
in the Federal sector. HUD’s current            Management System requirements is a
Administration places a high priority on        weakness in internal controls. While some
correcting those weaknesses that put HUD        progress has been made, a number of
on GAO’s high-risk list.                        long-standing deficiencies remain. For the
                                                past several years, OIG’s financial audits
     As of December 2005, HUD’s PMA             have also reported weaknesses in internal
scoring status was “green” for three of the     controls and security over HUD’s general
nine initiatives applicable to HUD. The         data processing operations and specific
status of the six remaining initiatives are     applications. The effect of these weaknesses
four with a “yellow,” and two with a “red”      is that HUD cannot be reasonably assured
score. Based upon a comprehensive set of        that system information will remain
standards, an agency is “green” if it meets     confidential, protected from loss, and
all of the standards for success, “yellow” if   available to those who need it without
it has achieved some but not all of the         interruption.
criteria, and “red” if it has even one of the
number of serious flaws. HUD’s most                  HUD has completed certification and
notable accomplishment during this              accreditation for 41 of its 44 financial
semiannual reporting period was to achieve      management systems. However, the quality
a “green” score for the E-Government            of the underlying documents and the actual
initiative. HUD’s baseline score for            certification and accreditation process
improved financial performance remains at       varied by application. While a number of
“red” because of one repeat and one new         vulnerabilities were closed, additional
material weakness reported in our audit of      vulnerabilities, identified through oversight
HUD’s FY 2005 financial statements. Also,       activities, were not corrected before
the Office of Management and Budget             accreditation. In addition, certification and
(OMB) established a new initiative for HUD      accreditation of the general support systems
in the area of “credit program                  on which these applications reside have not
management,” and assigned a status score        been completed and are ongoing.
of “red.”
                                                    The weaknesses noted in our FY 2005
     Each year in accordance with the           Consolidated Financial Audit relate to the
Reports Consolidated Act of 2000, HUD OIG       need to
is required to submit a statement to the
Secretary with a summary assessment of the           Incorporate better risk factors and
most serious challenges facing the                   monitoring tools into FHA’s single


HUD’s Management and Performance Challenges                                                     3
         family insured mortgage program risk             To address its human capital needs and
         analysis and liability estimation            respond to the PMA, HUD developed a
         process and                                  comprehensive Five-Year Strategic Human
                                                      Capital Management Plan that identifies
         Continue to improve its review over          three strategic goals for human capital:
         the FHA credit reform estimation
         process.                                          Mission-focused agency to align
                                                           employees and work to support HUD’s
         In prior years, OIG reported on                   mission;
    weaknesses in HUD’s compliance with
    Federal Financial Management System                    High quality workforce, which
    requirements, including the need to enhance            recruits, develops, manages, and
    FHA’s management controls over its                     retains a diverse workforce; and
    portfolio of integrated insurance and
    financial systems. During the past several             Effective succession planning to
    years, HUD has made progress in                        ensure retirees over the next 5 years are
    implementing a new financial system at
                                                           succeeded by qualified employees.
    FHA and addressing most of the weaknesses
    that OIG identified, including initiating a
                                                           The human capital management plan is
    vision statement for a departmentwide
                                                      the Department’s primary tool for advancing
    fully integrated financial system. These
                                                      its human capital transformation. To
    improvements enabled OIG to conclude that
                                                      ensure HUD maintains progress toward
    the weakness in financial management
                                                      accomplishing the goals outlined in its
    system requirements should be reclassified
                                                      5-year strategy, HUD tracks progress against
    from a material weakness to a reportable
                                                      the interim milestones biweekly. In line with
    condition.
                                                      its strategic plan, HUD has increased its
                                                      focus on human capital management
         Departmentwide Organizational
                                                      through a variety of initiatives.
    Changes and Human Capital Management.
    For many years, one of the Department’s
                                                           To address staffing imbalances and
    major challenges has been to effectively
                                                      other human capital challenges, the
    manage its limited staff resources to
                                                      Department has most recently embarked on
    accomplish its primary mission. In recent
                                                      an “optimal organization study” to ensure
    years, the Department has contracted out
                                                      HUD is positioned to provide maximum
    numerous functions essential to the
                                                      service to its constituents. The focus of the
    accomplishment of its overall mission, in
                                                      study is to develop a vision for the future by
    part due to staffing issues. Many of the
                                                      assessing what HUD’s work will be, how
    weaknesses facing HUD, particularly those
                                                      HUD should be organized to carry out the
    concerning HUD’s oversight of program
                                                      work, and the required skills in relation to
    recipients, are exacerbated by HUD’s
                                                      full-time employees (FTE) and training
    resource management shortcomings.
                                                      efforts. The final product for this effort is
    Accordingly, OIG considers it critical for the
                                                      scheduled during the third quarter of the
    Department to address these shortcomings
                                                      fiscal year.
    through the successful completion of
    ongoing plans. To operate effectively and
                                                           HUD continued to implement its Five-
    hold individuals responsible for
                                                      Year Strategic Human Capital Management
    performance, HUD needs to know that it has
                                                      Plan, with results that are enabling it to
    the right number of staff with the proper
                                                      recruit, develop, manage, and retain a high-
    skills in the right positions.
                                                      performance workforce that is capable of
                                                      effectively supporting HUD’s mission.

4                                                    HUD’s Management and Performance Challenges
    FHA Single-Family Origination. FHA’s       further strengthen lender accountability and
single-family insurance programs enable        take strong enforcement actions against
millions of first-time, minority, low-income   program abusers that victimize first-time
elderly, and other underserved households      and minority homebuyers.
to realize the benefits of homeownership.
HUD manages about $368 billion in single-           In support of HUD and the PMA, OIG’s
family insured mortgages. Effective            Strategic Plan for FY 2006 gives priority to
management of this high-risk portfolio         detecting and preventing fraud in FHA
represents a continuing challenge for the      mortgage lending through targeted audits
Department. The PMA has committed HUD          and investigations. OIG’s audits target
to tackling long-standing management           lenders with high default rates. The detailed
problems that expose FHA homebuyers to         testing focuses on mortgage loans that
fraudulent practices.                          defaulted and resulted in FHA insurance
                                               losses. Results from these audits have noted
     HUD has taken a number of actions to      significant lender underwriting deficiencies,
reduce risks to homebuyers including the       prohibited late endorsed loans, inadequate
following:                                     quality controls, and other operational
                                               irregularities. OIG’s recommendations have
     Established an automated systems          sought monetary recoveries through loan
     control to preclude the predatory         indemnifications exceeding $159.7 million,
     lending practice of “property flipping”   loss reimbursements of more than $10.2
     on FHA-insured loans;                     million, and appropriate civil remedies.
                                               During the current semiannual reporting
     Established an “appraiser watch”          period, OIG completed 31 external audits of
                                               FHA-approved mortgage lenders as well as
     process, wherein appraisers with poor
                                               three internal audits of single-family
     performance records are automatically
                                               program activities. Additionally, OIG’s
     targeted for monitoring and
                                               investigative workload in single-family
     disqualification from program
                                               fraud prevention continues to grow
     participation if they violate FHA
                                               dramatically. During the current semiannual
     standards;
                                               period, OIG opened 115 investigative cases
                                               and closed 261 cases in the single-family
     Established an automated under-           housing program area, resulting in 255
     writing system, the Technology Open       indictments, 288 arrests, and 111
     to Approved Lenders (TOTAL)               convictions/pleas/pretrial conversions.
     Scorecard to increase lender efficiency
     through more consistent, objective             OIG’s audit of FHA’s FY 2005 financial
     evaluations of the credit worthiness of
                                               statements also reported a need to
     borrowers; and
                                                    Incorporate better risk factors and
     Initiated a process for the electronic
                                                    monitoring tools into its single-family
     verification of Social Security numbers
                                                    insured mortgage program risk
     to further reduce fraud in FHA
                                                    analysis and loan liability estimation
     applications.
                                                    process,
    While the GAO and OIG have
                                                    Continue improvement in the review
reported improved monitoring of lender
                                                    over the credit reform estimation
underwriting and default tracking and
expanded loss mitigation to help reduce             process, and
mortgage foreclosures, HUD needs to


HUD’s Management and Performance Challenges                                                    5
         Continue        enhancement        of       number of years in OIG’s annual audits of
         management controls over the                HUD’s financial statements. However, HUD
         portfolio of integrated insurance and       has demonstrated significant progress in
         financial systems.                          addressing weaknesses impacting the
                                                     accuracy of payments made under these
        OIG has tailored its audit and               programs. Most notably, HUD was the first
    investigation techniques to complement this      agency to receive a “green” baseline goal
    need, to support HUD management                  score on the PMA “eliminating improper
    improvements, and to provide an added            payments” initiative and has maintained
    deterrence to mortgage fraud. OIG                this score.
    developed a comprehensive training course
    for its staffs on auditing single-family              The estimate of erroneous payments
    lenders and conducting single-family fraud       that HUD reports in its Performance and
    investigations. To date, 154 auditors and 150    Accountability Report relates to HUD’s
    investigators have completed the single-         inability to ensure or verify the accuracy of
    family training courses.                         subsidy payments being determined and
                                                     paid to assisted households. HUD has
        Public and Assisted Housing Program          surpassed interim goals for reducing the FY
    Administration. HUD provides housing             2000 estimated $2 billion in net annual rental
    assistance funds under various grant and         housing assistance overpayments. HUD’s
    subsidy programs to public housing               interim goals were for a 15 percent reduction
    agencies and multifamily project owners.         in FY 2003, 30 percent reduction in FY 2004,
    These intermediaries, in turn, provide           and 50 percent reduction in FY 2005. These
    housing assistance to benefit primarily low-     goals were established based on the FY 2000
    income households. The Office of Public and      estimates of improper payments attributed
    Indian Housing (PIH) and the Office of           to both housing administrator errors in
    Housing monitor these intermediaries’            subsidy determinations and tenant
    administration of the assisted housing           underreporting of income upon which
    programs.                                        benefits are based.

         Accurate and timely information about            Although 60 percent of all subsidy
    households participating in HUD housing          determinations were found to be in error in
    programs is necessary to allow HUD to            2000, that number declined to 41 percent in
    monitor the effectiveness of the program,        FY 2003 and 34 Percent in FY 2004. The
    assess agency compliance with regulations,       baseline estimate of gross annual improper
    and analyze the impacts of proposed              payments has been reduced from $3.2 billion
    program changes. The level of reporting is a     in 2000 to $1.6 billion in 2003 and $1.2 billion
    criterion for housing agencies’ performance      in 2004.
    in both the Public Housing Assessment
    System and the Section 8 Management                  Paralleling HUD efforts, OIG’s
    Assessment Program. HUD’s goal is to             investigative and audit focus concentrates
    obtain 85 percent reporting of tenant data       on fraudulent practices and the lack of
    into the system.                                 compliance with the Section 8 program
                                                     statute and requirements. To comply with a
        HUD’s ability to effectively monitor         congressional request, OIG conducted 21
    housing agencies and assisted multifamily        external audits of the Section 8 Housing
    projects continues to present challenges in      Choice Voucher program during the current
    achieving the intended statutory purposes        semiannual reporting period. These external
    of the housing assistance funds. These           audits addressed whether housing agencies
    weaknesses have been reported for a              are correctly calculating subsidy amounts,


6                                                   HUD’s Management and Performance Challenges
correctly determining family income,            assessment could be performed. HUD’s
complying with housing quality                  Office of Community Development (CPD)
standards, fully using authorized               plans to reprogram existing funds of $380
vouchers, and implementing controls to          million for the disaster areas. To expedite
prevent duplicative and fraudulent              the process, CPD issued numerous waivers
housing assistance payments. OIG’s              to streamline its grant programs including
recommendations for these audits                Home Investment Partnership program
questioned costs of more than $5 million and    (HOME), Emergency Shelter Grants, and
identified more than $63 million that could     CDBG.
be put to better use.
                                                    HUD’s response to Hurricanes Katrina
Administering Programs                          and Rita falls into three separate categories:
                                                (1) use of existing appropriations on the
Directed Toward Victims of                      ground just before hurricane impact, (2) new
Hurricanes Katrina, Rita, and                   appropriations for hurricane relief, and (3)
                                                Federal Emergency Management Agency
Wilma                                           (FEMA) funds administered by HUD in
                                                support of mission-critical assignments.
                                                HUD was provided $1.525 million to provide
    In the aftermath of Hurricanes Katrina,     personnel to assist FEMA as part of the
Rita, and Wilma, the operations of HUD          housing task force in Baton Rouge. HUD is
have been thoroughly tested in the Gulf         administering the Katrina Disaster Housing
Coast area and have created extraordinary       Assistance Program (KDHAP), which was
challenges for the residents, HUD               previously funded to a level of $79 million
employees, and the business community.          and has received new appropriations of $390
The potential losses to HUD and its housing     million in housing vouchers for families
and community development programs are          displaced by Rita and Katrina, and HUD has
significant.                                    received new appropriations of $11.5 billion
                                                in emergency CDBG funds for recovery
     Congress estimates that damage to          expenses associated with Hurricanes Rita
residential structures will range from $17 to   and Katrina. HUD is preparing to
$33 billion. In the Presidentially Declared     administer the new funds, which will be
Disaster Areas (PDDA), HUD’s FHA single-        grants made directly to the five Gulf States
family insurance fund insured more than         impacted by the hurricanes. The Governors
328,000 mortgages having an unpaid              of Louisiana, Mississippi, Alabama, Florida,
principal balance of $23 billion. The           and Texas, respectively, have identified the
hurricanes affected 79 Ginnie Mae issuers,      appropriate State agency to receive the
causing GNMA to assess a $500 million risk      funds and are submitting plans to HUD
of loss to its investment portfolio. FHA’s      detailing how the block grant funds will be
multifamily program in the PDDA insured         used.
859 properties with an amortized principal
balance of $3 billion. Assets of HUD’s public        See Chapter 6 of this Semiannual Report
housing authorities (PHA) program               for further information on the challenges
suffered tremendous damage, affecting both      HUD faces in responding to these disasters
property structures and housing of almost       along with HUD OIG’s efforts to prevent and
102,000 families. The Housing Authority of      detect fraud and provide audit coverage
New Orleans (HANO) received a $21.8             for the billions of dollars HUD is
million grant from the public housing           administering to aid in the recovery.
capital fund reserve for the cost and repair
of its public housing inventory before a full



HUD’s Management and Performance Challenges
                                                                                                 7
    Chapter 2
HUD’s Single-Family
 Housing Programs
         The Federal Housing Administration’s                       The America’s Mortgage’s LaPlace
     (FHA) single-family programs provide                      branch manager formed an identity-of-
     mortgage insurance to mortgage lenders                    interest company, Imagine Foundation and
     that, in turn, provide financing to enable                provided prohibited gifts to borrowers.
     individuals and families to purchase,                     Imagine Foundation provided $400,000 in
     rehabilitate, and construct a home.                       gift funds to 73 America’s Mortgage
                                                               borrowers. The Internal Revenue Service
     Audits                                                    (IRS) denied Imagine Foundation’s
                                                               application for nonprofit status because it
                                                               did not meet nonprofit requirements.
         During this reporting period, the Office              According to the IRS, America’s Mortgage’s
     of Inspector General (OIG) issued                         owner served on the board of Imagine
     19 external audit reports in the single-                  Foundation. Under HUD requirements, the
     family housing program area. These reports                gifts should be considered as inducements
     disclosed more than $7 million in                         to purchase, requiring the sales price to be
     questioned costs and more than $33 million                reduced dollar for dollar in determining the
     in recommendations that funds be put                      maximum mortgage amount. Therefore,
     to better use. OIG reviewed 19 FHA                        HUD overinsured 73 FHA loans totaling
     single-family mortgage lenders.                           more than $7.6 million.

     Chart 2.1: Single-Family Housing Dollars                      Additionally, America’s Mortgage did
                                                               not originate and process loans in
     50,000,000
     40,000,000
                                                               accordance with HUD’s regulations, nor did
     35,000,000                                                its quality control plan meet HUD’s
     30,000,000                                                regulations, further putting FHA-insured
     25,000,000                                                loans at risk.
     20,000,000
     15,000,000
                                                                     OIG recommended that HUD require
     10,000,000
      5,000,000
                                                               America’s Mortgage to write down the loans
              0                                                for the $400,000 in inappropriate gifts by
                  Questioned Costs   Funds Put to Better Use   Imagine Foundation, indemnify 73 loans
                                                               totaling $6.9 million, and reimburse HUD
                                                               $300,000 for claims paid on four loans.
     Mortgagees, Loan                                          Further, HUD should take administrative
                                                               action as appropriate, including debarment
     Correspondents, and Direct                                and civil monetary penalties, against the
     Endorsement Lenders                                       president and board of Imagine Foundation.
                                                               America’s Mortgage should develop and
                                                               implement a quality control plan that
         The U.S. Department of Housing and
                                                               complies with HUD’s requirements before
     Urban Development (HUD) OIG audited
                                                               it is allowed to underwrite additional loans.
     America’s Mortgage Resource, Inc., of
                                                               (Audit Report: 2006-FW-1006)
     Metairie, LA, a lender approved to originate
     loans under HUD’s single-family mortgage
                                                                    HUD OIG audited BSM Financial LP
     insurance program. OIG selected America’s
                                                               because of an unusually high ratio of
     Mortgage because of its high default rate.
                                                               defaults in HUD’s San Antonio, TX,
     The objectives were to determine whether
                                                               jurisdiction. The objective was to determine
     America’s Mortgage followed HUD
                                                               whether BSM followed HUD loan
     origination requirements and implemented
                                                               origination requirements for the 51 loans
     a quality control plan in accordance with
                                                               selected for review.
     HUD requirements.


10                                                                    HUD’s Single-Family Housing Programs
    Forty-seven percent of BSM’s defaults            OIG recommended that HUD take
involved one seller, who owned 50 percent        appropriate administrative action against
of the lender. OIG reviewed 51 of the            Major Mortgage for not following HUD
defaulted loans that involved this seller. The   requirements and placing the insurance
lender approved mortgages on overvalued          fund at unnecessary risk. At a minimum,
properties because the lender allowed an         the actions taken should include requiring
identity-of-interest seller to add ineligible    Major Mortgage to indemnify improperly
and unsupported costs to the home                submitted loans currently insured and
construction costs and inadequately              reimburse HUD for known and future losses
reviewed the appraisals. Also, the lender        on foreclosed properties. (Audit Report:
did not adequately document analyses of          2006-KC-1004)
borrowers’ credit. Further, the lender’s
processing had technical deficiencies.                HUD OIG audited Ryland Mortgage
Consequently, HUD and the borrowers              Company’s loan origination activities for its
unnecessarily incurred increased risks           Tempe, AZ, branch office. OIG selected the
through higher insurance exposure and            Ryland branch in response to a request from
higher mortgage payments as evidenced by         HUD’s Santa Ana Homeownership Center
the borrowers defaulting on their                Quality Assurance Division. The objectives
mortgages.                                       were to determine whether Ryland acted in
                                                 a prudent manner and complied with HUD
     OIG recommended that HUD require            regulations, procedures, and instructions in
the lender to reimburse the insurance fund       its approval of FHA-insured mortgages and
almost $2 million for foreclosure losses         whether it adequately implemented its
incurred on 19 loans, buy down 28 loans by       quality control plan.
$320,000 for the amounts added to the loans,
and after the buydown, reamortize and                 Ryland did not comply with HUD
indemnify HUD for the more than $2.7             requirements and regulations in originating
million remaining balance on these 28 loans.     23 of the 24 loans we reviewed. The 23 loans
In addition, OIG recommended that HUD            totaling more than $3 million had multiple
ensure the lender implements adequate            origination deficiencies that should have
procedures to originate loans in accordance      precluded their approval. In addition,
with HUD requirements. (Audit Report:            Ryland did not adequately implement its
2006-FW-1007)                                    quality control plan. As a result, HUD
                                                 remains at a risk of loss on 20 of the loans,
     HUD OIG audited Major Mortgage of           valued at $2.7 million, and incurred other
Cheyenne, WY, a lender. OIG selected             actual losses of more than $85,000.
Major Mortgage because of its high rate of
late requests for endorsement. The objective          OIG recommended that HUD take
of the audit was to determine whether            appropriate administrative action against
Major Mortgage complied with HUD                 Ryland by seeking recovery for 14 of the
requirements when submitting late requests       loans totaling more than $85,000 in partial
for endorsement.                                 claims, loan modification, special
                                                 forbearance, and inflated sales prices;
     Of the 1,814 late requests for              seeking indemnification of more than $2.7
endorsement, 51 loans did not comply with        million against future losses on 20 loans; and
HUD requirements and, therefore, should          requiring Ryland to reimburse a borrower
not have been endorsed. These loans              for $4,000 in unallowable fees. (Audit
increased the risk to the FHA insurance fund     Report: 2006-LA-1001)
by $5.6 million and caused HUD to incur
related claims and losses.


HUD’s Single-Family Housing Programs                                                              11
         HUD OIG audited United Mortgage            addition, Matrix charged excessive,
     Corporation, Hauppauge, NY, a lender           unsupported, and/or unallowable closing
     approved under HUD’s single-family direct      fees totaling almost $8,000 on 13 loans.
     endorsement program. The objectives of the
     audit were to determine whether United              OIG recommended that HUD require
     Mortgage complied with HUD regulations         Matrix to reimburse losses for properties
     in the origination of FHA loans and            that have defaulted and indemnify those not
     developed and implemented a quality            defaulted on all improperly underwritten
     control plan that complied with HUD            loans. Also, HUD should require Matrix to
     requirements.                                  buy down the principal balance of the 13
                                                    loans not properly closed. (Audit Report:
          United Mortgage did not follow HUD        2006-KC-1005)
     requirements in the approval of 13 loans
     valued at more than $1.7 million, resulting        HUD OIG audited US Bank NA of
     in an unnecessary risk to the FHA insurance    Minneapolis, MN, a lender approved to
     fund. It also did not follow HUD               originate, underwrite, and submit insurance
     requirements when evaluating borrowers         endorsement requests under HUD’s single-
     related to an additional seven loans           family direct endorsement program. OIG
     reviewed.      As a result, mortgages          selected US Bank for audit because of its
     amounting to more than $1 million were         high late endorsement rate. The objectives
     approved for unqualified borrowers,            were to determine whether US Bank
     causing HUD to assume an unnecessary           complied with HUD’s regulations,
     insurance risk.                                procedures, and instructions in the
                                                    submission of insurance endorsement
          OIG recommended that HUD require          requests and in the underwriting of FHA
     United Mortgage to reimburse HUD for the       loans.
     loss incurred from claims and fees paid on
     one loan amounting to approximately                 US Bank did not always comply with
     $155,000 and indemnify HUD for more than       HUD’s requirements regarding late requests
     $1.6 million against future losses on the 12   for insurance endorsement. It improperly
     loans currently insured with material          submitted 67 (1.52 percent) late requests for
     underwriting deficiencies. OIG further         endorsement out of 4,406 loans tested. The
     recommended that HUD require United            loans were either delinquent or otherwise
     Mortgage to indemnify the seven active         did not meet HUD’s then requirement of six
     loans valued at approximately $1 million if    monthly consecutive timely payments after
     HUD determines the loans should not have       delinquency but before submission to HUD.
     been approved. (Audit Report: 2006-NY-         US Bank also incorrectly certified that both
     1001)                                          the mortgage and escrow accounts for six
                                                    loans and the escrow accounts for taxes,
         HUD OIG reviewed 65 FHA loans              hazard insurance, and mortgage insurance
     sponsored by the St. Louis, MO, branch of      premiums for 14 loans were current.
     Matrix Financial Services Corporation to
     determine whether Matrix properly                  Further, US Bank inappropriately
     underwrote and closed the loans for            underwrote 13 loans out of 28 loans reviewed
     endorsement. OIG selected Matrix because       that went to claim. Deficiencies included
     more than 18 percent of the loans closed in    unallowable amounts when determining the
     2003 defaulted within 2 years.                 debt for six streamline refinanced loans;
                                                    missing, outdated, or inadequate
        OIG found that Matrix did not properly      documentation required to support
     underwrite 32 loans with original mortgage     borrower income for seven purchase loans;
     amounts totaling nearly $3.3 million. In       and understatement of the borrowers’

12                                                         HUD’s Single-Family Housing Programs
expenses for three loans. For the 13 loans        employment and credit histories. As a
reviewed, US Bank incorrectly certified the       result, HUD’s insurance fund is at increased
integrity of the data supplied by other           risk in connection with loans totaling more
lenders used to determine the quality and         than $2.2 million.
insurance eligibility of one loan and
incorrectly certified that due diligence was          OIG recommended that HUD take
used in underwriting the remaining 12             appropriate administrative action against
loans. These improperly submitted and             First Magnus for not following HUD
inappropriately underwritten loans                requirements, including requiring First
increased the risk to HUD’s FHA insurance         Magnus to indemnify 21 loans with original
fund.                                             mortgage amounts of more than $2 million
                                                  and to indemnify HUD for future losses on
     OIG recommended that HUD require             two properties not yet sold, for which HUD
US Bank to indemnify HUD for any future           paid claims totaling more than $221,000.
losses on 14 loans with a total mortgage          (Audit Report: 2006-KC-1002)
value of more than $1.5 million, reimburse
HUD nearly $455,000 for the actual losses it          HUD OIG audited Huntington National
incurred on 14 loans, and indemnify HUD           Bank of Columbus, OH, a lender approved
for any future losses from more than              to originate, underwrite, and submit
$129,000 in claims paid on three loans once       insurance endorsement requests under
the properties are sold. OIG further              HUD’s single-family direct endorsement
recommended that HUD implement                    program. OIG selected Huntington for audit
adequate procedures and controls to               because of its high late endorsement rate.
address the deficiencies cited in this report.    The objectives were to determine whether
OIG also recommended that HUD take                Huntington complied with HUD’s
appropriate action against US Bank for            regulations, procedures, and instructions in
violating the requirements in effect at the       the submission of insurance endorsement
time when it submitted 18 loans with a            requests and underwriting of FHA loans.
mortgage value of more than $2 million
without the proper 6-month payment                    Huntington generally complied with
histories. In addition, OIG recommended           HUD’s requirements on late requests for
that HUD determine legal sufficiency to           insurance endorsement; however, it
pursue remedies under the Program Fraud           improperly submitted 20 late requests for
Civil Remedies Act against US Bank and/or         endorsement out of 761 loans tested. The
its principals for the incorrect certifications   loans were either delinquent or otherwise
cited in this audit report. (Audit Report:        did not meet HUD’s then requirement of six
2006-CH-1008)                                     monthly consecutive timely payments after
                                                  delinquency but before submission to HUD.
    HUD OIG reviewed 45 FHA loans                 Huntington also incorrectly certified that all
underwritten by the Overland Park, KS,            payments due were made by the borrowers
branch office of First Magnus Financial           before or within the month due for 12 loans.
Corporation to determine whether First
Magnus followed HUD regulations in                    Further, Huntington generally
underwriting the loans.                           complied with HUD’s underwriting
                                                  requirements. However, it underwrote two
    Of the 45 loans reviewed, 23 contained        FHA loans that later defaulted due to
material deficiencies that affected the           overstated income, understated liabilities,
insurability of the loans. Material               and a lack of valid compensating factors to
deficiencies included unsupported income          approve the two loans. Huntington also
and assets, questionable gift funds,              charged excessive and/or unallowable fees
underreported liabilities, and questionable       on five loans and incorrectly certified that

HUD’s Single-Family Housing Programs                                                               13
     due diligence was used in underwriting 5         Its quality control plan did not include all
     of the 32 loans reviewed.                        required elements as prescribed by HUD.

          OIG recommended that HUD require                OIG recommended that HUD require
     Huntington to indemnify HUD for any              Certified to indemnify HUD against future
     future losses on 14 loans improperly             losses on four loans totaling more than
     submitted for endorsement with a total           $660,000 and to reimburse HUD for a loss of
     mortgage value of more than $1.4 million         more than $728,000 for claims paid for five
     and take appropriate action against              loans. OIG further recommended that HUD
     Huntington for violating the requirements        take appropriate measures to ensure that
     on two loans with a mortgage value of nearly     Certified conducts required quality control
     $178,000. OIG also recommended that HUD          reviews and its written quality control plan
     require Huntington to indemnify HUD for          complies with HUD requirements. Finally,
     any future losses on two defaulted loans         OIG recommended that HUD take
     with a total mortgage value of more than         administrative action, as appropriate, up to
     $228,000 that were inappropriately               and including civil monetary penalties.
     underwritten, require Huntington to              (Audit Report: 2006-AT-1003)
     reimburse the borrowers or HUD as
     appropriate more than $1,300 in excessive             HUD OIG audited American Mortgage,
     and/or unallowable fees charged on five          Inc., of Cherry Hill, NJ, a lender approved
     loans, and implement adequate procedures         to originate FHA single-family mortgage
     and controls to address the deficiencies         loans, on the recommendation of HUD
     cited. In addition, OIG recommended that         officials because it had a high default rate.
     HUD pursue sanctions under the Program           The objectives were to determine whether
     Fraud Civil Remedies Act. (Audit Report:         American complied with HUD regulations,
     2006-CH-1007)                                    procedures, and instructions in the
                                                      origination of FHA loans and whether
          HUD OIG audited Certified Home              American’s quality control plan, as
     Loans of Florida, Inc., in Miami, FL, a lender   implemented, met HUD requirements.
     approved by HUD to originate and
     underwrite loans under HUD’s single-                  For 15 of the 23 loans reviewed,
     family mortgage insurance program. OIG           American did not exercise due diligence in
     selected Certified for review because of risk    its review of assets and liabilities or resolve
     factors associated with defaulted loans. The     inconsistencies in calculations, signatures,
     audit objectives were to determine whether       and Social Security numbers. Further,
     Certified complied with HUD regulations,         American could not locate three case files
     procedures, and instructions in the              and charged ineligible fees of more than
     origination and underwriting of FHA-             $4,500 on nine loans. In addition, American’s
     insured single-family mortgages and              quality control plan and the corresponding
     implemented its quality control plan as          contractor agreement for quality control
     required.                                        reviews did not contain requirements to
                                                      identify patterns of early defaults and
          Certified did not follow HUD                commonalities among loan origination
     requirements when underwriting 14 loans          participants, and the contractor did not
     totaling more than $1.8 million. It approved     perform required on-site branch reviews.
     the loans based on inaccurate employment,
     income, and gift information and other               OIG recommended that HUD consider
     deficient and/or unverified documentation.       administrative action against American,
     In addition, it did not fully implement its      including indemnification on 15 loans
     quality control plan and did not conduct the     valued at more than $1.6 million; require that
     required number of quality control reviews.      American refund ineligible fees; and require

14                                                           HUD’s Single-Family Housing Programs
American to develop written internal loan        endorsement, and implemented adequate
origination procedures to more closely           quality control procedures.
monitor its loan origination process. OIG
also recommended that HUD require                    American Lending Group did not
American to revise its quality control plan      properly originate eight loans, improperly
to include reviews for patterns and              submitted one loan for late insurance
commonalities among the loan origination         endorsement, and did not implement
participants and ensure the contractor           adequate quality control procedures.
performs on-site branch reviews. (Audit
Report: 2006-PH-1007)                                OIG recommended that HUD require
                                                 American Lending Group to indemnify
     HUD OIG audited the Plano, TX,              HUD for current and future losses due to
branch office of K Hovnanian American            improperly originated and late endorsed
Mortgage Company, LLC, because of its            loans and implement changes to its quality
high defaults, specifically defaults involving   control procedures. (Audit Report: 2006-
loans with one specific underwriter and one      KC-1007)
specific appraiser. The audit objectives were
to determine whether K Hovnanian                      HUD OIG audited Allied Mortgage
followed HUD origination requirements,           Group of Bala Cynwyd, PA, a lender
complied with HUD branch requirements            approved to originate loans insured under
in its Plano office, and implemented a           HUD’s single-family mortgage program,
quality control plan according to HUD            because its default rate was above the
requirements.                                    national average. The audit objective was
                                                 to determine whether Allied complied with
    K Hovnanian violated HUD                     HUD regulations, procedures, and
underwriting, branch, and quality control        instructions in the origination of loans.
requirements. As a result, it increased the
risk to the insurance fund for five                   Of the 28 loans reviewed, Allied did not
improperly underwritten loans with an            fully comply with HUD requirements for 10
original loan amount of more than $1.3           loans valued at $799,571. It did not exercise
million and overcharged borrowers more           due diligence in the review of assets and
than $31,000.                                    liabilities, ensure all borrowers met the
                                                 minimum investment requirement, and
     OIG recommended that HUD require            verify rental history. In addition, Allied
K Hovnanian to indemnify the five loans,         charged more than $1,200 for ineligible
reimburse losses on the four loans that had      commitment fees and overcharges for credit
significant underwriting deficiencies, and       reports on 11 loans. Further, Allied did not
reimburse borrowers for unallowable              establish and implement a quality control
closing costs. OIG also recommended that         plan in accordance with HUD regulations,
HUD require K Hovnanian to comply with           and the reviews performed by the contractor
HUD’s quality control and branch                 hired by Allied did not address all HUD-
requirements. (Audit Report: 2006-FW-            required elements.
1004)
                                                     OIG recommended that HUD require
    HUD OIG audited the FHA loan                 Allied to indemnify seven loans totaling
origination process of American Lending          almost $600,000 and reimburse HUD more
Group in St. Peters, MO, because if its high     than $200,000 on three loans that went into
default rate. The objectives of the audit were   default, require Allied to develop internal
to determine whether American Lending            procedures to more closely monitor its
Group properly originated FHA loans,             underwriting procedures, require Allied to
properly submitted late requests for             reimburse borrowers the balance of

HUD’s Single-Family Housing Programs                                                             15
     approximately $1,000 that it erroneously         whether 1st Preference acted in a prudent
     charged them, and require Allied to revise       manner and complied with HUD
     and implement its quality control plan to        regulations, procedures, and instructions in
     comply with HUD requirements. (Audit             the origination of loans.
     Report: 2006-PH-1006)
                                                           Of the loans selected for review, 1st
         HUD OIG audited the Allentown, PA,           Preference’s York, PA, and Greenbelt, MD,
     branch of Homestead Funding Corporation,         branch offices did not originate 38 percent
     a lender approved to originate mortgage          of them in accordance with HUD’s loan
     loans under HUD’s single-family direct           origination requirements. The branch
     endorsement program. OIG selected                offices did not fully comply with HUD
     Homestead because of its high default rate,      requirements for six loans valued at
     and it was recommended by HUD. The               $561,506. 1st Preference did not exercise due
     objective was to determine whether               diligence in the review of assets and gifts
     Homestead complied with HUD’s                    obtained during the loan closing process.
     regulations, procedures, and instructions in     These deficiencies contributed to an
     the origination of loans.                        increased risk to the FHA insurance fund.
                                                      In addition, 1st Preference did not complete
          Of the 11 loans OIG selected for review,    quality control reviews or site reviews of
     Homestead did not fully comply with              its branch offices in a timely manner or
     requirements for four of the loans valued at     document the review of loans that went into
     more than $270,000. Homestead did not            early default. As a result, 1st Preference did
     exercise due diligence in the review of assets   not identify or correct problems with
     and accepted faxed documents from                accuracy, validity, and completeness of its
     realtors. These deficiencies contributed to      loan origination in a timely manner.
     an increased risk for HUD’s insurance fund.
     In addition, Homestead did not complete its          OIG recommended that HUD require 1st
     quality control reviews in a timely manner.      Preference to indemnify HUD for
                                                      the loans that defaulted. OIG also
           OIG recommended that HUD require           recommended that HUD require 1 st
     Homestead to indemnify HUD on two loans          Preference to develop internal procedures to
     it issued contrary to HUD’s loan origination     more closely monitor its origination and
     procedures and on two loans that went into       underwriting procedures and strengthen its
     default, causing HUD to pay a claim.             internal control procedures to ensure
     Further, OIG recommended that                    reviews are completed in a timely manner
     Homestead develop internal procedures to         and reviews of the branch offices and
     more closely monitor its underwriting            defaulted loans are documented. (Audit
     procedures and ensure that required quality      Report: 2006-PH-1008)
     control reviews are completed within HUD’s
     required timeframe. (Audit Report: 2006-              HUD OIG reviewed 51 FHA loans
     PH-1004)                                         underwritten by First Magnus Financial
                                                      Corporation’s Denver, CO, branch office.
          HUD OIG audited the York, PA, and           OIG selected First Magnus for audit because
     Greenbelt, MD, branch offices of 1 st            of its high default rate. The objective was to
     Preference Mortgage Corporation, a lender        determine whether First Magnus followed
     approved to originate single-family              HUD requirements in underwriting the
     mortgage loans. OIG selected these branch        loans.
     offices because their average default rates
     were above the States’ average default rates.         Of the 51 loans reviewed, 32 required
     The audit objective was to determine             full underwriting and 19 were streamline


16                                                           HUD’s Single-Family Housing Programs
refinances. Twelve of the fully underwritten        OIG recommended that HUD
loans contained significant underwriting        require that American Title correct the
deficiencies. OIG also found 21 files had       problems, improve controls, complete all
overinsured mortgages and unallowable           disbursements, and pay HUD more than
fees. As a result, First Magnus placed HUD’s    $4,000 in interest. (Audit Report: 2006-DE-
insurance fund at risk for more than $1.6       1002)
million by not properly underwriting 12
loans, overinsured mortgages in the amount
of approximately $10,000, and charged
unallowable fees totaling $1,611.

    OIG recommended that HUD require
First Magnus to indemnify and/or
reimburse HUD for the potential and actual
losses on 11 remaining loans with significant
deficiencies, reimburse the appropriate
parties for the overinsured and unallowable
charges, and develop policies and
procedures to ensure adequate supervision
over its underwriting process. (Audit
Report: 2006-DE-1001)

Contractor Activities
    In response to a request from the
Denver Homeownership Center ’s Real
Estate Owned Division, HUD OIG audited
American Title Services, a contractor closing
sales of HUD homes in Denver, CO. The
objective was to determine whether
American Title complied with contract
terms for closing sales of HUD homes.

     American Title did not disburse funds
on time or in correct amounts, improperly
commingled HUD funds with retail funds,
earned interest on closing funds, and did not
reimburse HUD for bank charges.
American Title’s improper handling of
closing funds increased HUD’s and
homebuyers’ risk of not meeting financial
obligations and homebuyers’ risk of not
receiving funds to which they were entitled.
However, American Title’s performance has
improved since HUD cut back its number
of closings in August 2005.




HUD’s Single-Family Housing Programs                                                          17
     Investigations                                              insurance fraud. Coconspirator Donald
                                                                 Fazio pled guilty to one count of conspiracy
                                                                 and 11 counts of money laundering and
          During this reporting period, OIG
                                                                 agreed to a forfeiture and money judgment
     opened 115 investigation cases and closed
                                                                 of $2,594,169 on September 19, 2005.
     261 cases in the single-family housing
                                                                 Konstantin and Fazio, both mortgage
     program area. Judicial action taken on
                                                                 brokers and branch managers at the now
     these cases during the period included
                                                                 defunct Brucha Mortgage Bank, conspired
     $144,355,458 in investigative recoveries, 255
                                                                 with nonprofit entities in securing
     indictments/informations, 111 convictions/
                                                                 FHA-insured mortgages for unqualified
     pleas/pretrial diversions, 288 arrests, 18
                                                                 borrowers by submitting false loan
     civil actions, 1 personnel action, and 85
                                                                 documentation. As a result of their scheme,
     administrative actions.
                                                                 HUD realized losses of $11.6 million.

       Chart 2.2: Single-Family Recoveries                           Neeraj Mody, a loan officer with
                                                                 Challenge Mortgage, was sentenced in U.S.
                          False Statements
                                 1% RESPA Property Disposition
                                                                 District Court, Northern District of Illinois,
        Loan            Other
     Origination         1%             4%        2%             Chicago, IL, to 9 months in prison and 2
                                                      Title 1
        37%
                                                       2%
                                                                 years supervised release and ordered to pay
                                                                 $756,150 in restitution following his guilty
                                                                 plea to mail fraud. Mody and codefendant
                                                                 Theresa Holt, assistant director at North East
                                                                 Austin, a nonprofit organization approved
                                                    Flipping
                                                      53%
                                                                 by HUD to acquire HUD-owned properties
     Total Recoveries $144,355,458                               at a 30 percent discount and resell the
                                                                 properties under HUD’S Direct Sales
                                                                 Program, personally acquired then resold
         Single-family fraud is an investigative                 HUD’s discounted properties and provided
     priority for the Office of Investigation. OIG               false North East Austin employment
     continues mortgage fraud initiatives                        information to qualify for mortgages.
     nationwide that will help reduce fraud in                   Approximately 100 properties valued at $5.7
     the FHA single-family mortgage program.                     million were involved.
     Some of the investigations discussed in this
     report were conducted jointly with Federal,                      Leticia Martinez, a real estate agent at
     State, and local law enforcement agencies.                  Portillo Realty, and Teresa Romero, a loan
     The results of OIG’s more significant                       officer at PacWest Financial, were each
     investigations are described below.                         indicted in U.S. District Court, Central
                                                                 District of California, Riverside, CA, on
                                                                 three counts of conspiracy, false statements,
     Loan Origination Fraud                                      and aiding and abetting. Martinez and
                                                                 Romero, along with other coconspirators,
          Gary Konstantin, former branch                         allegedly defrauded HUD and commercial
     manager and loan officer, Brucha Mortgage                   lenders by ordering, purchasing, and using
     Bank, was found guilty in a civil proceeding                fraudulent employment documents and
     in U.S. District Court, Brooklyn, NY, in a                  Federal income tax returns to originate and
     forfeiture hearing seeking an $11.6 million                 approve FHA-insured mortgage loans for
     monetary judgment against him. On                           unqualified buyers. To date, HUD has
     September 29, 2005, Konstantin was found                    realized losses of approximating $120,000
     guilty on 61 counts of conspiracy, wire fraud,              involving 10 properties.
     mail fraud, money laundering, and


18                                                                      HUD’s Single-Family Housing Programs
     William Mendez, a former managing         2004, Molina pled guilty to two counts of
realtor for William E. Mendez Team, Inc.,      wire fraud and one count of aiding and
RE/MAX 100, Inc., pled guilty in U.S.          abetting. On November 7, 2005, Nelly
District Court, Denver, CO, to one count of    Rubiano, a former Notary Public, was
wire fraud and one count of money              sentenced to 3 years probation and ordered
laundering. Jose Alfredo Ramirez, a realtor    to pay total restitution of $655,920 ($406,692
with William E. Mendez Team, pled guilty       to HUD and $249,228 to Dynamic
to one count of wire fraud. Ramirez was        Investments, Inc.) pursuant to her guilty
previously indicted on September 29, 2005.     plea to wire fraud and aiding and abetting.
Nicholas Lopez, a fraudulent document          Molina, Rubiano, and others caused the
vendor at William E. Mendez Team, was          completion and submission of FHA-insured
sentenced to 5 years probation and ordered     mortgage applications containing false
to pay HUD $40,984 in restitution. Lopez       employment, income, and credit
was previously indicted on April 6, 2005.      information for unqualified buyers. The
Benedicta Gomez, owner of 1Service, an         defendants generated approximately $1.6
income tax and bookkeeping company, was        million in fraudulent FHA-insured
arrested after her September 13, 2005,         mortgages in Los Angeles County, and HUD
indictment charging her with five counts of    losses are estimated at $406,174.
wire fraud and aiding and abetting and
one count of criminal forfeiture. Mendez            Francine Sweet, a loan processor with
and the above coconspirators assisted          American International Mortgage Bankers
unqualified homebuyers in obtaining FHA-       (AIMB), and Matthew Francis, a loan officer
insured mortgages by providing false           with AIMB, were sentenced in U.S. District
Social Security numbers (SSN), income          Court, Eastern District of New York, Lake
information, and Federal income tax returns.   Success, NY, following their previous guilty
HUD realized losses approximating $2.35        pleas to false statements and conspiracy.
million on more than 300 FHA-insured           Sweet was sentenced to 1 year and 1 day
properties.                                    imprisonment and 3 years supervised
                                               release and ordered to pay $878,760 in
    George Rivas, a loan officer with Guild    restitution. Sweet, Francis, and AIMB
Mortgage Company, pled guilty in               facilitated the approval of FHA-insured
U.S. District Court, Central District of       mortgages for unqualified borrowers in
California, Los Angeles, CA, to two counts     metropolitan New York and Nassau and
of mail fraud.       Rivas, along with         Suffolk Counties. More than 90 percent of
coconspirators, created straw-buyers,          FHA-insured mortgages originating from
provided downpayment funds, and                AIMB contained one or more altered
prepared and used fraudulent income,           documents. HUD’s losses are estimated at
identity, and other documents to originate     $239,235 as a result of foreclosures. .
and approve FHA-insured mortgage loans
for unqualified buyers. To date, HUD has            Devon Bowie, president of Neighborhood
realized losses estimated at $1.8 million      Mortgage Bankers, and Barry Fauntleroy,
involving 46 FHA-insured properties.           president of EON, a real estate investment
                                               company, were sentenced in U.S. District
    Manuel Molina, also known as Manny         Court, District of New Jersey, Newark, NJ,
Molina, an unlicensed real estate agent and    following their earlier guilty pleas to one
loan officer, was sentenced in U.S District    count of conspiracy to commit false
Court, Central District of California, Los     statements. Bowie was sentenced to 2 years
Angeles, CA, to 6 months incarceration and     probation and ordered to pay HUD $500,000
36 months probation and ordered to pay         in restitution within 90 days of sentencing.
HUD $380,823 in restitution. On October 4,     Fauntleroy was sentenced to 21 months


HUD’s Single-Family Housing Programs                                                            19
     incarceration and 3 years probation and           Los Angeles, CA, on one count each of
     ordered to pay HUD $524,000 in restitution.       conspiracy, wire fraud, mail fraud, and
     In addition to Bowie and Fauntleroy,              aiding and abetting. Gatmitan and an
     coconspirators Stacie Morrero, an                 unnamed coconspirator allegedly used the
     underwriter at Neighborhood Mortgage              same loan applicant for three distinct FHA-
     Bankers, and Sean Mason, a closing attorney       insured mortgages from three different
     at EON, each pled guilty to a one-count           lenders to facilitate closing all mortgage
     information charging them with falsification      loans on the same day, thus hiding from
     of documents submitted to HUD. Peter Port,        lenders the simultaneous approval of the
     owner of Port Abstract, was sentenced to 5        three loans on the same day for the same
     months incarceration and one year                 applicant. To date, HUD has realized losses
     probation, fined $10,000, and ordered to pay      estimated at $720,000.
     HUD $500,000 in restitution. Keith Miles, a
     real estate contractor and owner of Mid-               Michael Sedor, an attorney/closing
     South Atlantic Asset Holding Company, was         agent with Penn State Abstract Agency, and
     sentenced to 2 years probation and ordered        Louis Fierro, a loan officer with FT Mortgage
     to pay HUD $26,000 in restitution. In             Company, MNC Mortgage, and First
     addition, Norm Murphy, president of               Horizon Home Loan Corporation, were
     Garden State Searches, was arrested and           sentenced in U.S. District Court, Middle
     pled guilty in State court to engaging in the     District of Pennsylvania, Dover, PA,
     unauthorized practice of law for falsifying       following their May 2003 guilty pleas to
     a real estate deed. Bowie, Fauntleroy, and        conspiracy to defraud the U.S. Government.
     the above coconspirators assisted                 Sedor was sentenced to 7 months
     unqualified borrowers with obtaining FHA-         incarceration, 7 months home confinement,
     insured mortgages by submitting false loan        and 2 years supervised release. Fierro was
     documentation and appraisals, purchased           sentenced to 15 months incarceration,
     properties using borrower funds, failed           followed by 2 years of supervised release.
     to complete promised renovations,                 Sedor, Fierro, and coconspirators created
     and overcharged borrowers excessive               fraudulent gift letters and other documents,
     origination and discount fees. As a result,       provided downpayment funds, and paid
     HUD realized losses in excess of $1.2 million     creditors for unqualified buyers, obtaining
     on 33 FHA-insured loans.                          more than $16.6 million in FHA-insured
                                                       mortgages on more than 150 properties. To
          Idalmis Preval Zayas, a real estate          date, HUD losses are estimated at $192,000.
     agent, pled guilty in U.S. District Court,
     Eastern District of Virginia, Norfolk, VA, to          Patrick Singletary, Robert Singletary,
     false statements. Zayas created false income      Peter Russo, and Clifford Shaw were
     tax returns and credit letters for unqualified    charged in a superseding indictment in U.S.
     buyers securing FHA-insured mortgages on          District Court, Middle District of Florida,
     properties used in the transportation and         Jacksonville, FL, with conspiracy, false
     housing of illegal aliens. To date, five          statements to HUD, wire fraud, and bank
     additional defendants pled guilty to charges      fraud violations. In addition, a forfeiture
     of using false information to purchase            order for $17 million in assets, including six
     homes with FHA-insured mortgages and              residential properties, three businesses, and
     transporting and harboring illegal aliens for     ten vehicles was issued. The defendants
     personal gain.                                    allegedly conspired in a property-flipping
                                                       scheme involving inflated appraisals and
         Carlos Gatmitan, a real estate broker         straw-purchasers channeled through
     and owner of Investors Plus, a mortgage           Tropical Mortgage, Sunshine Mortgage,
     brokerage entity, was indicted in U.S.            Universal Title, and CAL and Eagle
     District Court, Central District of California,   Investments, entities they owned and

20                                                            HUD’s Single-Family Housing Programs
operated. To date, HUD has realized losses          Chris Liano, a certified HUD appraiser
of $7.3 million.                               and owner of CLA, Inc., and Robert Dosch,
                                               a certified HUD appraiser employed at CLA,
    Lorena Marquez, an escrow officer at       were each sentenced in U.S. District Court,
South Coast Title Company, was indicted in     Eastern District of New York, Long Island,
U.S. District Court, Central District of       NY. Liano was sentenced to 3 years
California, Los Angeles, CA, on one count      probation and ordered to pay HUD
of mail fraud. On November 22, 2005, Mario     $63,037,314 in restitution following his April
Izquierdo, an assistant loan officer with      6, 2001, guilty plea to false statements to
Capital Mortgage, was indicted on four         institutions insured by the Federal Deposit
counts of wire fraud. Marquez and              Insurance Corporation (FDIC). In addition,
Izquierdo allegedly supplied downpayment       Liano forfeited $125,000. Dosch was
funds and/or purchased false identity          sentenced to 3 years probation and ordered
documentation to secure FHA-insured            to pay HUD $8,427,610 in restitution
mortgages for unqualified borrowers. To        following his November 13, 2000, guilty plea
date, $1,483,167 in FHA-insured loans has      to false statements. Dosch also forfeited
resulted in HUD losses of $441,556.            $75,000. Liano and Dosch overvalued
                                               appraisals on more than 300 FHA-insured
     Howard Thaler, a disbarred attorney       properties originated and issued from the
working as a mortgage broker and               now defunct Mortgage Lending of America,
speculator, was convicted in U.S. District     Ryan’s Express Equities, and Smithhaven
Court, Southern District of New York,          Mortgage, mortgage companies formerly
Yonkers, NY, on two counts of making false     located in Long Island, NY. As a result, 448
statements, two counts of making false         FHA-insured properties defaulted, and
statements to HUD, four counts of mail         HUD realized losses of more than $94.5
fraud, one count of wire fraud, and one        million.
count of conspiracy. Thaler was sentenced
to 7-years incarceration and 3 years               Morgan Haines and Theodore
supervised release, and ordered to pay         Antonucci, Jr., both investors, pled guilty in
$522,496 in restitution. Thaler was involved   U.S. District Court, Western District of New
in fraudulent real estate transactions, to     York, Rochester, NY. Haines pled guilty to
include preparing false documents to assist    one count of false statements to HUD, and
nonqualified homebuyers in securing FHA-       Antonucci pled guilty to one count of
insured mortgages and selling property         conspiracy to commit bank fraud. In
owned by an estate and retaining the sale      addition, on December 12, 2005,
proceeds.                                      coconspirator William O’Keefe was
                                               sentenced to 2 years incarceration and 5
     Matthew Nagy pled guilty in U.S.          years supervised release and ordered to pay
District Court, Western District of Texas,     the U.S. Department of Justice (DOJ)
Austin, TX, to one count of wire fraud.        $281,616 in restitution. Haines, Antonucci,
Nagy purchased residential property using      and O’Keefe purchased homes in the
false documents and misrepresented his         Rochester, NY, area, flipped the properties
intent to occupy the property as his primary   to each other at inflated values, provided
residence. Nagy and 19 codefendants were       false documentation to secure FHA or
previously indicted for conspiracy, mail       conventional financing on the properties,
fraud, wire fraud, bank fraud, money           and defaulted on mortgage loans in excess
laundering, and aiding and abetting for        of $1 million shortly afterward. To date,
allegedly defrauding federally insured         HUD has paid claims on two FHA-insured
financial institutions and mortgage lenders    properties and realized losses of $186,475.
of more than $15 million.


HUD’s Single-Family Housing Programs                                                            21
         Humberto Maravi, a loan officer with             computer sales and service business in
     Ark Mortgage, was sentenced in U.S.                  Freeport, IL, prepared false verification of
     District Court, District of New Jersey,              employment and credit letters for potential
     Newark, NJ, to 3 years probation and                 FHA borrowers. Barnes, who provided false
     ordered to pay HUD $561,775 in restitution           employment, landlord, and gift letters,
     following his previous guilty plea to                purchased and resold three properties with
     conspiracy and false statements. Maravi              FHA-insured mortgages to unqualified
     recruited and assisted nonqualified                  buyers. Nicks, Nelson, and Barnes admitted
     borrowers in obtaining FHA-insured                   to causing more than $100,000 in HUD losses
     mortgages by completing fraudulent                   as a result of foreclosures.
     mortgage applications and submitting
     fraudulent employment, financial, and other               In U.S. District Court, Eastern District
     loan documentation. HUD realized losses              of Michigan, Detroit, MI, a $41 million
     of more than $1.8 million when 37 properties         settlement agreement under the False
     defaulted.                                           Claims Act and the Program Fraud Civil
                                                          Remedies Act (PFCRA) was reached
          Kristin Bilynsky, a former real estate          between ABN AMRO Mortgage Group, Inc.,
     agent, was sentenced in U.S. District Court,         DOJ Civil Division, and HUD FHA. The
     Eastern District of Pennsylvania,                    settlement terms include a $16 million plus
     Philadelphia, PA, to 5 years probation and           lump sum payment, and ABN AMRO
     fined $13,000. Bilynsky pled guilty on July          Mortgage Group, Inc., waiving more than
     15, 2004, to making false statements to HUD          $24 million in FHA claims, resulting from
     and aiding and abetting. Bilynsky provided           783 defaulted FHA-insured mortgages
     false employment documentation, enabling             containing false FHA underwriting
     her sister to obtain an FHA-insured                  certifications. The settlement further
     mortgage.                                            eliminates potential future litigation on
                                                          approximately 28,000 FHA-insured loans
         Michael Fedynich, owner of Westgate              also containing false FHA underwriting
     Realty, agreed to an $802,035 civil judgment         certifications.
     with the DOJ under the False Claims Act.
     Fedynich previously pled guilty in U.S.                   Michael Dronet, a developer doing
     District Court, Northern District of Illinois,       business as Homebuyer’s, was sentenced in
     Chicago, IL, to providing downpayment                U.S. District Court, Baltimore, MD, to 1 year
     funds and false closing certifications in the        and 1 day in prison and 3 years supervised
     origination and sale of 10 FHA-insured               release and ordered to pay HUD $756,268 in
     properties resulting in HUD losses of                restitution following his previous guilty plea
     $516,429.                                            to conspiracy to make false statements. In
                                                          or about 1998, Dronet purchased low-priced
          Chad J. Nicks, Dale Nelson, and Tasha           homes, performed minor repairs, and resold
     Barnes, also known as Tasha Thompson,                the properties at inflated prices. Dronet
     each pled guilty in U.S. District Court,             introduced potential buyers to codefendant
     Northern District of Illinois, Rockford, IL,         Bart Arconti, a former loan officer with
     to one count of false statements to HUD.             Capital Mortgage Bankers, who prepared
     Nicks, Nelson, and Barnes were previously            false documents for nonqualified borrowers
     indicted in June 2005. Nicks, who owned              who obtained FHA-insured mortgages.
     and operated Planet Wireless, a cellular             HUD realized losses greater than $750,000
     telephone store in Freeport, IL, prepared            when 18 FHA-insured loans defaulted.
     false verification of credit letters for potential
     FHA borrowers. Nelson, who owned and                    Sharon Blake pled guilty in U.S. District
     operated AMD Sales and Services, a                   Court, Middle District of Pennsylvania,


22                                                               HUD’s Single-Family Housing Programs
   Harrisburg, PA, to processing and                     insured properties and realized losses
   originating FHA-insured loans containing              approximating $3,224,417.
   fraudulent information. Blake, a former loan
   processor with Sunset Mortgage Company,                    Wilfred Changasie pled guilty in U.S.
   was previously convicted for her                      District Court, District of Massachusetts,
   participation in an FHA mortgage-flipping             Springfield, MA, to three counts of wire
   scheme. From 1998 to 2001, Blake and an               fraud and conspiracy to launder money. On
   unnamed coconspirator originated 85 FHA-              January 13, 2006, Paul Starnes, David
   insured home loans containing fraudulent              McCoy, and Marc Brown, real estate brokers,
   information. Forty of the loans, valued at            pled guilty to two counts of wire fraud and
   more than $1.2 million, contained fictitious          one count of conspiracy to commit money
   information, resulting in HUD losses of               laundering and are subject to forfeitures up
   $740,559. Blake also conspired with                   to $15 million. Changasie, Starnes, McCoy,
   property speculators Earl Ginter, Jr., David          and Brown are 4 of 13 defendants indicted
   Walsh, and Ronald Fruth to provide                    on September 9, 2005, for wire fraud and
   borrowers with downpayment funds and                  conspiracy to launder money in a property-
   fabricated gift fund letters. Ginter, Walsh,          flipping scheme; the remaining nine
   and Fruth were previously convicted.                  defendants await trial. The defendants
                                                         acquired more than 70 single-family
       Palmida Casanova, also known as                   properties in the Springfield area, including
   Palmira Sosa, Ruth Lizarraga, and Palmira             several through HUD’s Real Estate Owned
   Martinez, were indicted in U.S. District              (REO) program, inflated the values as much
   Court, Central District of Utah, Salt Lake            as 200 percent, and falsified documents to
   City, UT, on five counts of FHA violations,           facilitate property flips. Approximately $5.9
   four counts of misuse of a SSN, two counts            million in FHA-insured mortgages is at risk.
   of possession of false identification, and five
   counts of aiding and abetting. Cassanova                  Jeff Smith, a realtor with Green Castle
   and coconspirators allegedly recruited and            Realty, was sentenced in U.S. District Court,
   assisted unqualified illegal alien                    District of New Jersey, Newark, NJ, to 5
   homebuyers in obtaining FHA-insured                   months home imprisonment, 3 years
   mortgages without valid SSNs, legal                   probation, and ordered to pay HUD $115,593
   status, or accurate employment history. To            in restitution. On January 18, 2006,
   date, HUD has foreclosed 87 FHA-                      Christopher Santarsiero was sentenced to 6
                                                         months home imprisonment and 5 years




Copyright, 2006. The Republican - Springfield, MA. Reprinted with permission.




    HUD’s Single-Family Housing Programs                                                                 23
     probation and also ordered to pay HUD           FHA-insured mortgages. HUD realized
     $115,593 in restitution. Both Smith and         losses approximating $1,123,030.
     Santarsiero previously pled guilty to one
     count of conspiracy to commit false                  Ifiok Equere, loan broker and real estate
     statements.     Smith and Santarsiero           investor operating as Omega and Paradigm
     conspired with loan officer David               Mortgage, pled guilty in U.S. District Court,
     Cobianchi, U.S. Mortgage, to create and         Eastern District of Missouri, St. Louis, MO,
     submit fraudulent documents allowing            to false statements to HUD and felony
     unqualified borrowers to obtain FHA-            possession of a firearm. Equere, previously
     insured mortgages. As a result of their         indicted on October 13, 2005, admitted using
     scheme, about 20 FHA-insured mortgages          false documents to flip properties and broker
     defaulted, resulting in HUD losses              FHA-insured mortgages, causing HUD
     approximating $320,000. Cobianchi pled          losses of $105,000. Equere, who has a prior
     guilty in May 2005 and awaits sentencing.       felony conviction for conspiracy to import
                                                     heroin, also admitted to illegally possessing
          Sean Teelucksingh, a former loan officer   a firearm.
     with Maxwell Mortgage, who pled guilty on
     April 6, 2005, to one count of conspiracy to         Bryon Fitchpatrick, Shatanya Douglas,
     commit wire fraud and false statements to       also known as Shatanya Fitchpatrick,
     HUD, was sentenced in U.S. District Court,      Kathleen Fitchpatrick, Manjur Alam, Phillip
     Middle District of Florida, Tampa, FL, to 18    Fish, Deverell Jones, and Demond Reed were
     months incarceration and 3 years                charged in a 13-count superseding
     supervised release and was ordered to pay       indictment in U.S. District Court, District of
     $199,900 in restitution ($65,505 jointly and    Kansas, Wichita, KS, alleging conspiracy to
     severally), in addition to a $100,000           defraud HUD, wire fraud, and aiding and
     monetary judgment. Teelucksingh was             abetting. Bryon Fitchpatrick and Shatanya
     further ordered to attend substance abuse,      Fitchpatrick, husband and wife real estate
     anger management, interpersonal                 investors and owners of ABS Rentals and
     relationship, and respect for authority         Investments, allegedly used straw-buyers
     counseling and prohibited from incurring        Kathleen Fitchpatrick, Jones, and Reed to
     new credit charges, opening additional lines    purchase HUD-owned properties as
     of credit, acquiring/obligating himself for     owners/occupants. Alam, a realtor with
     major purchases without probation officer       ReMax Preferred Properties, and Fish, a
     approval, or engaging in any employment         realtor with Prudential Dunning, allegedly
     that provides him access to personal and/or     knew HUD-owned properties were
     financial information of others.                purchased for investment purposes but
     Teelucksingh used false identities, false       processed the property sales as owner/
     income information, and straw-buyers to         occupant, thus preventing true owner/
     obtain conventional and FHA-insured loans       occupants and nonprofit entities any
     for his personal benefit.                       opportunity to acquire the properties. In
                                                     addition, Alam allegedly knew Byron
          Brothers Paul and William Peterson,        Fitchpatrick stored illegal drugs in and used
     doing business as Peterson Land and             drug proceeds to purchase HUD-owned
     Development, were each found guilty of one      properties. Byron Fitchpatrick is also
     count of conspiracy and one count of false      charged with unlawful possessing of a
     statements in U.S. District Court, Central      firearm in furtherance of drug trafficking
     District of California, Los Angeles, CA. The    and unlawful possession of illegal drugs
     Petersons knowingly conspired and made          with the intent to distribute.
     false, fictitious, and fraudulent statements
     to HUD when purchasing properties with             Kenneth Jenkins and coconspirators
                                                     Sabena Ingalls, Walter Jenkins, Ronald
                                                     Rogers, Rita Jackson-Paulk, and Thomas
24                                                         HUD’s Single-Family Housing Programs
Harper were ordered in a U.S. District Court,     originator, and instructed to pay HUD
Camden, NJ, restitution hearing, to pay           $76,123 in restitution. Coconspirator Axel
HUD $134,774, National City Mortgage              Bonilla, a former loan officer at Main Street
$142,155, and $10,240 to five individual          Mortgage and Ark Mortgage, pled guilty to
borrowers who suffered financial hardship.        two counts of mail fraud on February 10,
The court further ordered the restitution to      2006. Bonilla assisted unqualified borrowers
commence upon release from incarceration.         in obtaining FHA-insured mortgages by
Kenneth Jenkins and the above                     providing false documents and paying
coconspirators were indicted, convicted, and      Barlow $500 to $1,500 for each fraudulent
sentenced on numerous counts involving            FHA-insured loan she approved. Bonilla
wire fraud, conspiracy, possession and/or         further embezzled and converted more than
distribution of controlled substances, and        $1.2 million in investor funds by creating
money laundering. Kenneth Jenkins, a drug         false documents, reporting fictitious
wholesaler, organized and operated a $1           investment earnings, and using investor
million scheme using crack cocaine profits        funds to purchase residential properties. To
to buy abandoned and dilapidated                  date, HUD has realized losses of $76,123
residential properties in Camden, perform         when six FHA-insured mortgages
cosmetic repairs, and flip the properties at      defaulted.
inflated values to unqualified buyers,
securing fraudulent FHA-insured loans.                 Kings Mortgage Services, Inc., entered
                                                  into a settlement agreement with the United
     Gordon Nelson, a real estate developer       States Attorney’s Office, Eastern District of
with Jae Horn-Gerber, and Linda Martz             California, Fresno, CA, and HUD. Kings
were sentenced in U.S. District Court,            Mortgage Services’ former agent, Carol
Northern District of Illinois, Chicago, IL, for   Mercer, was convicted on January 13, 2003,
their previous guilty pleas to a real-estate      of making a false statement to HUD for
gift fund scheme. Nelson was sentenced to         preparing or causing to be prepared false
1 year home confinement and 3 years               documentation for four FHA-insured
probation; Horn-Gerber was sentenced to 2         mortgages. Kings Mortgage Services, Inc.,
years probation and ordered to perform 120        agreed to pay HUD $147,936.
hours of community service; Martz was
sentenced to 1 year probation and ordered              Patricia Mays pled guilty in U.S. District
to perform 100 hours of community service.        Court, Northern District of Illinois, Chicago,
The defendants were ordered to pay HUD            IL, to multiple counts of mail fraud and wire
$650,000 in restitution, jointly and severally    fraud. Mays admitted she participated in a
with other co-defendants. Nelson, Horn-           real estate fraud scheme and submitted false
Gerber, Martz, and other codefendants             loan documents for unqualified borrowers
provided unqualified buyers downpayment           obtaining FHA-insured mortgages on
funds to obtain FHA-insured mortgages.            properties located in south Chicago. HUD
HUD losses exceed $650,000 and involve            realized more than $3 million in losses
more than 40 FHA-insured properties.              involving more than 30 properties.

     Laura Barlow, a former underwriter                Violet Duarte, an office assistant with
with Main Street Mortgage Service and Ark         Platinum Capital Mortgage Company, was
Mortgage, pled guilty in U.S. District Court,     sentenced in U.S. District Court, Central
District of New Jersey, Trenton, NJ, to a one-    District of California, Los Angeles, CA, to 3
count Information charging her with false         years probation and ordered to pay HUD
statements and conspiracy. On February 24,        $1,013,966 in restitution following her May
2006, Barlow was sentenced to 3 years             26, 2004, guilty plea on two counts of
probation, ordered to refrain from any            wire fraud. Duarte purchased and
employment as an underwriter/loan                 used fraudulent documents to assist

HUD’s Single-Family Housing Programs                                                                25
     nonqualifying borrowers in securing FHA-         more than $25 million. HUD realized losses
     insured mortgages. As a result, HUD              greater than $1.9 million when 58 FHA-
     realized losses of more than $1 million when     insured loans defaulted.
     13 FHA-insured properties foreclosed.
                                                           Nancy Rios, a loan officer with Colorado
          Katrina Soukkaseum, a manager with          Bank and Trust, pled guilty in Colorado State
     Freedom Financial Mortgage Company               District Court, Jefferson County, Denver,
     (FFMC), was sentenced in U.S. District           CO, to one count of theft of $15,000 or more.
     Court, Eastern District of Arkansas, Little      Rios fraudulently originated 30 FHA-
     Rock, AR, to 3 years probation and ordered       insured mortgages by assisting with the
     to pay five financial institutions $15,735 in    creation of fraudulent documentation for
     restitution following her May 19, 2005,          nonqualified borrowers. As a result, HUD
     guilty plea to one count of conspiracy. From     realized losses of $194,617.
     January 2000 to March 2002, Soukkaseum
     and coconspirators employed with FFMC                 Donald W. Gupton, president of Donald
     and Absolute Abstract and Title (AAT) failed     W. Gupton, Inc., doing business as Dynasty
     to disclose inflated fees, provided false and    Homes of Henderson, Superior Housing
     misleading information, and falsified loan       Center, Creative Real Estate, Manufacturing
     origination and title history documents          Housing Sales Center, CRE Properties LLC,
     relating to at least 84 loans valued at more     and M&G Properties, Inc. (The Companies),
     than $3.5 million. In addition, Soukkaseum       and Richard Meador, a sales manager for
     and codefendants conspired to commit Real        Gupton, pled guilty in U.S. District Court,
     Estate Settlement and Procedures Act             Eastern District of North Carolina, Raleigh,
     (RESPA) violations by charging borrowers         NC. Gupton pled guilty to one count of
     tremendous document preparation fees             conspiracy and one count of money
     payable to Jefferson Doc Prep ( JDP);            laundering; Meador pled guilty to one count
     accepting higher yield spread premiums           of conspiracy to commit money laundering.
     from funding lenders; and failing to disclose    Gupton further agreed to forfeit his or The
     the relationship among FFMC, AAT, and            Companies’ real property, a Harley
     JDP.                                             Davidson motorcycle, a Lexus automobile,
                                                      and more than $11 million in cash or other
          Mark Young, former owner and branch         assets. The Companies were indicted on one
     manager of the now defunct Nevada First          count of conspiracy and one count of money
     Residential Mortgage Company (NFRMC),            laundering on March 8, 2006. In addition to
     was sentenced in U.S. District Court, District   Gupton, Meador, and The Companies,
     of Nevada, Las Vegas, NV, to 78 months           Donald Scott Carroll, a former salesperson
     incarceration and 3 years supervised release     at Creative Real Estate and Manufacturing
     and ordered to pay HUD $457,740 in               Housing Sales Center, was charged with
     restitution. On September 1, 2005, Young         false statements, mail fraud, wire fraud, and
     was found guilty of 32 counts of submitting      bank fraud in an information filed on
     false information to HUD and one count of        December 22, 2005. Between 1999 and 2002,
     conspiracy. From May 2000 to June 2002,          Gupton, Meador, and others, using The
     Young conspired with NFRMC employees             Companies, bought and sold more than 150
     and employees of General Realty to               manufactured and mobile homes, some
     manufacture and submit false employment          including land, and assisted unqualified
     and      income     documentation         for    borrowers in obtaining FHA-insured
     nonqualifying borrowers, mostly illegal          mortgages valued at more than $18 million
     immigrants from Mexico, and directed loan        by using fictitious trade-ins, providing cash
     officers and processors to originate 233         and fabricated gift letters, and falsely
     fraudulent FHA-insured loans valued at           inflating values and/or certifying land


26                                                           HUD’s Single-Family Housing Programs
ownership. To date, HUD realized losses of       FHA-insured loans using bogus documents.
$5,818,681, and Gupton agreed to pay HUD         As a result, HUD realized losses of $302,365
$4,668,586 in restitution.                       when 11 FHA-insured loans defaulted.

     Steven Winter, a realtor with Kent
Amlin Realty, pled guilty in U.S. District
                                                 Identity Fraud/False Social
Court, Southern District of Ohio, Columbus,      Security Numbers
OH, following the filing of an information
charging him with four counts of filing false        Steven Anthony Watt, also known as
Federal income tax returns, and six counts       Jayru Watt, was indicted and pled guilty in
of false statements. Winter admitted to          U.S. District Court, Northern District of
falsifying credit, employment, and rental        Ohio, Cleveland, OH, to four counts of
history documents to qualify 70 borrowers        conspiracy and false oaths in bankruptcy.
for FHA-insured mortgages on properties          Watt was sentenced to 4 months
he was personally selling and failing to         incarceration and 2 years probation for
report the property sales proceeds to the IRS.   acquiring and using a SSN under a fictitious
HUD realized losses of $170,000 as a result      name to obtain credit, secure an FHA-
of foreclosure action on seven properties.       insured mortgage, and file bankruptcy.

     Mario Mendoza, a real estate broker              Jesus Bernal-Hernandez pled guilty in
with Weichart Realtors; Kenneth DiPrenda,        U.S. District Court, District of Utah, Salt
a former loan officer with AMS Mortgage;         Lake City, UT, to one count of false
and Myriam Vaca, a check casher for              statements and one count of false
Mendoza, pled guilty in U.S. District Court,     bankruptcy documents. Bernal-Hernandez
New Jersey, Newark, NJ, to an information        was indicted on April 27, 2005, and arrested
charging them with conspiracy to submit          on August 15, 2005, for assuming another’s
false statements to HUD. In addition, Linda      identity and using false identity documents
Serrano, a closing attorney, pled guilty to      to secure an FHA-insured mortgage and file
making false statements to HUD. Mendoza,         bankruptcy. HUD’s loss is estimated at
DiPrenda, Vaca, and Serrano recruited and        $123,026.
assisted unqualified borrowers with
obtaining FHA-insured mortgages by
                                                      Florentino Ipina was sentenced in U.S.
submitting fraudulent gift letters and
                                                 District Court, Northern District of Texas,
employment, identity, and other loan
                                                 Dallas, TX, to 1 year and 1 day incarceration
documentation. HUD realized losses in
                                                 and 2 years supervised release and ordered
excess of $349,000 when 12 FHA-insured
                                                 to pay HUD $17,877 in restitution. Ipina,
properties defaulted. Mendoza was arrested
                                                 an undocumented alien, pled guilty in July
on December 2, 2005.
                                                 2005 to one count of misuse of an SSN. Ipina
                                                 used a false SSN to obtain and later default
    Stefan Crosby pled guilty in U.S.            on an FHA-insured loan, causing a $17,877
District Court, District of Nevada, Las          loss to HUD. Ipina will be deported upon
Vegas, NV, to one count of false statements      completion of his prison term.
to HUD and one count of conspiracy.
Crosby was indicted on September 13, 2005,
                                                     Jorge Acevedo-Velzquez was indicted in
for conspiring with Lionel Crosby, his
                                                 U.S. District Court, Middle District of
brother, and providing fraudulent
                                                 Georgia, Macon, GA, for false statements
employment, income, identification, and
                                                 and use of false identification. Acevedo-
other documentation to unqualified straw-
                                                 Velzquez allegedly provided false
buyers obtaining FHA-insured loans. In
                                                 identification documents to obtain and later
addition, both Stefan and Crosby applied for


HUD’s Single-Family Housing Programs                                                             27
     default on an FHA-insured mortgage,              sentenced to 10 months incarceration and
     causing a $47,053 loss to HUD.                   ordered to pay HUD $47,711 in restitution.
                                                      Collins, one of several subject homebuyers
         Enrique O. Montanez, an undocumented         who participated in a real estate scheme,
     alien homebuyer, was sentenced in 3 rd           used a false SSN and false income
     District Court, County of Salt Lake, Salt        information to obtain an FHA-insured
     Lake City, UT, to 3 years probation and          mortgage. Sheila Lockett and Tracey
     ordered to pay HUD $50,817 restitution and       Lockhart, also known as Tracey Richardson,
     report to Immigration and Customs                were sentenced for using false SSNs and
     Enforcement (ICE) for deportation.               income information to obtain FHA-insured
     Montanez pled guilty to one count of forgery     mortgages. Lockett was sentenced to 2 years
     and one count of communications fraud on         probation following her October 3, 2005,
     August 8, 2005, for using a false SSN to         guilty plea to making false statements.
     obtain and later default on an FHA-insured       Lockhart was sentenced to 15 months
     mortgage.                                        incarceration and ordered to pay HUD
                                                      $57,244 in restitution following her
          Maria Brito, Mario Morales Alvarez, and     November 1, 2005, guilty plea to making
     Adriana Osorio Mendoza, undocumented             false statements and aiding and abetting.
     alien homebuyers, were arrested pursuant
     their November 2005 indictment in 17th               Sonia Ramirez and Albertico Galindo,
     Judicial District, Adams County, Brighton,       previously indicted for false statements and
     CO, for offering a false instrument for          possession of false paper, were each
     recording, criminal impersonation to gain a      sentenced in U.S. District Court, District of
     benefit, and forged instrument possession.       Colorado, Denver, CO, to 3 years probation.
     Brito, Alvarez, and Mendoza allegedly            The court further ordered Ramirez to pay
     purchased properties and obtained FHA-           HUD $10,192 in restitution. Ramirez and
     insured mortgages using fraudulent               Galindo, two of several subject homebuyers
     immigration cards and SSNs. To date, HUD         who participated in a real estate scheme,
     has not sustained a loss.                        used false SSNs and income information to
                                                      obtain an FHA-insured mortgage. To date,
          Michael Hatton was indicted in U.S.         HUD has realized losses of $2,310,030
     District Court, Eastern District of Virginia,    involving approximately 90 homes with an
     Norfolk, VA, for false statements and using      estimated FHA-insured loan value of $13.5
     a false SSN. Hatton allegedly used a false       million.
     SSN and concealed prior bankruptcies when
     applying for an FHA-insured mortgage on              Tonya Hill, a mortgage broker and real
     property in Portsmouth, VA.                      estate investor with Sunset Mortgage, was
                                                      sentenced in U.S District Court, Eastern
         Odie Webster, a former realtor with          District of Missouri, St. Louis, MO, to 6
     Metro Brokers, pled guilty in U.S. District      months home confinement and ordered to
     Court, District of Colorado, Denver, CO, to      pay $401,914 in restitution to HUD and other
     two counts of false statements and               lenders. Hill pled guilty to bank fraud,
     possession of false papers. Webster was          bankruptcy fraud, false statements to HUD,
     previously indicted on April 20, 2005, and       and misuse of an SSN on November 1, 2005.
     arrested on April 27, 2005. Webster and          Hill flipped properties using false
     coconspirators assisted unqualified              documents to secure FHA-insured and
     homebuyers in obtaining FHA-insured              conventional mortgages.           Hill also
     mortgages using false SSNs and income            purchased her personal residence using a
     information. Daryl Collins, indicted on          false SSN to hide her assets from U.S.
     April 20, 2005, for Social Security fraud, was


28                                                           HUD’s Single-Family Housing Programs
Bankruptcy Court. As a result, HUD                   Milton G. Goddard, doing business as
realized a $30,163 loss.                        West Coast Land Group (WCLG), was
                                                sentenced in U.S. District Court, Eastern
     In Kansas City, KS, and Kansas City,       District of Michigan, Detroit, MI, to 18
MO, 33 undocumented aliens were                 months incarceration and 2 years supervised
arrested on State of Kansas felony charges      release and ordered to pay $31,000 in
issued by the Johnson County, KS, District      restitution to numerous victims. Goddard
Attorney’s Office involving identify theft      previously pled guilty to one count of wire
and false statements to FHA for their roles     fraud for his role in a bankruptcy scheme.
in a mortgage fraud scheme. Between             Goddard and codefendants accepted
February 2002 and September 2004, an            mortgage payments from distressed
unidentified loan officer and two real estate   homeowners attempting to avoid
agents allegedly originated approximately       foreclosure and deposited their funds into a
$5 million in FHA-insured mortgage loans        WCLG bank account but failed to pay
for illegal aliens using false SSNs.            mortgage loans as promised. To date, 120
                                                FHA-insured mortgages were identified.
     Maria Carmen Garcia, a loan officer at
Summit Mortgage, was sentenced in U.S.              Donald Kingston, owner of DBK
District Court, District of Arizona, Phoenix,   Properties, pled guilty in U.S. District Court,
AZ, to 5 years probation and ordered to pay     District of Utah, Salt Lake City, UT, to one
HUD $105,201 in restitution, jointly and        count of bankruptcy fraud. Kingston
severally with codefendant Leonel Estrella.     perpetrated an equity-skimming scheme
Garcia pled guilty to one count of false        throughout the State of Utah by obtaining
statements to HUD on July 25, 2005. On          quit-claim deeds from property owners in
February 27, 2006, Leonel Estrella, a real      financial distress, failed to pay mortgage
estate agent, was sentenced to 5 years          payments while collecting rents, and filed
probation and ordered to pay HUD $105,201       bankruptcy to stall foreclosure proceedings.
in restitution, jointly and severally with      To date, HUD losses exceed $150,000
codefendant Maria Carmen Garcia, and            involving six properties.
$12,363 to Washington Mutual Bank FA.
From May 2000 through August 2002,                  Barbara Kessinger, also known as Sheila
Garcia used false documents and SSNs            Murphy, pled guilty in U.S. District Court,
prepared by her brother, Leonel Estrella, to    Northern District of Illinois, Chicago, IL, to
qualify mutual clients for FHA-insured and      one count of bankruptcy fraud. Kessinger
conventional home loans. HUD realized           acquired one FHA-insured and two U.S.
losses of $140,310 when five FHA-insured        Department of Veterans Affairs (VA) loan-
loans defaulted.                                guaranteed properties using a bogus name
                                                and SSN, failed to make mortgage
     Edward Futch, also known as Edward         payments, and filed multiple sham
Daniels, pled guilty in U.S. District Court,    bankruptcies to hinder foreclosure
Eastern District of Virginia, Norfolk, VA, to   proceedings. As a result of her actions, HUD
an information charging him with one count      and VA realized losses of $74,000 and
of making false statements to HUD.              $36,000, respectively.
Futch admitted he purchased property and
secured an FHA-insured mortgage using a             Mark Neusch and Michael Davis, real
false SSN, fraudulent identity, and other       estate investors and managing members of
false documents.                                M&M Properties LLC and Reliable
                                                Properties LLC, were each indicted in the
Bankruptcy Fraud                                U.S. District Court, District of Utah, Salt
                                                Lake City, UT, on one count of equity


HUD’s Single-Family Housing Programs                                                              29
     skimming and three counts of bankruptcy          single-family property disposition closing
     fraud. Neusch and Davis obtained quit-           agent, allegedly diverted and retained
     claim deeds through misrepresentations to        closing funds in lieu of wiring closing
     property owners, failed to make mortgage         proceeds to HUD. As a result of his scheme,
     payments while collecting rents, and filed       HUD losses are estimated at $2.8 million.
     bankruptcy to forestall foreclosure
     proceedings. HUD realized losses of                   Todd Stall and Daniel Curtin, former
     $470,000 when 17 FHA-insured properties          partners in the law firm of Hankin, Hanig,
     foreclosed.                                      Stall, Caplicki, Redl, and Curtin, each pled
                                                      guilty in U.S. District Court, Southern
     Other Fraud/Crimes                               District of New York, Poughkeepsie, NY, to
                                                      one count of violating RESPA. From January
                                                      2001 through December 2004, Stall and
          Kathleen Johnson, a HUD-approved            Curtin provided no professional services but
     real estate broker at RE/MAX Realty, was         accepted $106,300 from Crystal Clear
     sentenced in U.S. District Court, Rochester,     Abstract Title when they sold title insurance
     NY, to 5 years probation and 6 months home       and supplied settlement services.
     confinement and ordered to pay HUD
     $22,800 in restitution. In April 2005, Johnson       In Rochester, NY, Rita Zambito, a real
     pled guilty to one count of mail fraud for       estate agent/broker for Realty USA, and
     collecting earnest deposits from potential       Kevin Parker, a private investor, entered into
     buyers, failing to deposit their funds in an     PFCRA settlements agreeing to pay HUD
     earnest deposit account, and keeping             $9,000 and $5,500, respectively. Parker
     approximately $26,000 for personal use. In       purchased two HUD REO properties as an
     addition, Johnson prepared and mailed            owner/occupant through Zambito and sold
     false prequalification letters from              or rented the properties immediately after
     mortgage companies and banks to First            the properties closed.
     Preston Management Company, certifying
     prospective buyers for financing.                    Edward Carrillo, owner of Sahara
                                                      Investments, pled guilty in Superior Court,
          Donald Lee Liverman, a developer            Maricopa County, Phoenix, AZ, to two
     doing business as 1st Homes, pled guilty in      counts of fraudulent schemes. Carrillo was
     U.S. District Court, Eastern District of         previously indicted on nine counts of
     Virginia, Richmond, VA, to one count of          fraudulent schemes, six counts of theft, and
     Federal tax evasion. Liverman, previously        one count of unlicensed real estate activity.
     indicted on numerous charges including           Carrillo accepted $989,800 in investor funds
     FHA fraud, purchased distressed                  to teach HUD’s preforeclosure business
     properties; flipped the properties to first-     procedures and purchase investment
     time homebuyers; failed to disclose              properties. Carrillo failed to acquire
     significant structural problems, termites,       investment properties as promised or return
     and/or water damage; and hid the property        investor funds.
     defects by generating fake repair completion
     letters from contractors. HUD losses are yet          In Newark, NJ, Denise Jones, a
     to be determined.                                Northern New Jersey State Prison payroll
                                                      clerk, entered into a false claims civil
         Norvel Brown, president of Mississippi       settlement agreement, consenting to pay the
     Valley Title, was indicted in U.S. District      U.S. Government $61,200. Jones purchased
     Court, Eastern District of Missouri,             two HUD Officer Next Door (OND)
     Herculaneum, MO, on two counts of wire           properties within 6 months and falsely
     fraud. From 2000 to 2005, Brown, a HUD


30                                                           HUD’s Single-Family Housing Programs
certified each OND property as her sole             Murray Beitman was sentenced in
residence.                                      Cumberland County Common Plea Court,
                                                Carlisle, PA, to 2 years incarceration and
    Carl A. Clayton was sentenced in U.S.       ordered to pay $30,685 in restitution to the
District Court, Baltimore, MD, to 2 years       victim for his role in a counterfeit
supervised probation and ordered to pay         Government National Mortgage Association
restitution of $18,000 following his            (GNMA) mortgage-backed certificate
September 2005 guilty plea to making false      scheme. Beitman swindled the savings of
occupancy statements to HUD. In May             an elderly woman when he sold her a
2000, Clayton purchased property from           counterfeit GNMA certificate, claiming it to
HUD through HUD’s OND program, failed           be worth $1.2 million on maturity in 30
to occupy the property for the required 3-      years.
year period, and rented the property to a
tenant approximately 30 days after closing.          Jamal Zafar, a real estate investor, pled
After purchasing and renting the OND            guilty in Nassau County Criminal Court,
property, Clayton entered into a law            Mineola, NY, to one count of attempted
enforcement officer’s lease with the Housing    criminal possession of a forged instrument.
Authority of Baltimore City and resided in      Zafar swindled two victims into investing
a HUD-assisted building paying $150 in          $165,000 for the purchase of property with
monthly rent. Clayton later relocated to        Section 8 subsidies, promising the victims
New York, NY, where he resided for the          Section 8 rent monies and proceeds from the
remainder of the OND-required 3-year            future property sale. With the victims’
occupancy period.                               money, Zafar purchased the property,
                                                collected Section 8 rents, sold the property
     John Henry Davis, correctional officer,    to another buyer, and realized $100,000 in
Ironwood State Prison, Blythe, CA, was          sale proceeds. Zafar, released on his own
indicted in U.S District Court, Los Angeles,    recognizance on the condition he returns
CA, on one count of false statements. Davis     $55,000 to the victims and $5,000 to the court,
allegedly purchased a house through HUD’s       faces an 18-month to 3-year jail sentence if
OND/Teacher Next Door (TND) program,            he fails to comply.
rented the property for 34 months, and
falsely certified he resided at the property         James Anthony Street, a police officer
and the property was his sole residence. As     with United States Postal Inspection Service
a result, HUD losses approximate $60,000.       (USPIS), was indicted in U.S. District Court,
                                                Los Angeles, CA, on two counts of making
     Realtor Rohan A. Johnson, also known       false statements to HUD. Street, a
as Ato Ra Ajah El, and real estate consultant   participant in HUD’S OND program,
Donovan Gilpin, doing business as Pre           allegedly owned property in Bloomington,
Amble Properties, were indicted in U.S.         CA, at the same time he submitted written
District Court, Central Islip, NY, on one       certifications claiming his OND property in
count of conspiring to defraud HUD and VA       Long Beach, CA, was his sole property and
in a multimillion dollar HUD- and VA-           residence. Street, who purchased the OND
owned property fraud scheme. Johnson and        property for $48,500, recently sold the
Gilpin allegedly filed fraudulent deeds on      property for $335,000.
one VA- and 14 HUD-owned properties,
preventing banks from deeding foreclosed            Steven Marquez, a loan officer at
properties to HUD or HUD and VA from            Primera Mortgage Company, was indicted
selling the properties to legitimate buyers.    on two counts of theft in Cook County
Johnson and Gilpin were arrested on             Circuit Court, Chicago, IL. Marquez
December 9, 2005.                               allegedly deceived property owners and


HUD’s Single-Family Housing Programs                                                              31
     acquired rights to their property, sold the     Brooklyn, NY, on one count of wire fraud
     property, and collected the sale proceeds.      and one count of conspiracy to defraud HUD
     The property owners, believing they were        and Countrywide Home Loans. Jones
     refinancing their $250,000 FHA-insured          allegedly submitted false documents to
     mortgage, mistakenly signed “power of           HUD and Countrywide Home Loans when
     attorney” papers assigning their                he flipped his FHA-insured property to his
     homeownership rights to Marquez. The            cousin, Rohan Vickers, who obtained an
     FHA-insured mortgage is in foreclosure.         FHA-insured mortgage on the property
                                                     from First Funding Mortgage Bankers. Jones
          In Newark, NJ, Toni Cruz, a New Jersey     received proceeds in excess of $51,000, as
     transit police officer, entered into a false    well as a short payoff on his original FHA-
     claims civil settlement agreement for           insured mortgage serviced by Countrywide
     $62,000 with DOJ. Cruz, who owned a             Home Loans. Countrywide Home Loans,
     principal residence, purchased a property       unaware the property for which it approved
     through HUD’s OND program and falsely           a short payoff was later flipped to straw-
     certified the OND property was her sole         buyer Vickers for $75,000 more than the
     residence.                                      approved purchase price, submitted an
                                                     insurance claim to HUD in excess of $85,000.
         Dwayne Jones was indicted in U.S.           Jones was arrested on March 16, 2006, and
     District Court, Eastern District of New York,   Vickers was arrested on March 21, 2006.




32                                                          HUD’s Single-Family Housing Programs
      Chapter 3
HUD’s Public and Indian
  Housing Programs
            The U.S. Department of Housing and                   including PHA activities with related
       Urban Development (HUD) provides grants                   nonprofit entities, and PHA pension plan
       and subsidies to more than 4,100                          forfeiture policy. In addition, OIG
       public housing authorities (PHA)                          conducted a corrective action verification
       nationwide. More than 3,100 PHAs                          review.
       manage public housing units, and almost
       1,000 with no public housing, manage units
       under Section 8 programs. Many PHAs
                                                                 Section 8 Housing Choice
       administer both public housing and Section                Voucher Program Activities
       8 programs. HUD also provides assistance
       directly to PHAs’ resident organizations to                   HUD OIG audited the Miami Dade
       encourage increased resident management                   Housing Agency’s, Miami, FL, Section 8
       of public housing developments and to                     Housing Choice Voucher program as part
       promote the formation and development of                  of OIG’s strategic plan. The objective was
       resident management entities and resident                 to determine whether Section 8-assisted
       skills programs. Programs administered by                 units met housing quality standards in
       PHAs are designed to enable low-income                    accordance with HUD requirements.
       families, the elderly, and persons with
       disabilities to obtain and reside in housing                   Of the 120 Section 8 units inspected, 117
       that is safe, decent, sanitary, and in good               did not meet minimum housing quality
       repair.                                                   standards. Thirty-eight units had significant
                                                                 housing quality violations. Projecting the
       Audits                                                    results of the statistical sample to the
                                                                 population indicates at least 12,387 of the
            During this reporting period, the Office             Agency’s 13,200 units did not meet
       of Inspector General (OIG) issued 31 reports:             minimum housing quality standards.
       one internal audit and 30 external audits in              Further, 3,265 units had significant housing
       the Public and Indian Housing (PIH)                       quality standards violations. As a result,
       program area. These reports disclosed more                tenants lived in units that were not decent,
       than $23 million in questioned costs and                  safe, and sanitary, and HUD made housing
       about $100 million in recommendations that                assistance payments for units that did not
       funds be put to better use. During this                   meet standards.
       reporting period, OIG reviewed the Section
       8 Housing Choice Voucher program                               OIG recommended that HUD require
       activities, and public housing activities,                the Agency to inspect all of the 117 Section 8
                                                                 housing choice voucher-assisted units to
     Chart 3.1: Public and Indian Housing Dollars                verify that corrective actions were taken by
                                                                 the landlord, and if not, to abate the rents or
      100,000,000                                                terminate the tenants’ vouchers. The Agency
       90,000,000                                                should also develop and implement an
       80,000,000                                                internal control plan to ensure units meet
       70,000,000                                                housing quality standards and inspections
       60,000,000
                                                                 meet HUD requirements to prevent an
       50,000,000
       40,000,000
                                                                 estimated $25.9 million from being spent on
       30,000,000                                                units with significant violations. Further,
       20,000,000                                                HUD should reduce or offset $7,300 of the
       10,000,000                                                Agency’s administrative fees for the 38 units
                0                                                with significant housing quality standards
                    Questioned Costs   Funds Put to Better Use
                                                                 violations. (Audit Report: 2006-AT-1001)



34                                                                    HUD’s Public and Indian Housing Programs
     HUD OIG audited the Housing                 payments it paid and administrative fees it
Authority of the City of Prichard’s, Prichard,   earned for ineligible units. Also, since the
AL, Housing Choice Voucher program as            Authority had inadequate internal controls
part of its strategic plan. The objectives of    over processing tenant files, HUD should
the audit were to determine whether the          reduce the Authority’s administrative fees
Authority only paid housing assistance           by 10 percent for fiscal years (FY) 2003 and
payments for units that were decent, safe,       2004, approximately $233,000. Finally, HUD
and sanitary; properly determined tenant         should require the Authority to repay
eligibility and subsidy amounts; and made        ineligible costs of more than $22,000 for the
housing assistance payments only to eligible     conflict-of-interest violation. (Audit Report:
landlords.                                       2006-AT-1004)

     The Authority failed to ensure that its         HUD OIG audited the Housing
units receiving housing assistance               Authority of the City of Winston-Salem’s,
payments met housing quality standards.          Salem, NC, Housing Choice Voucher
Of the 65 units reviewed, 97 percent, or 63,     program as part of the OIG strategic plan.
did not meet housing quality standards. Of       The objective was to determine whether
the 63 units, 45 were in material                units met housing quality standards.
noncompliance with housing quality
standards. In addition, the Authority paid           Of the 67 units OIG inspected, 51 did
more than $63,000 for ineligible units,          not meet minimum housing quality
including more than $8,000 for failed units      standards. Of the 51 units, 26 were in
requiring housing assistance payment             material noncompliance with housing
abatements and approximately $55,000 for         quality standards. As a result, HUD made
units that lacked annual inspections. It also    housing assistance payments for units that
earned more than $6,000 in administrative        did not meet standards. OIG estimates that
fees for ineligible units. OIG estimates that    over the next year, HUD will pay housing
HUD paid more than $14 million in housing        assistance payments of more than $6.4
assistance payments on units that may not        million for units in material noncompliance
have met housing quality standards. In           with housing quality standards.
addition, the Authority’s internal controls
over processing tenant files were not                 OIG recommended that HUD require
complete. Finally, the Authority violated        the Authority to inspect the 51 units that did
Federal and local conflict-of-interest           not meet minimum housing quality
provisions by allowing an Authority              standards to verify that the landlords took
employee and board member to rent to a           appropriate corrective actions.              If
housing choice voucher holder, resulting in      appropriate actions were not taken, HUD
more than $22,000 paid to this ineligible        should abate the rents or terminate the
landlord.                                        tenants’ vouchers. OIG also recommended
                                                 that HUD require the Authority to
    OIG recommended that HUD terminate           implement an internal control plan to ensure
the Authority’s Section 8 Housing Choice         its Section 8 units meet housing quality
Voucher program and transfer it to another       standards and inspections meet HUD
Alabama housing authority, require the           requirements to prevent an estimated $6.4
Authority to immediately abate the Section 8     million from being spent on units that are
housing assistance payments or terminate         in material noncompliance with standards.
tenant vouchers on the 63 units that do not      (Audit Report: 2006-AT-1005)
meet housing quality standards if
deficiencies are not corrected, and repay
more than $69,000 for housing assistance


HUD’s Public and Indian Housing Programs                                                           35
         HUD OIG audited the Municipality of         incorrectly received more than $841,000 in
     San Juan Housing Authority’s, San Juan, PR,     funding; 2) improperly charged more than
     Section 8 Housing Choice Voucher program        $714,000 in administrative costs to the
     to determine whether units met housing          program; 3) approved unreasonable rents,
     quality standards in accordance with HUD        resulting in ineligible and prospective
     requirements.                                   ineligible costs totaling more than $595,000;
                                                     4) paid housing assistance payments for
         Of the 67 units OIG inspected, 63 did       substandard housing; and 5) did not account
     not meet minimum housing quality                for and failed to collect its portable voucher
     standards. Of the 63 units, 25 were in          receivables. As a result, OIG identified
     material noncompliance with housing             questioned costs and opportunities for funds
     quality standards. As a result, tenants lived   to be put to better use totaling more than
     in units that were not decent, safe, and        $2.6 million.
     sanitary, and HUD made housing assistance
     payments for units that did not meet                 OIG recommended that HUD require
     standards. OIG estimates HUD will pay           the Authority to 1) implement procedures
     housing assistance payments more than $5.8      to properly track and report housing
     million for units in material noncompliance     assistance payments and administrative fees
     with housing quality standards over the         and repay HUD more than $841,000; 2)
     next year.                                      repay the program more than $714,000 and
                                                     properly allocate administrative costs; 3)
         OIG recommended that HUD require            repay the program more than $159,000 for
     the Authority to inspect all units that did     unreasonable rents and inspection costs; 4)
     not meet minimum housing quality                develop and implement an effective quality
     standards to verify that the landlords took     control process to ensure reliable
     appropriate corrective actions to make the      inspections, correction of substandard
     units decent, safe, and sanitary. If            housing, and abatement of payments for
     appropriate actions were not taken, the         housing that does not meet HUD standards;
     Authority should abate the rents or             and 5) establish procedures to reconcile all
     terminate the tenants’ vouchers. HUD            portability receivables, reimburse
     should also require the Authority to            authorities for any overpayments, and
     implement an internal control plan and          follow up on past-due accounts. (Audit
     incorporate it into the Authority’s Section 8   Report: 2006-BO-1005)
     administrative plan to ensure units meet
     housing quality standards and inspections           HUD OIG audited the Mount Vernon
     meet HUD requirements. (Audit Report:           Urban Renewal Agency’s, Mt. Vernon, NY,
     2006-AT-1006)                                   administration of its Section 8 Housing
                                                     Choice Voucher program. The objectives
         As part of its FY 2005 annual audit plan,   were to determine whether the Agency (1)
     HUD OIG reviewed the Section 8 Housing          correctly billed HUD for housing choice
     Choice Voucher program of the Hartford          vouchers used; (2) complied with HUD
     Housing Authority in Hartford, CT. The          program requirements for tenant admission,
     objective was to determine whether the          rental subsidy calculations, and housing
     Authority properly administered the             quality standards; and (3) implemented
     program in accordance with its annual           financial management controls to ensure
     contributions contracts and HUD                 that Housing Choice Voucher program
     requirements.                                   funds were adequately safeguarded.

         The Authority 1) inaccurately reported           The Agency over-requisitioned housing
     leasing and cost data to HUD and                assistance payments and administrative fees


36                                                       HUD’s Public and Indian Housing Programs
from HUD, resulting in more than $1.7           better use approximately $521,000 in Section
million in overpayments. The Agency also        8 funding, and (4) institute controls to ensure
did not properly use or maintain its waiting    that the board of commissioners approves
list, conduct recertifications in a timely      any program changes before they are
manner, or document that all units met          implemented. (Audit Report: 2006-FW-
housing quality standards. Further, the         1001)
Agency made duplicate and ineligible
housing assistance payments, inadequately           HUD OIG reviewed the Columbia
supported expenditures, and used Housing        Housing Authority’s, Columbia, MO,
Choice Voucher program funds for other          Housing Choice Voucher program to
programs.                                       identify savings the Authority will realize
                                                by ensuring tenants are in appropriate-size
      OIG recommended that HUD recoup           units.
through offset against future payments the
overpaid housing assistance payments and            The Authority unnecessarily paid more
administrative fees received, instruct the      than $216,000 in program funds for 99
auditee to implement controls and               tenants with units larger than necessary. By
procedures to properly maintain its waiting     enhancing its procedures to ensure that
list, and ensure the auditee develops and       program tenants receive the proper voucher
implements financial controls to adequately     size and subsidy payments, the Authority
support expenditures and use Housing            could avoid future losses of approximately
Choice Voucher program funds only for that      $300,000 and be able to provide vouchers to
program. (Audit Report: 2006-NY-1004)           additional tenants.

     HUD OIG audited the Section 8                  OIG recommended that HUD require
Housing Choice Voucher program of the Ft.       the Authority to correct vouchers for units
Worth Housing Authority in Ft. Worth, TX,       larger than allowed by the Authority’s
to determine whether the Authority              administrative plan, repay more than
properly applied the subsidy size standards     $216,000 for excess housing assistance
in its administrative plan.                     payments, and develop and implement
                                                procedures to ensure that tenants receive
     The Authority had sound policies           correct-size vouchers. (Audit Report: 2006-
regarding assignments of tenant subsidy         KC-1001)
size; however, it did not follow its policy
when it neglected to change voucher sizes           HUD OIG audited the Housing Choice
for as many as 382 tenants. This resulted in    Voucher program of Northeast Washington
more than $180,000 in ineligible and            Housing Solutions in Spokane, WA, to
unsupported payments and potential              determine whether it complied with HUD
overpayments of approximately $521,000          requirements.
over the next 3.7 years. Further, the
Authority enacted policy changes without             The Authority made housing assistance
approval from its board of commissioners.       payments of almost $450,000 through the
                                                use of vouchers for 154 families whose
    OIG recommended that HUD require            eligibility was unknown. HUD paid the
the Authority to (1) repay ineligible housing   Authority more than $58,000 to administer
assistance overpayments of more than            these vouchers. In addition, the Authority
$5,000, (2) repay or support questioned costs   did not correctly report its fiscal year 2005
of more than $175,000, (3) develop and          Section 8 Management Assessment Program
implement procedures to ensure it assigns       score and did not have an adequate plan
the correct subsidy size for all tenants to     for allocating indirect salary costs.


HUD’s Public and Indian Housing Programs                                                          37
         OIG recommended that HUD require                OIG recommended that HUD require
     the Authority to determine the eligibility of   the Authority to immediately correct
     the 154 families and return any ineligible      tenants’ vouchers, repay the unnecessary
     housing assistance payments, recoup the         costs incurred, and develop and implement
     appropriate amount of administrative fees,      procedures that improve controls over
     perform an on-site verification of the          assigning voucher sizes. (Audit Report:
     Authority’s 2006 Section 8 Management           2006-KC-1006)
     Assistance Program score, and require the
     Authority to submit a plan for allocating           HUD OIG reviewed the Section 8
     indirect salaries. (Audit Report: 2006-SE-      Housing Choice Voucher program of the St.
     1002)                                           Joseph Housing Authority in St. Joseph,
                                                     MO, to determine whether the Authority
         At the request of the executive director    paid excess subsidies for units that are larger
     of the Housing Authority of the City            than the needs of the tenant.
     of Los Angeles, Los Angeles, CA, HUD
     OIG conducted a review of the                        The Authority overhoused 16 tenants
     Authority’s Section 8 rent reasonableness       when it subsidized an additional bedroom
     determinations for the Housing Choice           for medical purposes without proper
     Voucher program.                                justification, resulting in overpayments of
                                                     more than $20,000 from 2002 through
         The Authority did not adequately            January 2006. By correcting its weak
     document        rent    reasonableness          controls, the Authority can avoid future
     determinations to ensure Section 8 rents        overpayments totaling more than $54,000.
     were reasonable before entering into
     housing assistance payment contracts.                OIG recommended that HUD (1) ensure
                                                     that the Authority immediately correct
         OIG recommended that the Authority          overhoused tenants’ vouchers and repay
     support or reimburse HUD more than              the overpayments and (2) verify that the
     $186,000 in unsupported Section 8 housing       Authority implements procedures to ensure
     assistance payments and follow the              that each tenant receives the proper voucher
     established policies and procedures for rent    size to avoid additional overpayments.
     reasonableness determinations. (Audit           (Audit Report: 2006-KC-1008)
     Report: 2006-LA-1002)
                                                          HUD OIG audited Inglewood Housing
         HUD OIG reviewed the Section 8              Authority’s, Inglewood, CA, administration
     Housing Choice Voucher program of the           of its Section 8 Housing Choice Voucher
     Housing Authority of Kansas City, Kansas        program to determine whether the
     City, MO, to determine whether the              Authority administered its program
     Authority paid excess subsidies for tenant      in compliance with pertinent HUD
     units that were larger than necessary.          requirements and its annual contributions
                                                     contract and operated its program in an
         The Authority unnecessarily paid            effective and efficient manner.
     nearly $31,000 in program funds for 50
     tenants in units that were larger than              The Authority did not comply with
     necessary or allowed by the Authority’s         program requirements relating to portability
     administrative plan. The Authority could        procedures and responsibilities, tenant
     avoid future losses of more than $73,000 by     certification, housing quality standards
     enhancing its controls, thereby allowing it     requirements, housing assistance payment
     to provide vouchers to additional tenants.      register maintenance, and salary allocation
                                                     and procurement procedures. In addition,


38                                                       HUD’s Public and Indian Housing Programs
the Authority’s organizational structure and       Angeles, CA, in response to a request from
management responsibilities were not               its executive director regarding his concern
clearly defined, and its financial reporting       over the management of the Authority’s
function was ineffective and inefficient.          waiting list. The objective was to determine
Finally, the Authority did not request             whether the Authority complied with
additional funds from HUD when needed              applicable laws and regulations when
to alleviate its cash deficit problems.            placing registrants on the waiting list and
                                                   selecting applicants in the proper order to
    OIG recommended that HUD require               receive housing vouchers.
the City of Inglewood’s mayor and board of
commissioners to replace the current                   The Authority did not adequately
executive director and housing manager,            administer and maintain its waiting list in
establish a separate housing authority             accordance with program requirements and,
commission, and require the City of                thus, may not have selected applicants in
Inglewood to designate sufficient finance          the proper order.
department personnel dedicated to work
solely on Authority-related financial                  OIG recommended that HUD require
reporting activities. (Audit Report: 2006-         the Authority to engage a dedicated team to
LA-1004)                                           analyze, purge, and update its waiting list
                                                   to ensure that it is accurate and complete;
    HUD OIG audited the Franklin                   evaluate and implement any needed
Redevelopment and Housing Authority’s,             changes to its administrative plan; and
Franklin, VA, Section 8 Housing Choice             provide training to employees on the revised
Voucher program to determine whether the           waiting list procedures and policies. (Audit
Authority adequately administered its              Report: 2006-LA-1008)
Section 8 program according to HUD
requirements.                                          HUD OIG audited the Section 8
                                                   Housing Choice Voucher program of the
     The Authority often made incorrect            Housing Authority of the City of Annapolis,
housing assistance payments and did not            Annapolis, MD, as part of its FY 2006 annual
perform required quality control reviews of        audit plan. The objective was to determine
its Section 8 tenant files. Additionally, it did   whether the Authority adequately
not verify rent reasonableness and allowed         administered the program according to
an apparent conflict-of-interest situation to      HUD requirements.
exist.
                                                        The Authority generally administered
    OIG recommended that HUD require               the program according to HUD
the Authority to repay more than $9,000 in         requirements but did not adequately
housing assistance overpayments and                administer its waiting list. It did not follow
reimburse tenants more than $1,500 in              controls in its Section 8 administrative plan
housing assistance underpayments. OIG              requiring it to update and purge its waiting
also recommended that the Authority                list annually or maintain its Section 8
strengthen its internal controls to ensure it      applications in a permanent file in the order
adequately administers its Section 8               in which the applicants applied for
program and prevent future apparent                assistance. These controls were needed to
conflict-of-interest situations. (Audit            ensure that families received assistance as
Report: 2006-PH-1003)                              quickly and efficiently as possible and to
                                                   provide assurance that the Authority
   HUD OIG audited the Housing                     provided fair and consistent treatment of
Authority of the City of Los Angeles, Los          families.


HUD’s Public and Indian Housing Programs                                                            39
         OIG recommended that HUD require              approximately $134,800 in transfers and
     the Authority to provide adequate                 encumbrances. Further, the Authority could
     management oversight to ensure its Section        not demonstrate that it equitably distributed
     8 waiting list is updated and purged              salary costs between its HUD and non-HUD
     annually and its Section 8 applications are       activities because it did not support salary
     maintained in a permanent file in order of        payments with required activity reports or
     date and time of the application. (Audit          equivalent documentation. As a result, the
     Report: 2006-PH-1009)                             Authority cannot support $1.1 million in
                                                       salary costs allocated to its HUD programs.
     Public Housing Authority                               OIG recommended that HUD require
     Management of Assets                              the Authority to repay its HUD programs
                                                       at least $792,300; provide support for or
         HUD OIG audited Baytown Housing               repay $1.2 million in unsupported transfers,
     Authority in Baytown, TX, due to concerns         encumbrances, and salary costs; and
     expressed by the Houston Office of Public         implement procedures and controls to
     Housing. The objectives were to determine         correct the weaknesses identified. Proper
     whether the Authority used resources              procedures and controls should help ensure
     subject to the annual contributions contract      that the Authority will properly use and
     only for expenses of that program.                support the $5.9 million in HUD funding it
                                                       will receive next year. (Audit Report: 2006-
         The Authority inappropriately used            FW-1002)
     public housing funds to support its
     nonprofit and related entities. For some of           HUD OIG reviewed the Housing
     the transfers, the Authority’s executive          Choice Voucher and Public Housing
     director altered transfer documentation. As       Operating Fund programs at the Worcester
     of March 31, 2005, the Authority owed the         Housing Authority in Worcester, MA, as
     low-rent and Section 8 programs more than         part of its FY 2005 annual audit plan. The
     $792,300, and it could not support                objectives were to determine whether the




         Copyright, 2006. Baytown Sun - Baytown, TX. Reprinted with permission.



40                                                           HUD’s Public and Indian Housing Programs
Authority improperly used Federal funds        improperly used more than $462,000 in
for expenses of its State program and          Section 8 funds.
properly allocated salary and other expenses
to its Housing Choice Voucher and Public            OIG recommended that the Authority
Housing Operating Fund programs.               repay its Section 8 programs the more than
                                               $462,000, which it improperly used to
    The Authority did not use its Federal      support its other programs. The Authority
funds in compliance with its annual            took action to repay that amount during the
contributions contracts. It used its public    audit. OIG further recommended that HUD
housing operating funds to pay                 require the Authority to create and
expenditures for State-subsidized housing      implement internal controls to track its
programs and other Federal programs. As        Section 8 administrative and housing
a result, the Authority did not have more      assistance funds during the year, reconcile
than $1.9 million available for its Public     and settle its Section 8 due-to/due-from
Housing Operating Fund program.                account monthly, and stop improperly using
Additionally, the Authority could not          Section 8 funds to support its other
support the salary and benefits expenses       programs, thereby ensuring $462,000 will be
charged to its Housing Choice Voucher and      used for the appropriate program over the
Public Housing Operating Fund programs.        next year. (Audit Report: 2006-PH-1001)

    OIG recommended that HUD require                HUD OIG audited the Housing
the Authority to monthly reimburse its         Authority of the County of Butler, Butler,
revolving fund the amounts owed by its         PA, as part of its FY 2005 audit plan. The
programs and cease the practice of using       audit objective was to determine whether
public housing operating funds to pay for      the Authority properly used HUD funds to
nonprogram costs. In addition, the             develop and support its affiliated nonfederal
Authority should conduct a time study to       entities.
determine the appropriate allocation of
salary and benefits for its Federal programs        The Authority improperly used HUD
and develop and implement a HUD-               assets as collateral to obtain two lines of
approved cost allocation plan for salaries     credit totaling $1.1 million. As of August
and employee benefits. The FY 2006             2005, it owed more than $888,000 on the lines
accounting records should be adjusted          of credit, placing significant HUD assets at
accordingly. (Audit Report: 2006-BO-1002)      risk. It also did not properly record these
                                               loans in its financial records. In addition,
     HUD OIG audited the Alexandria            the Authority failed to properly allocate all
Redevelopment and Housing Authority in         applicable salary costs and improperly paid
Alexandria, VA, to determine whether it        salaries estimated at more than $205,000
improperly used Section 8 funds to support     from Federal funds for work its employees
its other programs.                            performed for its nonfederal entities.

    Contrary to its consolidated annual             OIG recommended that HUD require
contributions contracts, the Authority did     the Authority to modify its financial
not track its Section 8 administrative and     instruments to release the funds as collateral
housing assistance funds during the year or    and allow the more than $888,000 to remain
monitor and periodically settle the Section    available for HUD-intended purposes. OIG
8 programs’ due-to/due-from account to and     also recommended that HUD require the
prevent it from using Section 8 funds to       Authority to properly record its lines of
support its other programs. As a result, it    credit in its financial records. Finally, OIG



HUD’s Public and Indian Housing Programs                                                        41
             Copyright, Pittsburgh Post-Gazette, 2006, all rights reserved. Reprinted with permission.


     recommended that HUD require the                         HUD OIG reviewed the Palacios
     Authority to recover approximately                   Housing Authority’s, Palacios, TX, low-rent
     $205,000 from nonfederal entities for                and Section 8 Housing Choice Voucher
     improperly allocated employee expenses               programs to determine whether the
     and develop a reasonable method for                  Authority operated the programs in
     allocating future salaries and expenses.             accordance with HUD requirements.
     (Audit Report: 2006-PH-1005)



42                                                              HUD’s Public and Indian Housing Programs
    The Authority could not provide                   OIG recommended that HUD reduce
support for funds transferred between its        the Authority’s housing assistance payments
Section 8 and low-rent housing programs.         by the amount of the net overpayments on
The Authority also made minor errors in its      its next Section 8 year-end settlement
tenant files and did not always ensure units     statement. Additionally, OIG recommended
were decent, safe, and sanitary. OIG             that HUD require the Authority to follow its
determined the Authority’s lack of               Section 8 administrative plan and to prepare
compliance did not materially affect its         periodic reports showing the results of file
housing programs and it can easily correct       reviews and any actions taken. OIG further
the deficiencies identified.                     recommended that HUD require the
                                                 Authority to perform the necessary reviews
    OIG recommended that HUD require             to ensure recertifications and inspections are
the Authority to implement a budget-based        done when required. (Audit Report: 2006-
approach in its operations, including using      PH-1002)
an approved documented cost allocation
plan, which will result in the Authority
maintaining support for an estimated
                                                 Public Housing Authority Activity with
$44,600 in future fund transfers. Further,       Nonprofit Entities
HUD should require the Authority to
implement a quality control plan to review            HUD OIG audited the Housing
all new tenant rent calculations, obtain         Authority of the City of Prichard’s, Prichard,
additional inspection training, and include      AL, administration of its nonprofit activities
an exterior conditions assessment when it        and homeownership programs at the
conducts unit inspections. (Audit Report:        request of HUD. HUD expressed concerns
2006-FW-1003)                                    regarding the nonprofit’s ventures into areas
                                                 other than housing, such as the purchase of
     HUD OIG audited the operations of the       a shopping center and the Authority’s use
Suffolk Redevelopment and Housing                of the proceeds from the sale of its public
Authority in Suffolk, VA, as part of its FY      housing units. The objectives were to
2005 annual audit plan. The audit objective      determine the validity of these two concerns.
was to determine whether the Authority
carried out its operations in accordance with         Although the Authority only used low-
applicable HUD requirements.                     income housing funds to pay for authorized
                                                 nonprofit-entity activities, its programs to
     For the most part, the Authority carried    make affordable homes available to low- and
out its operations in accordance with            moderate-income persons were inadequate.
applicable HUD criteria. It properly             As of June 1, 2005, the Authority had a
inspected its Section 8 units, followed proper   waiting list of more than 250 potential
contracting procedures, and properly             homebuyers, while 139 homes were
supported its drawdown of HUD funds.             available for sale. Although the Authority
However, it did not always properly              was not selling the homes in its inventory, it
calculate Section 8 tenant income and utility    planned to seek approval to use
allowances, resulting in net overpayments        approximately $3.8 million in HUD grant
of more than $5,000. Additionally, for one       funds to build additional homes. In
of its public housing developments, the          addition, it did not include sales proceeds
Authority sometimes did not perform              and estimated proceeds of more than $11.6
required annual inspections or properly          million from its homeownership programs
recertify the tenants.                           in its 5-year public housing authority plan.
                                                 The funds have remained idle since 2002.
                                                 Finally, the Authority inappropriately


HUD’s Public and Indian Housing Programs                                                          43
     advanced more than $806,000 in public                OIG recommended that HUD obtain a
     housing funds to pay for other programs’        legal opinion as to the disposition of $3.7
     expenses.                                       million in funds being retained by the
                                                     Authority and its Housing Finance
         OIG recommended that HUD require            Corporation, review the documentation
     the Authority to aggressively market its        provided to determine whether city services
     Section 5(h) and Housing Opportunities for      were provided in accordance with the
     People Everywhere (HOPE 1) homes as             cooperation agreement and seek
     affordable housing to ensure that HUD           reimbursement for any amounts not
     funds provided for the construction of these    supported, and require the Authority to seek
     homes are used as intended and the homes        HUD approval for general liability
     are not allowed to deteriorate. OIG also        settlements and ensure that contract services
     recommended that HUD require the                are provided as required. (Audit Report:
     Authority to demonstrate it has the             2006-NY-1003)
     capability to sell its remaining units before
     requesting more than $3.8 in HUD grant               HUD OIG audited the Fairfield
     funds to build additional homes. Further,       Metropolitan Housing Authority’s,
     OIG recommended that HUD require the            Lancaster, OH, activities with its related
     Authority to include in its 5-year plan more    nonprofit organization. The Authority was
     than $11.6 million in proceeds and its plans    selected for audit because it was identified
     for using the funds. (Audit Report: 2006-       as having high-risk indicators of nonprofit
     AT-1002)                                        development activity. The objective was to
                                                     determine whether the Authority
         HUD OIG audited the Housing                 improperly diverted or pledged resources
     Authority of the City of Newark in Newark,      for the benefit of non-HUD developments.
     NJ. The objectives were to determine
     whether the Authority’s (1) Housing Finance         The Authority improperly transferred
     Corporation conducted its operations in         more than $520,000 of its HOPE 1 and 5(h)
     accordance with HUD regulations, (2)            Homeownership Plan sales proceeds to its
     payments made to the City of Newark in          nonprofit, the Lancaster Community
     addition to the payments in lieu of taxes for   Housing Corporation. The Authority
     municipal services were allowable, (3) costs    received more than $337,000 from 10 HOPE
     for legal settlements were properly             1 properties sold in 1995 and $78,000 from
     authorized, and (4) self-insurance program      two 5(h) Homeownership Plan properties
     was cost effective.                             sold in 1996. The sales proceeds were pooled
                                                     and invested in certificates of deposit,
          The Authority (1) may not be               accumulating interest until 2004, when the
     conducting its bond financing activities in     Authority transferred the proceeds to the
     accordance with HUD requirements; (2)           Corporation. The transfer occurred without
     could not substantiate that the $6.9 million    HUD approval and did not follow Federal
     paid to the City of Newark was for              requirements regarding the use of the
     necessary, reasonable, and additional           proceeds. The Authority also transferred
     services provided to the Authority; (3)         ownership of three properties that were
     settled general liability claims without        rehabilitated using HUD’s McKinney grant
     obtaining prior written HUD approval; and       funds to the Corporation without HUD
     (4) could not assure that more than $1.2        approval. The Corporation sold one
     million in legal settlements paid under the     property in 2004. The Authority and/or the
     self-insurance program were processed in        Corporation did not reimburse HUD for
     a cost-effective manner.                        more than $23,000 used to rehabilitate the
                                                     property.


44                                                       HUD’s Public and Indian Housing Programs
Copyright, 2006. The Columbus Dispatch - Columbus, OH. Reprinted with permission.



      OIG recommended that HUD require                     OIG recommended that HUD require
  the Authority to (1) reimburse its HOPE 1            the Authority to repay ineligible costs of
  and 5(h) Homeownership Plan programs                 more than $4.9 million to its public housing
  more than $520,000 from nonfederal funds             fund, establish a procedure that requires the
  for the improper transfer of the sales               executive director to provide monthly
  proceeds to its nonprofit; (2) reimburse             financial documents to the board before
  HUD more than $23,000 from nonfederal                meetings to assist the board in providing
  funds for the McKinney grant funds used              oversight, and obtain a release of
  to rehabilitate the one property; and (3)            encumbered assets in the amount of
  implement procedures and controls to                 $475,000 for use as originally intended. OIG
  correct the weaknesses identified. (Audit            also recommended that HUD determine
  Report: 2006-CH-1005)                                whether the Authority substantially
                                                       defaulted on its contract. (Audit Report:
  Low-Rent Housing Program                             2006-AT-1007)

                                                            HUD OIG audited the low-rent housing
      HUD OIG audited the Housing                      program of the Utica Municipal Housing
  Authority of the City of Winston-Salem,              Authority in Utica, NY, to determine
  Winston-Salem, NC, to determine whether              whether it complied with the provisions of
  the Authority used funds subject to its low-         its annual contributions contract.
  income housing annual contributions
  contract for the benefit of other programs                The Authority improperly disbursed
  or entities without HUD approval.                    more than $511,000 in operating funds for
                                                       health benefits of retired employees. It did
      In violation of its contract with HUD,           not ensure that all procurements allowed for
  the Authority used more than $4.9 million            full and open competition, procured legal
  in operating subsidies to pay expenses of            services without executing a contract, made
  other Federal and nonfederal programs.               contract payments without adequate
  Further, the Authority violated its contract         supporting documentation, and failed to
  by encumbering assets when it executed a             enforce contract provisions for elevator
  guarantee of payment agreement for a                 construction services. The Authority
  $475,000 loan for an affiliated entity. As a         incurred questionable costs of more than
  result, the funds were not available for             $140,000 and did not completely earn the
  operation or modernization of public                 administrative fees it was paid as a contract
  housing units, and assets are at risk.               administrator for the Section 8 program


   HUD’s Public and Indian Housing Programs                                                            45
     since it failed to conduct required                    OIG recommended that HUD
     management reviews and meet its                    implement procedures and controls over the
     monitoring responsibilities.                       physical assessment subsystem to correct
                                                        the deficiencies addressed. (Audit Report:
           OIG recommended that HUD require             2006-CH-0001)
     the Authority to establish controls and
     procedures to ensure compliance with all
     applicable board, procurement, and contract
     administration policies and procedures;
     submit documentation to justify all
     unsupported costs; and reimburse the
     program from nonfederal funds all amounts
     found to be ineligible. In addition, the
     Authority should enforce the damage clause
     of its elevator contract and collect all penalty
     income for program use. (Audit Report:
     2006-NY-1005)

     HUD’s Real Estate Assessment
     Center’s (REAC) Housing
     Inspections
          HUD OIG reviewed HUD’s Real Estate
     Assessment Center ’s (REAC) housing
     inspections and oversight and controls over
     its housing inspection process. OIG initiated
     the review as part of its strategic plan to help
     HUD improve the execution of its fiscal
     responsibilities. The objective was to
     determine whether REAC had adequate
     controls to safeguard the integrity of its
     housing inspection data.

          Without REAC’s knowledge, confidential
     information maintained in its system was
     accessed and used inappropriately by
     unauthorized persons. The unauthorized
     persons drew a sample of housing authority
     units before the inspector ’s scheduled
     inspection. REAC’s controls and procedures
     for securing its housing information after a
     download and before the upload of
     inspection data were not in place to assure
     that only authorized users had access to
     HUD’s confidential information. OIG
     informed the REAC’s Deputy Assistant
     Secretary of other minor deficiencies in a
     memorandum, dated November 22, 2005.


46                                                          HUD’s Public and Indian Housing Programs
 Investigations                                                 Robert Askew III, former Section 8
                                                           tenant, Oakland Housing Authority (OHA),
      During this reporting period, OIG                    was indicted in U.S. District Court, Northern
 opened 486 investigation cases and closed                 District of California, Oakland, CA, on nine
 393 cases in the PIH program area. Judicial               counts of mail fraud and one count of false
 action taken on these cases during the                    statements. The indictment also included
 period included $8,829,801 in investigative               criminal forfeiture provisions. From 1999
 recoveries, 386 indictments/informations,                 through 2002, Askew allegedly reported he
 287 convictions/pleas/pretrial diversions,                was disabled, unemployed, and had no
 1,093 arrests, 12 civil actions, 19 personnel             assets on OHA and Social Security
 actions, and 991 administrative actions.                  Administration          (SSA)     disability
                                                           certifications, when Askew was self-
    Chart 3.2: Public and Indian Housing                   employed, actively operating a home
                                                           renovation/improvement business known as
                 Recoveries
                                                           Askew & Company; owned four cars, a
                                                           motorcycle, residential property in Oakland,
          False     Other       Embezzlement               CA, and rental property in Sacramento, CA;
       Statements
           2%
                    12%             7%         PHA Fraud   and made bank account deposits of $87,058
                                                 10%
  Public                                                   in 1999, $52,365 in 2000, $211,014 in 2001,
Corruption
   15%                                                     and $407,606 in 2002. Askew was arrested
                                                           on October 19, 2005. HUD losses are
                                                           estimated at $35,500.
                                               Section 8
                                                 54%
  Total Recoveries $8,829,801                                   Debra Utley pled guilty in U.S. District
                                                           Court, Middle District of Tennessee,
      Public housing rental assistance fraud               Nashville, TN, to one count of theft of public
 is an investigative priority for the Office of            money and agreed to pay Nashville Metro
 Investigation. OIG runs rental assistance                 Development Housing Agency $10,983 in
 fraud initiatives nationwide to reduce fraud              restitution. Utley failed to report her August
 in HUD rental assistance programs and                     2000 employment at Vanderbilt University
 support the HUD Rental Housing Integrity                  Medical Center.
 Improvement Project (RHIIP). Some of the
 investigations discussed in this report were      Alisa Covington, a Lakeland Housing
 conducted jointly with Federal, State, and    Authority (LHA) public housing resident,
 local law enforcement agencies. The           was arrested in Lakeland, FL, on a State of
 results of OIG’s more significant             Louisiana arrest warrant for probation
 investigations are described below.           violations. Covington’s probation stemmed
                                               from a Louisiana conviction for possession
                                               with intent to sell 11 pounds of marijuana.
 Rental Assistance Fraud                       LHA was notified of Covington’s arrest and
                                               began terminating Covington from their
       Linton White, a Topeka Housing housing assistance program. Covington was
 Authority (THA) public housing tenant, extradited by the Lakeland Police
 pled guilty in Topeka, KS, State court to an Department.
 information charging him with theft. White
 falsified his housing assistance application      Ernest Stevenson, a Section 8 landlord,
 by failing to report his Missouri sexual and Paula Petruk, also known as
 predator classification to authorities in the Paula Stevenson, a Duluth Housing
 State of Kansas and THA. White received Redevelopment Authority (DRHA) Section
 $6,493 in housing assistance payments to 8 tenant, each pled guilty in U.S. District
 which he was not entitled.

   HUD’s Public and Indian Housing Programs                                                                 47
     Court, District of Minnesota, Duluth, MN,       Turnage allegedly filed false annual housing
     to one count of conspiracy. Stevenson and       certifications by failing to report her prior
     Petruk, who received housing assistance         criminal convictions for prostitution, auto
     from DHRA, failed to disclose joint accounts    theft, forgery, and narcotics; her current
     and co-ownership of real estate located in      probation status; or her use of numerous
     Duluth. HUD’s loss is estimated at $54,000.     aliases. IHA removed Turnage from the
                                                     rental assistance program.
          Jacinda Stokes and Sherrell Lanier,
     former Lakeland Housing Authority (LHA)              Rocky Stubbs, a Section 8 landlord with
     Section 8 tenants, were arrested after          Coshocton Metropolitan Housing Authority
     complaints were filed in State court,           (CMHA), was sentenced in Coshocton
     Lakeland, FL, charging them with public         County Court, Coshocton, OH, to 3 years
     assistance fraud. Stokes and Lanier             probation and ordered to pay CMHA $27,000
     allegedly failed to disclose earned income      in restitution. Stubbs, leasing his property
     on their annual Section 8 recertification       to CMHA, resided at his property with a
     forms submitted to LHA. HUD’s loss is           CMHA Section 8 recipient and concealed
     estimated at $19,261.                           their living arrangement from CMHA.

          Carresha Skiffer, a former Inglewood           Tyrone Mock, a Cuyahoga Metropolitan
     Housing Authority (IHA) Section 8               Housing Authority (CMHA) Section 8
     recipient, was charged in Superior Court,       landlord, was sentenced in U.S. District
     County of Los Angeles, Inglewood, CA,           Court, Northern District of Ohio, Cleveland,
     with one count of theft and one count of        OH, to 46 months incarceration and 3 years
     obtaining money under false pretenses.          supervised release and ordered to pay
     Skiffer allegedly filed false annual housing    CMHA $37,438 in restitution. Mock
     certifications by failing to claim income she   previously pled guilty to providing
     earned from operating an adult-sexually-        fraudulent information to obtain multiple
     oriented business out of her subsidized         properties, leasing the properties to CMHA
     apartment or rents she collected from           tenants, residing in one leased property with
     subleasing her unit for extended periods.       a CMHA Section 8 recipient, failing to pay
     IHA removed Skiffer from the rental             mortgages associated with the properties,
     assistance program.                             and filing bankruptcies to stop foreclosure
                                                     proceedings and continued to receive
          Maverick E. Jackson, a Section 8           CMHA housing assistance payments.
     landlord, Aiken Housing Authority (AHA),
     was indicted in U.S. District Court, District       Carol Tharpe, a former Seattle Housing
     of South Carolina, Aiken, SC, on two counts     Authority (SHA) Section 8 tenant, was
     of submitting false documents to AHA.           sentenced in U.S. District Court, Western
     Jackson allegedly lived in a subsidized unit    District of Washington, Seattle, WA, to 5
     and falsely certified that he had no            years probation and ordered to pay SHA
     relationship to a tenant in his unit, who was   $37,500 in restitution for her previous guilty
     his half brother and an AHA Section 8           plea to one count of theft. From 1997 through
     applicant. HUD’s loss is estimated at $6,100.   2004, Tharpe understated her income on
                                                     annual SHA certifications.
         Kelly Turnage, a former Inglewood
     Housing Authority (IHA) Section 8                   Sherrell A. Lanier, a Lakeland Housing
     recipient, was charged in Superior Court,       Authority (LHA) Section 8 tenant, was
     County of Los Angeles, Inglewood, CA,           charged in an information filed in the 10th
     with one count of theft and one count of        Judicial Circuit, State of Florida, Lakeland,
     obtaining money under false pretenses.          FL, with one count of public assistance


48                                                       HUD’s Public and Indian Housing Programs
fraud. From January 2001 through February            Tony Jones, former St. Petersburg
2004, Lanier allegedly failed to report         Housing Authority (SPHA) landlord, was
employment income and received $8,114 in        sentenced in U.S. District Court, Middle
LHA housing benefits to which she was not       District of Florida, Tampa, FL, to 4 months
entitled.                                       incarceration and 3 years supervised release
                                                with 4 months home detention and ordered
     Xavier Williams, New York City             to pay HUD $31,606 in restitution, jointly
Housing Authority (NYCHA) public                and severally with codefendant Natalie
housing tenant and member of a violent          Jones, and $26,000 to the U.S. Government
Bronx-based gang called Sex, Money and          solely. On June 8, 2005, Jones was convicted
Murder Crew, was sentenced in U.S. District     of conspiracy to defraud HUD. Tony Jones
Court, Southern District of New York, New       leased his residence to SPHA and SPHA
York, NY, to life imprisonment without          Section 8 tenant Natalie Jones, his wife, but
parole. Williams was convicted on July 8,       failed to report to SPHA that he resided with
2005, after a 7-week trial involving public     his wife at his residence. As a result of his
housing fraud, narcotics and firearms           actions, Jones received $31,606 in housing
trafficking, money laundering, racketeering,    assistance to which he was not entitled.
and attempted murder violations. Williams
operated a narcotics and money-laundering            Angelina Lyles, former DuPage
enterprise from his public housing unit at      Housing Authority (DHA) Section 8 tenant,
NYCHA’S Bronx River Houses and                  was found guilty in U.S. District Court,
provided false statements on his annual         Northern District of Illinois, Chicago, IL, of
public housing recertifications.                three counts of false statements. Lyles failed
                                                to report her income, the presence and full-
    Jacinda Stokes, a Lakeland Housing          time income of her husband, her criminal
Authority (LHA) Section 8 tenant, was           record, and bank accounts to the DHA.
charged in an information filed in 10th         HUD loss is estimated at $15,000.
Judicial Circuit, State of Florida, Lakeland,
FL, with one count of public assistance              Paul and Kristen West, former King
fraud. From April 2001 through July 2005,       County Housing Authority (KCHA) Section
Stokes allegedly failed to report               8 recipients, were each charged in King
employment income and received $11,147          County Superior Court, Seattle, WA, with
in LHA housing benefits to which she was        one count of theft. The Wests allegedly failed
not entitled.                                   to report their employment or income
                                                earned on their initial KCHA Section 8
     Geno Wilson, a former Inglewood            application or annual recertifications. Since
Housing Authority (IHA) Section 8               April 2002, Paul and Kristen West have
recipient, was charged in Superior Court,       received more than $28,000 in housing
County of Los Angeles, Inglewood, CA,           assistance payments to which they were not
with four counts of filing a false document     entitled.
with a public office, one count of obtaining
money under false pretenses, and one count          Dannette Thomas, an Inglewood
of grand theft. Wilson allegedly failed to      Housing Authority (IHA) Section-8
disclose his 1991 sexual offender conviction    recipient, was charged in Superior Court,
on his initial IHA Section 8 application or     County of Los Angeles, Inglewood, CA,
on IHA annual certifications. Since             with one count of grand theft, one count of
February 2002, Wilson has received an           obtaining money under false pretenses, and
estimated $50,000 in Section 8 housing          one count of filing a false document with a
assistance payments to which he was not         public office. Thomas allegedly failed to
entitled.                                       report the 6-month residency and income of


HUD’s Public and Indian Housing Programs                                                         49
     her brother Billy Thomas, a convicted sex              Barbara Singleton, a Rochester Housing
     offender, to IHA on her housing certification.    Authority (RHA) Section 8 tenant, and Larry
     Dannette Thomas was arrested on an                Pradia, RHA landlord, were each charged
     outstanding warrant, and Billy Thomas was         in U.S. District Court, Western District of
     arrested on parole violations and possession      New York, Rochester, NY, with one count
     of crack cocaine at Thomas’s IHA subsidized       of conspiracy, false statements, and theft of
     unit.                                             government funds. From 1998 through 2004,
                                                       Singleton and Pradia allegedly conspired to
          Toria Woods, an Inglewood Housing            collect more than $70,000 in RHA Section 8
     Authority (IHA) Section-8 recipient, was          housing assistance payments when
     charged in Superior Court, County of Los          Singleton certified that Pradia was her
     Angeles, Inglewood, CA, with one count of         landlord residing elsewhere on annual
     grand theft, one count of obtaining money         recertification and other RHA documents.
     under false pretenses, and one count of filing
     a false document with a public office.                 Brooks Rice was sentenced in U.S.
     Woods allegedly failed to claim                   District Court, Eastern District of Tennessee,
     unauthorized tenants residing in her unit,        Chattanooga, TN, to 21 months confinement
     income she gained from an identity theft          and 26 months supervised release and
     scheme, use of aliases, or her prior criminal     ordered to pay HUD $16,565 in restitution.
     history on IHA annual housing                     On September 15, 2005, Rice pled guilty to
     certifications. As a result, she received         one count of use of a false Social Security
     approximately $20,375 in housing assistance       number (SSN). Rice used a fraudulent SSN
     payments to which she was not entitled.           to obtain Section 8 benefits she was not
     IHA has removed Woods from its rental             entitled to receive.
     assistance program.
                                                            Celestine Gallegos, San Francisco
          Kamilah Rainey and Iris Riley were           Housing Authority (SFHA) and Housing
     arrested pursuant criminal complaints filed       Authority of the County of San Mateo
     in the 10th Judicial Circuit, State of Florida,   (HACSM) housing assistance recipient, was
     Lakeland, FL, on Section 8 fraud charges.         charged with one count of false statements
     Rainey and Riley are current Lakeland             in an information filed in U.S. District Court,
     Housing Authority (LHA) Section 8 tenants         Northern District of California, San
     who allegedly underreported their incomes         Francisco, CA. On December 16, 2005,
     during annual recertifications submitted to       Gallegos pled guilty to receiving housing
     LHA. HUD’s loss is approximately $21,435.         assistance payments simultaneously from
                                                       SFHA and HACSM, receiving $13,285 to
          Sharon Dixon, a Miami-Dade Housing           which she was not entitled.
     Authority (MDHA) Section 8 tenant, was
     indicted in U.S. District Court, Southern             Benzalda Delarosa was indicted on two
     District of Florida, Miami, FL, on false          felony counts of theft in Washington
     statements to HUD and theft of government         Superior Court for Grays Harbor County,
     funds. Dixon was arrested after her               Aberdeen, WA. Delarosa allegedly failed to
     indictment. From January 2001 through             report all household resident income and
     December 2004, Dixon allegedly submitted          received $11,000 in HUD Section 8 funds and
     false applications to MDHA for HUD                $12,000 in Washington Department of Social
     Section 8 subsidies by failing to disclose her    and Health Services welfare benefits to
     Miami-Dade County Transit Authority               which she was not entitled.
     employment. HUD’s loss is estimated at
     $49,500.



50                                                          HUD’s Public and Indian Housing Programs
     Evelyn Bessent was charged with theft         “Victoria’s Secret” merchandise from her
of government funds in an information filed        subsidized housing unit. Between January
in U.S. District Court, Southern District of       2000 and January 2005, Stevanovich
Florida, West Palm Beach, FL. Bessent, a           allegedly deposited approximately $280,000
participant in the Palm Beach County               cash into eight bank accounts, but failed
Housing Authority Section 8 Housing                to report the funds to HUD or the state of
Choice Voucher program, allegedly used her         MA, and received $59,765 in housing
voucher to reside in a home she co-owned           benefits and $57,790 in welfare benefits she
with her spouse and concealed ownership            was not entitled to receive.
of two additional residential properties
occupied by Section 8 program participants.             In Bucks County Court of Common
Bessent received $21,255 in housing                Pleas, Bucks County, PA, Herbert and
assistance payments to which she was not           Annette Smith entered guilty pleas to felony
entitled.                                          charges of theft, criminal conspiracy, and
                                                   false swearing. The Smiths, residents of
    An Essex County Superior Court Grand           subsidized housing, Bucks County Housing
Jury, Salem, MA, indicted Jennifer                 Authority (BCHA), failed to report Herbert
Stevanovich, a former Andover Section 8            Smith’s 30-year criminal history including
tenant, on two counts of larceny and four          two sex offender convictions to BCHA. The
counts of criminal perjury. Stevanovich was        Smiths were evicted from BCHA housing.
previously convicted of selling stolen




               Copyright, 2006. Eagle Tribune - Lawrence, MA. Reprinted with permission.



HUD’s Public and Indian Housing Programs                                                          51
          Andrea Henderson was charged with                 Michael Washington, a former Section
     four felony counts of grand theft, filing false   8 landlord, pled guilty to one felony count
     documents with a public office, and               of grand theft in State of California Superior
     obtaining money under false pretenses in          Court, County of San Mateo, San Mateo, CA.
     Superior Court, County of Los Angeles,            Washington was sentenced to 90 days in
     Inglewood, CA. In 2004 and 2005,                  county jail and 3 years probation and
     Henderson allegedly filed false housing           ordered to pay approximately $15,668 in
     certifications with the Inglewood Housing         restitution to the Housing Authority of the
     Authority (IHA) by failing to identify her        County of San Mateo (HACSM). From
     husband, Darryl Kennedy, a convicted sex          December 2002 to December 2003,
     offender, and two unauthorized individuals        Washington received approximately $15,668
     as residents in her Section 8 subsidized unit.    in Section 8 housing assistance payments
     As a result, Henderson received $14,000 in        from HACSM for a tenant who had moved
     housing assistance payments to which she          from her unit.
     was not entitled.
                                                            Ebony Lucien, a Section 8 recipient, was
         A civil complaint was filed by the U.S.       charged in Superior Court, County of Los
     Attorney’s Office, District of New                Angeles, Los Angeles, CA, with one count
     Hampshire, Concord, NH, against Amy               of perjury, one count of grand theft, one
     McPherson, John Nionakis, and Delilah             count of unlawfully making a false financial
     Properties Inc. The complaint, filed on           statement, and two counts of filing a false
     behalf of HUD, U.S. Department of Health          document with a public office. In 2003 and
     and Human Services (HHS), U.S.                    2004, Lucien allegedly filed false housing
     Department of Agriculture (USDA), and             certifications with both City of Los Angeles
     SSA, seeks approximately $382,000 and civil       and County of Los Angeles Housing
     penalties against McPherson, Nionakis, and        Authorities, receiving $11,721 in housing
     Delilah Properties, Inc., under the False         assistance payments to which she was not
     Claims Act. On November 14, 2005,                 entitled.
     McPherson, a former Section 8 recipient, was
     sentenced to 6 months in prison and 3 years            Jacqueline Watson, a Section 8 tenant,
     supervised release and ordered to pay HUD,        was charged in a complaint filed in Superior
     USDA, and HHS $67,547 in restitution              Court of California, Solano County, Vallejo,
     following her previous guilty plea to             CA, with one count of grand theft. Watson
     multiple counts of false statements.              allegedly failed to report her incarceration
     McPherson received Section 8 subsidies at         and absence for more than 1 year from her
     a home she owned under the corporate              Vallejo Housing Authority Section 8 unit.
     name of Delilah Properties, Inc., in Exeter,      The loss to HUD is estimated at $40,625.
     NH.
                                                            Barbara Mack, former Section 8 tenant,
         Kelly M. Summerour, Tracy Curry-              Tampa Housing Authority (THA), was
     Culbreath, and Wanda T. Nolan, former             indicted in U.S. District Court, Middle
     Internal Revenue Service (IRS) employees,         District of Florida, Tampa, FL, on two counts
     were each indicted in U.S. District Court,        of theft of government funds and one count
     Northern District of Georgia, Atlanta, GA,        of bankruptcy fraud. Mack allegedly
     on two counts of false statements.                acquired and used two SSNs to obtain HUD
     Summerour, Curry-Culbreath, and Nolan             housing assistance and SSA disability
     allegedly provided false verifications of         benefits while earning employment income,
     employment to Atlanta and Decatur/Dekalb          obtaining a Federal Housing Administration
     Housing Authorities, fraudulently receiving       (FHA)-insured mortgage, and filing
     $38,532 in housing assistance payments.           bankruptcy. Mack allegedly failed to report
                                                       employment income earned to THA or

52                                                         HUD’s Public and Indian Housing Programs
approximately $23,455 in Section 8 and          MMHA, before her scheme was detected by
$61,788 SSA disability benefits she received    New York and Connecticut banks.
to the bankruptcy court. On February 3,
2006, Mack was arrested in Clearwater, FL.           Quiana Adams pled guilty to 35 counts
                                                of theft of government funds, four counts of
     Sharon Smith, a superior court judicial    false statements, and one count of
clerk, Union, NJ, pled guilty to an             conspiracy in U.S. District Court, Southern
information filed in U.S. District Court,       District of Florida, Miami, FL. Adams’
Newark, NJ, charging her with one count         spouse, Anthony Boatwright, pled guilty to
of theft of government funds. From January      two counts of false statements and one count
2002 to September 2005, Smith caused            of conspiracy. Adams and Boatwright,
fraudulent verification of employment           participants in the Section 8 Housing Choice
forms to be submitted to the Elizabeth          Voucher program, provided false household
Housing Authority (EHA), resulting in           composition and income information to the
Smith defrauding EHA of approximately           Miami-Dade Housing Agency to qualify for
$20,714.                                        housing assistance. Adams and Boatwright
                                                received $37,229 in housing assistance
     Tyeshia Borela, a former San Francisco     benefits to which they were not entitled.
Housing Authority (SFHA) Section 8 tenant,      They were arrested on December 8, 2005.
was indicted in U. S. District Court,
Northern District of California, San                 Nasir Javaid and Nancy Kharsa, former
Francisco, CA, on one count of false            San Francisco Housing Authority (SFHA)
statements to HUD. From 2002 to 2005,           Section 8 landlord and tenant, each pled
Borela allegedly claimed a nonexistent          guilty in U.S. District Court, Northern
daughter, failed to report her actual income,   District of California, San Francisco, CA, to
and subleased her SFHA Section 8                one count of making false statements to
subsidized unit. In addition, Borela            HUD. Under the plea agreement, Javaid and
allegedly provided false income information     Kharsa agreed to pay HUD $51,717 in
during her November 2004 bankruptcy             restitution. From 1998 to 2002, Javaid and
filing.    As a result, she received            Kharsa participated in a scheme to defraud
approximately $64,000 in Section 8 housing      HUD’s Section 8 program by using SFHA
assistance and $36,000 in discharged debts      and/or HUD multifamily housing assistance
to which she was not entitled.                  payments received by Javaid, Kharsa, and
                                                Javaid’s mother, Jhan Noor, to purchase two
     Billy Nsubuga, a former Section 8          properties in El Cerrito and San Francisco,
tenant, Malden Massachusetts Housing            CA. As a result, Javaid and Kharsa received
Authority (MMHA), pled guilty to an             approximately $51,717 in Section 8 housing
Information filed in U.S. District Court,       assistance benefits to which they were not
Boston, MA, charging six counts of bank         entitled.
fraud, five counts of mail fraud, five counts
of identity theft, and one count of identity         Kalsoum Berro, a Michigan State
document fraud. Nsubuga opened bank             Housing Development Authority (MSHDA)
accounts in Massachusetts, New York, and        Section 8 tenant, and her husband, Hassan
Connecticut with cash deposits in the names     Berro, a MSHDA Section 8 landlord, were
of others using altered passports from          each charged in 19 th District Court,
Uganda, The Republic of Congo, and South        Dearborn, MI, with one count of violating
Africa and bogus identification documents       the State Housing Development Authority
from California. Nsubuga received more          Act of 1996. Hassan and Kalsoum Berro
than $100,000, which was not reported to        allegedly had lived together since 1990 and



HUD’s Public and Indian Housing Programs                                                        53
     received $94,000 in housing assistance              Authority of the County of San Mateo
     payments to which they were not entitled.           (HACSM) Section 8 tenant, was sentenced
                                                         in U.S. District Court, Northern District of
          Farid Bayot, real estate broker and            California, San Francisco, CA, to 2 years
     owner of Global One Realty, Inc., Aurora,           probation and ordered to pay HACSM
     CO, was charged in an information filed in          $25,582 in restitution for her previous guilty
     U.S. District Court, District of Colorado,          plea to false statements to HUD. Jones,
     Denver, CO, with one count of loan and              while living in and receiving public housing
     credit applications generally. Bayot                assistance from SFHA, applied for and
     allegedly assisted Littleton Housing                received Section 8 housing assistance
     Authority (LHA) Section-8 tenant,                   payments from HACSM. As a result, Jones
     Hamidullah Sarwary, in purchasing the               received $25,582 in Section 8 housing
     home in which Sarwary resided and for               assistance to which she was not entitled.
     which Sarwary received LHA housing
     assistance payments. As a result of his
     action, HUD realized losses of $3,000.
                                                         PHA Employee Theft/
                                                         Embezzlement
          Jessica Jackson-Elston, former Rock
     Island Housing Authority (RIHA) Section 8               Douglas Hamond, former maintenance
     tenant, along with Fabiola Munoz and Julio          general foreman, Utica Housing Authority
     Gallegos, former Moline Housing Authority           (UHA), was arrested and charged with five
     (MHA) public housing tenants, were                  counts of petty theft and one count of perjury
     charged in Rock Island Circuit Court, Rock          in Oneida County Court, Utica, NY.
     Island, IL, with multiple counts of theft and       Hamond allegedly misused UHA’S credit
     identity fraud. Jackson-Elston allegedly            card for personal purchases.
     failed to report her husband’s ownership of
     her RIHA Section 8 subsidized unit, and                 In Grand Rapids, MI, Jerome
     Munoz and Gallegos allegedly failed to              Wisniewski, former executive director,
     report income and/or used false identities          Manistee Housing Commission (MHC), was
     and SSNs on MHA annual recertifications.            sentenced to 3 years in prison and 3 years
     As a result of their actions, the collective loss   probation and ordered to pay HUD
     to HUD exceeds $35,000. Jackson-Elston              $1,308,522 in restitution after he pled guilty
     was terminated from the RIHA rental                 to embezzlement and unlawful monetary
     assistance program.                                 transactions. Wisniewski, in a scheme to
                                                         defraud MHC of more than $1.2 million,
          Mary Martin, former St. Petersburg             funneled MHC’S funds into a fictitious
     Housing Authority (SPHA) Section 8 tenant,          company he created and used the money to
     pled guilty in U.S. District Court, Middle          purchase a 1989 Rolls Royce Silver Spur, a
     District of Florida, Tampa, FL, to one count        1999 Porsche 911, and two residential
     of theft of government funds. Martin failed         properties.
     to report income earned by her resident
     spouse to SPHA and claimed a resident                   Jane A. Burchett, former executive
     daughter while the daughter received her            director, Wymore Housing Authority
     own Section 8 housing benefits from Pinellas        (WHA), was sentenced in U.S. District
     County Housing Authority. As a result,              Court, District of Nebraska, Omaha, NE, to
     HUD realized an estimated $36,997 loss.             3 years probation and ordered to pay WHA
     Martin was arrested on March 1, 2006.               $19,977 in restitution. Burchett, who was
                                                         convicted of Federal program fraud on
        Ranina Jones, former San Francisco               August 18, 2005, embezzled approximately
     Housing Authority (SFHA) and Housing                $26,683 from WHA by issuing inflated WHA


54                                                           HUD’s Public and Indian Housing Programs
payroll checks to an employee, forging the       embezzlement and theft from an Indian
employee’s signature, and cashing the            tribal organization. During 2004, Phillips
checks.                                          skimmed $7,000 in cash rental proceeds
                                                 from YSHA.
    Wilma A. Nicholson, former executive
director of the Housing Authority of the City         Bernard Meyer, former Williamsport
of Alamo (HACA), was sentenced in U.S.           Housing Authority (WHA) executive
District Court, Southern District of Georgia,    director, was sentenced in U.S. District
Alamo, GA, to 10 months incarceration and        Court, Middle District of Pennsylvania,
3 years supervised release and ordered to        Williamsport, PA, to 1 year supervised
pay HACA $46,169 in restitution. Nicholson       probation and ordered to pay HUD $9,766
previously pled guilty to one count of theft     in restitution. Meyer was charged with
of government funds for pilfering cash           conflict of interest for failing to disclose his
dwelling receipts from HACA.                     financial interest in several properties
                                                 housing Section 8 tenants through WHA and
     Michael Mullins and David Carte,            failing to obtain a waiver from HUD. Meyer
former Cuyahoga Metropolitan Housing             received $9,766 in housing assistance checks
Authority (CMHA) employees, each pled            on behalf of Section 8 tenants over 6 years.
guilty in Court of Common Pleas, Cuyahoga        Meyer resigned his position when charged,
County, Cleveland, OH, to a one-count            and Williamsport City Council dissolved
information charging them with theft.            WHA, assigning WHA duties to Lycoming
Mullins and Carte claimed labor hours on         County Housing Authorities.
CMHA time sheets and received CMHA
wage payments while working at other jobs.           Thomas Herrera, former executive
Mullins and Carte were each sentenced to 2       director, Pueblo de Cochiti Housing
years probation and ordered to pay CMHA          Authority (PCHA), pled guilty in U.S.
restitution of $8,214 and $8,813 respectively.   District Court, District of New Mexico,
                                                 Albuquerque, NM, to one count of theft and
     Lawrence Bower, former Williamsport         one count of embezzlement from an Indian
Housing Authority (WHA) board member,            tribal organization. From February to
was indicted in U.S. District Court, Middle      November 2003, Herrera embezzled PCHA
District of Pennsylvania, Williamsport, PA,      funds by issuing unauthorized PCHA
for allegedly making false statements to         checks to himself, forging PCHA board
HUD. Bower allegedly failed to apply for         members’ signatures, cashing the checks,
or obtain a waiver from HUD to participate       and using the funds for personal expenses.
in the WHA Section 8 program as required.        HUD realized losses of $78,448.
Bower, in his position as WHA board
member, approved monthly WHA housing                  Stan Self, former executive director for
assistance checks made payable to him,           Hugo Housing Authority (HHA), Hugo,
receiving a total of $25,324 over 11 years.      OK, and Region VI Housing Authority,
The Williamsport City Council dissolved          Roswell, NM, was indicted in U.S. District
WHA, assigning WHA duties Lycoming               Court, Eastern District of Oklahoma,
County Housing Authorities.                      Muskogee, OK, on one count of mail fraud.
                                                 Self pled guilty to the charge during a plea
    Jaymie Jo Phillips, former Yankton           hearing on December 29, 2005. Self, as
Sioux Housing Authority (YSHA)                   executive director of HHA, embezzled HHA
occupancy specialist, was sentenced in U.S.      funds by providing HHA consulting
District Court, District of South Dakota,        services according to his employment
Sioux Falls, SD, to 3 years probation and        contract on 25 occasions, collecting the
ordered to pay YSHA $8,389 in restitution        payments on behalf of HHA, failing to remit
following her previous guilty plea to            the payments to HHA, and using the funds

HUD’s Public and Indian Housing Programs                                                            55
     for his personal benefit. Self resigned from              James H. Tate, former executive
     HHA after receiving a limited denial of               director, Junction City, KS, Housing
     participation (LDP) suspension from HUD.              Authority (JCHA), was sentenced in U.S.
     Self was then hired as executive director,            District Court, District of Kansas, Topeka,
     Region VI Housing Authority, Roswell, NM,             KS, to 5 months prison, 5 months house
     but resigned this position on December 30,            arrest and 3 years probation and ordered to
     2005. As a result of his actions, HUD                 pay JCHA $102,701 in restitution. On
     realized losses of $6,304.                            August 23, 2005, Tate pled guilty to theft of
                                                           government property for stealing $102,701
          Loren Goldtooth, former executive                from JCHA by purchasing personal items
     director, KI:KI Association, the HUD-                 on JCHA credit cards. Tate paid his
     funded tribally designated housing entity             unauthorized JCHA credit card expenses
     of the Tohono O’Odham Indian Nation, and              using the electronic signature password of
     certified public accountant doing business            the JCHA board chairman to approve the
     as Goldtooth & Company, P.C., was indicted            issuance of checks from JCHA’S
     on February 6, 2006, in U.S. District Court,          computerized accounting program.
     District of Arizona, Tucson, AZ, on two
     counts of embezzlement and theft from an                   John C. Wolfe, Sr., former executive
     Indian tribal organization, three counts of           director, Marionville Housing Authority
     failing to file Federal individual income tax         (MHA), was charged in a felony complaint
     returns, and two counts of failing to file            filed in 39th Missouri Judicial Circuit Court,
     Federal corporate income tax returns. From            Marionville, MO, with two counts of
     February 2000 through August 16, 2002,                stealing. From April 2003 through August
     Goldtooth allegedly embezzled $216,531 of             2004, Wolfe allegedly embezzled $23,267
     KI:KI Association funds and failed to file            from MHA by issuing himself payroll
     Federal individual and/or corporate tax               checks not reported to or approved by the
     returns for 1999 through 2002. On February            MHA board of directors.
     16, 2006, Goldtooth was arrested.




     Copyright, 2006. Arizona Daily Star - Tucson, AZ. Reprinted with permission.




56                                                              HUD’s Public and Indian Housing Programs
     Barbara Gilbert, former executive
director, Buena Housing Authority (BHA),
was sentenced in Atlantic County Court,
Newark, NJ, to 180 days in prison and 3
years probation and ordered to permanently
forfeit public employment and pay HUD
restitution in an amount to be determined.
Gilbert pled guilty to two counts of theft by
deception on December 9, 2005. Gilbert
used BHA checks and BHA’s Home Depot
account to pay for and obtain more than
$7,800 in personal purchases.

     Serena Parker, a former Greensboro
Housing Authority (GHA) intake specialist,
along with Teresa Thomas and Vivian
Pandora Bailey, fictitious GHA landlords,
were each indicted in U.S. District Court,
Middle District of North Carolina,
Greensboro, NC, on seven counts of mail
fraud and seven counts of aiding and
abetting. Parker allegedly accessed GHA’S
computer system, illegally added Thomas
and Bailey as GHA landlords, and caused
the mailing of 48 fraudulent housing
assistance checks totaling more than $70,000
to both Thomas and Bailey.                          Copyright, 2006. The Republican -
                                                    Springfield, MA. Reprinted with permission.
PHA Contract Fraud
                                                    Nicholas Kastounakis, doing business
    In the Eastern District of Michigan,        as Manny’s Plumbing & Heating, pled guilty
Detroit, MI, LaToya Cotton, a former            to a six-count information filed in U.S.
contractor for Michigan State Housing           District Court, District of Massachusetts,
Development Authority (MSHDA), entered          Springfield, MA, charging him with three
into a plea agreement with the U. S.            counts of bribery and three counts of aiding
Attorney’s Office, following the filing of a    and abetting. Katsounakis, a contractor for
criminal information charging Cotton with       Springfield Housing Authority (SHA), was
one count of theft/embezzlement and one         involved in a kickback scheme with
count of criminal forfeiture against her        Raymond Asselin, former SHA executive
property valued at $750,780. Cotton, doing      director, and Arthur Sotirion, former SHA
business as Washtenaw Payee Services, a         deputy director.
former MSHDA contractor who
administered the Washtenaw County                    William Moorehead, doing business as
Section 8 rental assistance program, created    William Moorehead and Associates (WMA),
false tenant files and inspections and          acknowledged a joint liability of $2.8 million
diverted $1,052,701 in housing assistance       to the U.S. Government in a stipulation for
payments to herself over 10 years.              entry of consent judgment filed in U.S.
                                                District Court, Northern District of Illinois,




HUD’s Public and Indian Housing Programs                                                          57
     Chicago, IL. Moorehead, a property              housing tenants, were arrested at Las Palmas
     manager for many housing authorities and        public housing complex in Coamo, PR, on
     privately owned Section 8 developments,         outstanding arrest warrants relating to the
     created fraudulent records and money            sale and distribution of firearms and drugs.
     transfers to hide missing and misused
     funds. Moorehead also directed                      Francisco Frias was arrested at his New
     codefendants Patricia Taylor and Brian          York City Housing Authority public
     Townsend, accountants at WMA, to create         housing unit in New York, NY, on a warrant
     false bank records and write checks drawn       for making terror threats out of Stamford,
     on accounts containing insufficient funds.      CT, by the NY/NJ High Intensity Drug
                                                     Trafficking Area Regional Fugitive Task
          Eric Ackerman, a plumbing contractor       Force. A bullet resistant vest, 64 grams of
     for Buffalo Municipal Housing Authority         cocaine, a 9mm semiautomatic weapon,
     (BMHA), pled guilty in U.S. District Court,     drug paraphernalia, and $5,945 in cash were
     Buffalo, NY, to one count of false statements   seized during a search of his unit.
     to HUD. Ackerman falsely certified his
     qualifications as a minority business               Six Chester Housing Authority (CHA)
     enterprise (MBE) and distribution of BMHA       public housing and Section 8 voucher
     work to other MBE companies. As a result,       tenants were arrested at CHA public
     he received approximately $1.75 million         housing units or subsidized residences in
     in BMHA contracts to which he was not           Chester, PA, on outstanding warrants,
     entitled.                                       including one warrant charging attempted
                                                     murder.
     Fugitive Felon                                       As a result of an ongoing fugitive felon
                                                     initiative, 10 individuals were arrested
         Michael Deuso, a Franklin County            throughout Windham County, VT, on
     Housing Authority Section 8 recipient and       outstanding State warrants. Several
     fugitive, was arrested at his apartment in      individuals arrested received Section 8
     Turners Falls, MA, for probation violations,    housing assistance either through the
     including smuggling drugs into a New            Vermont State Housing Authority or
     Mexico prison.                                  Brattleboro Housing Authority.
          Jose Verdejo-Santiago, a public housing        Juan Almodovar, an illegal resident of a
     tenant, Puerto Rico Housing Authority           public housing unit was arrested in
     (PRHA), was arrested at his Covadonga           Worcester, MA, for failure to register as a
     public housing unit in Trujillo Alto, PR, on    sex offender. Almodovar, previously
     an outstanding fugitive-felon arrest warrant    convicted of rape in New York, failed to
     relating to the illegal sale and distribution   register as a sex offender in either New York
     of firearms and drugs. At the time of his       or Massachusetts.
     arrest, 259 heroin decks, 340 units of
     marijuana, and five grams of pure heroin
                                                          Dashonn Graves, a management
     were seized from his apartment.
                                                     information specialist, Plainfield Housing
                                                     Authority and City of Orange Housing
         Joel Moreno, Ithier Rivera, Jose A.         Authority, was arrested in Newark, NJ, on
     Rivera, Luis Melendez, Jose Ortiz, Omar         an outstanding warrant for failing to fulfill
     Moreno, Jose G. Rivera, Jose M. Rivera,         requirements of his pretrial intervention
     Ramon Martinez, Carlos Cruz, Lizette            (PTI) program. Graves, originally arrested
     Rivera, and Yaritza Franceshi, all Puerto       in April 2002 for credit card fraud and
     Rico Housing Authority (PRHA) public            larceny, pled guilty to embezzling $37,000


58                                                       HUD’s Public and Indian Housing Programs
from his previous employer. Graves was                Regina Battles, Tashanique Leonard,
sentenced to 1 year pretrial probation and        Brenda Vazquez, and Michael Martin, four
restitution of $25,000. In March 2004, after      tenants of the Springfield Housing
failing to meet probation requirements,           Authority (SHA), Sullivan Public Housing
Middlesex County District Attorney’s              Development, were arrested on outstanding
Office, MA, issued an arrest warrant for          warrants in Springfield, MA.
Graves.
                                                      Sixteen individuals were arrested on
     Dion Johnson of Richmond, VA, was            outstanding State warrants throughout
arrested in North Carolina on charges that        Windsor County, VT, as part of an ongoing
he failed to reregister as a sex offender. In     Fugitive Felon Initiative. Several of the
April 1991, Johnson was convicted of felony       individuals targeted were Vermont State
rape and breaking and entering; later             Housing Authority Section 8 residents.
convictions include attempted rape,
robbery, assault, grand larceny, and failing
to register as a violent sexual offender. In
                                                  Other Fraud/Crimes
March 2005, Johnson registered as a violent
sex offender living in a Richmond                     Veronika Smith-Riley, a loan processor
Redevelopment and Housing Authority               with Commonwealth United Mortgage, was
(RRHA) unit leased to his mother. Johnson         sentenced in U.S. District Court, Southern
failed to reregister after 90 days as required.   District of Florida, Miami, FL, to 11 months
                                                  imprisonment and 3 years probation and
     HUD OIG participated in a United             ordered to perform 450 hours of community
States Marshal’s Service (USMS) fugitive          service. Smith-Riley previously pled guilty
felon apprehension plan dubbed “Operation         to one count of conspiracy to commit mail
City Sweep” from March 6 through March            fraud. Smith-Riley, using false loan
31, 2006, in the Washington, DC,                  information, enabled a straw-buyer to
metropolitan area. HUD OIG and other              secure a mortgage and quit claimed the
members of the Capital Area Regional              property back to her. Smith-Riley then
Fugitive Task Force (CARTF) arrested              leased the property to the Miami-Dade
fugitives with outstanding warrants on            Housing Authority (MDHA) for use in its
charges ranging from parole violations to         rental assistance program.           MDHA
homicide. Three hundred-fifteen of                terminated Smith-Riley’s contract as a result
Washington, DC’s most notorious criminals         of her actions.
were arrested by CARTF. Some outstanding
warrants included crimes involving sex                A 25-count felony criminal complaint
offenses, homicides, assault, drugs, and          was filed in State Court, Los Angeles, CA,
burglary and/or robbery. Many of the              against Anthony Miller, a 12-year public
arrests occurred in and around DC Housing         housing resident, and coconspirator
Authority public housing properties and           Marjorie Craddock, a former insurance
HUD multifamily properties located in             agent, Western Southern Life Insurance
Washington, DC. In addition to the 315            Company. Miller and Craddock were each
fugitives arrested, CARTF seized nine             charged with three counts of insurance
weapons, various types of narcotics, $28,000      fraud, two counts of grand theft, and one
cash, and one vehicle. HUD OIG is                 count of conspiracy. In addition, Miller was
accessing HUD rental assistance databases         charged with 10 counts of forgery, and
to identify and investigate numerous cases        Craddock was charged with nine. On
of rental assistance fraud. Operation City        January 18, 2006, Miller was arrested as a
Sweep accounts for the largest multiagency        primary suspect in an unsolved homicide.
mass arrest plan of its kind in the District of   On January 25, 2006, an arrest warrant was
Columbia during a 3-week period.                  issued for Craddock. Miller and his family

HUD’s Public and Indian Housing Programs                                                          59
     reside at Jordan Downs Public Housing             retrieve a shotgun found by WHA
     Apartment Complex in Los Angeles. Miller,         maintenance employees in a WHA Addison
     the alleged beneficiary on 54 life insurance      Street Apartments housing unit formerly
     policies, including a policy on the murder        leased to his mother.
     victim, paid approximately $2,000 in cash
     monthly for the policies, an amount not                Thomas C. McGee and Andrea Wilks
     supported by his reported Social Security         were each indicted by a State of Missouri
     Supplemental Security Income (SSI) and Aid        grand jury, in St. Louis, MO, on one count
     to Families with Dependant Children               of second degree robbery, one count of
     (AFDC) benefits.                                  kidnapping, four counts of false
                                                       impersonation, one count of attempted
         Danilo Rico, a former East Hartford           stealing, and two counts of stealing over $500
     Housing Authority (EHHA) Section 8                by deceit. Allegedly, McGee and Wilks
     tenant, was indicted in U.S. District Court,      obtained the tenant list of Greater Bethlehem
     District of Connecticut, East Hartford, CT,       Elderly, a HUD-funded elderly housing
     on one count of possession of a firearm by a      project and, posing as police officers and/or
     convicted felon for possessing a 9 mm             detectives, attempted to steal or embezzle
     handgun seized during a Federal search            assets of the elderly.
     warrant at his EHHA Section 8 unit on
     August 31, 2005. EHHA terminated Rico                 Fifteen unauthorized tenants were
     from its rental assistance program.               found residing at the Worcester Housing
                                                       Authority (WHA) Great Brook Valley
          Clarence E. Baker, Jr., a Section 8 tenant   Gardens Housing Development in
     at Canterbury Towers Apartments, was              Worcester, MA. During the interview of one
     charged in a State criminal complaint, in         unreported tenant, police observed
     Worcester, MA, with felony charges of             marijuana in plain view and arrested the
     presenting a false claim to a government          unreported tenant on drug charges. A
     agency and larceny over $250 by false             juvenile reported missing for 6 months was
     pretense. Baker also failed to report his         found hiding in another unit.
     sexual offender conviction on housing
     assistance documents.                                  Louis Douglas, a Section 8 recipient, was
                                                       charged in Superior Court, County of Los
          Louis Hanley was sentenced in U.S.           Angeles, Los Angeles, CA, with three felony
     District Court, District of Massachusetts,        counts of failing to register annually as a
     Worcester, MA, to 4 years incarceration and       convicted sex offender. Douglas, previously
     3 years supervised release following his          convicted in 1997 of committing lewd and
     October 5, 2005, guilty plea to one count of      lascivious acts on a child under the age of
     interstate travel for the purpose of dealing      14, allegedly failed to disclose his status as
     in firearms without a license. Hanley, a          a lifetime sex offender to the City of Los
     convicted felon, traveled from Maine to the       Angeles Housing Authority before
     Worcester Housing Authority (WHA) to              obtaining housing assistance benefits.




60                                                         HUD’s Public and Indian Housing Programs
   Chapter 4
HUD’s Multifamily
Housing Programs
         In addition to multifamily housing                         The project had more than $4.4 million
     developments with U.S. Department                         in questionable cash disbursements and
     of Housing and Urban Development                          accrued expenses. Under the direction of
     (HUD)-held or HUD-insured mortgages, the                  the owner and identity-of-interest
     Department owns multifamily projects                      management agent, the project made
     acquired through defaulted mortgages,                     questionable cash disbursements of more
     subsidizes rents for low-income                           than $1.6 million and accrued questionable
     households, finances the construction or                  expenses of more than $192,000 while in a
     rehabilitation of rental housing, and                     non-surplus-cash position, and the owner
     provides support services for the elderly                 and identity-of-interest management agent
     and handicapped.                                          billed HUD more than $2.4 million for
                                                               services not provided. In addition, the
     Audits                                                    general manager of the management agent
                                                               received a salary as the assistant
                                                               administrator of the nursing home, resulting
         During this period, the Office of
                                                               in more than $112,000 in unnecessary
     Inspector General (OIG) issued nine
                                                               expenses.
     external reports and one internal report in
     the multifamily housing program area.
                                                                    OIG recommended that HUD 1) pursue
     These reports disclosed more than $15
                                                               the recovery of double the amount of
     million in questioned costs and more than
                                                               questionable cash disbursements to
     $19 million in recommendations that funds
                                                               identities of interest; 2) obtain support or
     be put to better use.
                                                               reimbursements for unsupported and
                                                               unnecessary disbursements; 3) pursue the
         Over the past 6 months, OIG has
                                                               recovery of questionable distributions to
     audited owner and management agent
                                                               non-identities-of-interest;        4)    take
     operations with an emphasis on combating
                                                               appropriate action to prevent payment of
     equity skimming. The results of OIG’s more
                                                               ineligible and unnecessary cash
     significant audits are described below.
                                                               disbursements after the audit period; 5)
                                                               require the project to develop and
     Chart 4.1: Multifamily Housing Dollars                    implement procedures that ensure only
     25,000,000                                                eligible expenses are paid from project funds
     20,000,000
                                                               and that documentation is maintained to
                                                               support the eligibility of payments made; 6)
     15,000,000
                                                               require the project to replace the
     10,000,000
                                                               management agent; and 7) pursue all
      5,000,000                                                applicable administrative sanctions against
             0                                                 the owner, management agent, and identity-
                  Questioned Costs   Funds Put to Better Use
                                                               of-interest companies. (Audit Report: 2006-
                                                               BO-1004)
     Owner and Management                                          HUD OIG audited Holiday Apartments,
     Agent Operations                                          LA Pro 30, and Two Worlds II in Los
                                                               Angeles, CA, to assess HUD’s concerns over
         HUD OIG audited Mount Saint Francis                   inappropriate disbursements and determine
     Health Center in Woonsocket, RI, to                       whether the projects were administered in
     determine whether the owner complied with                 compliance with HUD requirements.
     its HUD regulatory agreement and other
     applicable laws and regulations.                             The owner and identity-of-interest
                                                               management agent used project funds to


62                                                                      HUD’s Multifamily Housing Programs
pay more than $2.6 million in ineligible and     disbursements occurred while the project
unsupported costs, including excessive and       was in a non-surplus cash position and/or
unreasonable charges by an identity-of-          in default of its HUD-insured loan. HUD
interest maintenance contractor, excessive       sold the project’s note and lost more than
charges for the management agent’s               $6.3 million. OIG identified more than $1.8
president, unsupported rent charges and          million in questionable cash disbursements
capital improvement expenses for the             made by the project’s owner and/or
management agent’s office, and ineligible        management agent. The disbursements
ownership expenses. OIG anticipates              were used to pay for non-project-related
similar additional questionable costs            expenses, loan repayments, excessive
continued after the end of the audit period      management fees, and unnecessary services
that could cost the projects another $457,000.   while the project was in a non-surplus-cash
OIG’s building inspections identified more       position and/or in default of its HUD-
than 240 health or safety violations, which      insured loan.
resulted in more than $561,000 in housing
assistance payments for units and buildings          OIG recommended that HUD pursue
that were not decent, safe, and sanitary. In     the recovery of double the amount of
addition, the owner and identity-of-interest     questionable cash disbursements to
management agent did not effectively             identities of interest, support or reimburse
manage the projects, to include not              the insurance fund for unsupported costs,
accurately calculating, reporting, and           and      require      reimbursement       of
resolving more than $655,000 in project          disbursements that were deemed
liabilities.                                     unnecessary to the nursing home. (Audit
                                                 Report: 2006-BO-1006)
     OIG recommended that HUD require
the owner to repay the respective projects           HUD OIG reviewed the books and
for the ineligible costs and provide support     records of the Villas at Camelback Crossing
for the reasonableness of unsupported costs      Phase I, a 264-unit multifamily housing
or repay the projects. In addition, HUD          project located in Glendale, AZ, at the
should require the owner to correct unit         request of HUD. HUD expressed concerns
deficiencies and obtain new management,          regarding the owner’s use of project funds.
accounting, and maintenance services.            The objective was to determine whether the
(Audit Report: 2006-LA-1010)                     owner and its identity-of-interest
                                                 management agent used project funds only
    HUD OIG reviewed the books and               for reasonable operating expenses and
records of Coventry Health Center of             necessary repairs as required by the
Coventry, RI, to determine whether               regulatory agreement.
Coventry Health Center Associates, L.P.,
and/or Sterling Health Care Management                The project’s owner, Millenium
Company,       an    identity-of-interest        Communities, Inc., and American West
management agent, used the project’s funds       Communities, LLC, the project’s identity-of-
in compliance with the regulatory                interest management agent, inappropriately
agreement and HUD’s requirements.                used more than $1 million in project funds
Coventry was selected for audit because the      for ineligible purposes in violation of the
nursing home was in default.                     regulatory agreement. The ineligible uses
                                                 included more than $300,000 in international
    Coventry’s owner and/or management           wire transfers to unknown entities, more
agent used project funds for inappropriate       than $26,000 for payments on unauthorized
and    unsupported       disbursements.          loans, and more than $180,000 for payment
The inappropriate and unsupported                of project construction costs. Additional


HUD’s Multifamily Housing Programs                                                              63
     improper uses included more than $80,000       default on its HUD-insured mortgage. The
     paid to management agent supervisory           ineligible uses included $262,000 in
     personnel and corporate officers; net          international wire transfers to unknown
     payments of approximately $65,000 to other     entities, more than $101,000 for payments
     identity-of-interest projects; and payments    on unauthorized loans, $100,000 to an
     of more than $116,000 for unallocated          unknown certificate of deposit account, and
     payroll, health insurance, and other           approximately $79,000 for payment of
     expenses of the identity-of-interest           project construction costs. Additional
     Camelback II project. The project owner        improper uses included more than $151,000
     and/or management agent lacked                 paid to corporate officers and management
     documentation to support additional            agent supervisory personnel and net
     disbursements of more than $165,000 for        payments of $119,000 to other identity-of-
     credit card expenses, legal expenses,          interest projects. The owner and/or
     insurance expenses, and other costs.           management         agent     also     lacked
     Further, the project did not obtain required   documentation to support additional
     HUD approval of its management agents          disbursements of more than $182,000 for
     and inappropriately paid approximately         credit card expenses, real estate taxes, and
     $104,000 in management fees.                   other costs. Further, the owner did not
                                                    obtain required HUD approval for American
         OIG recommended that HUD ensure            West to serve as the project’s management
     that the owner reimburses the project’s        agent and allowed another identity-of-
     operating account for the inappropriate        interest project to retain $12,000 in project
     expenses and provides documentation for        revenue.
     the unsupported payments or reimburses
     those amounts that cannot be supported to          OIG recommended that HUD ensure
     the project’s operating account. (Audit        that the owner reimburses the project’s
     Report: 2006-LA-1005)                          operating account for the ineligible
                                                    disbursements and provides documentation
         HUD OIG reviewed the books and             for the unsupported payments or
     records of the Villas at Camelback Crossing    reimburses those amounts that cannot be
     Phase II, a 240-unit multifamily housing       supported to the project’s operating account.
     project located in Glendale, AZ, at the        (Audit Report: 2006-LA-1006)
     request of HUD. HUD expressed concerns
     regarding the owner’s use of project funds.        HUD OIG reviewed the books and
     The objective was to determine whether the     records of the Villas at Augusta Ranch, a 238-
     owner and its identity-of-interest             unit multifamily housing project located in
     management agent used project funds only       Mesa, AZ, at the request of HUD. HUD
     for reasonable operating expenses and          expressed concerns regarding the owner’s
     necessary repairs as required by the           use of project funds. The objective was to
     regulatory agreement.                          determine whether the owner and its
                                                    identity-of-interest management agent used
          The project’s owner, Camelback            project funds only for reasonable operating
     Crossing II Limited Partnership, and           expenses and necessary repairs as required
     American West Communities, LLC, the            by the regulatory agreement.
     project’s general partner and identity-of-
     interest management agent, inappropriately          The    project’s    owner,      Tegan
     used more than $1 million in project funds     Communities, Inc., and American West
     for ineligible purposes during a period when   Communities, LLC, the project’s identity-of-
     the project did not have surplus cash          interest management agent, inappropriately
     available for distribution and/or was in       used more than $965,000 in project funds for


64                                                           HUD’s Multifamily Housing Programs
nonproject (ineligible) purposes in violation     $32,800 from nonproject funds. (Audit
of the regulatory agreement. The ineligible       Report: 2006-LA-1003)
uses included approximately $367,000 in
wire transfers to unknown entities,                    HUD OIG reviewed the books and
approximately $137,000 for payments on an         records of The Sanctuary, a 39-bed assisted
unauthorized line of credit, and $8,600 for       living facility located in Geneva, OH. The
payment of project construction costs.            review was part of OIG’s efforts to combat
Additional improper uses included more            multifamily equity skimming on HUD’s
than $78,000 paid to management agent             Federal Housing Administration (FHA)
supervisory personnel and corporate               insurance fund. OIG chose the project based
officers and net payments of approximately        upon its negative surplus-cash position
$72,000 to other identity-of-interest projects.   since 2002 and indications that project funds
The owner lacked documentation to support         or assets were not used as required. The
additional disbursements of more than             objective was to determine whether the
$246,200 for credit card expenses, legal          owner/management agent used project
expenses, and other costs. Further, the           funds in compliance with the regulatory
project did not obtain required HUD               agreement and HUD’s requirements.
approval of its management agent and
inappropriately paid more than $56,000 in             Eld-Terra, Incorporated, the managing
management fees.                                  general partner of The Sanctuary of Geneva
                                                  Limited Partnership, improperly used more
     After OIG’s audit, the project was sold,     than $43,000 in project funds from February
and the HUD-insured mortgage was paid             2003 through January 2005, when the project
in full, canceling HUD’s insurance liability      was in a non-surplus-cash position. The
on the project. Accordingly, OIG did not          general partner inappropriately disbursed
recommend repayment of the ineligible             $37,000 to repay owner advances to the
costs identified but recommended that HUD         project and approximately $1,000 for non-
pursue double damages remedies under the          project-related legal services. Also, the
equity skimming statues for the misuse of         general partner lacked documentation to
project funds. (Audit Report: 2006-LA-            support that more than $5,000 in project
1007)                                             funds was properly used.

    In response to a request from HUD’s               OIG recommended HUD require the
Office of Multifamily Housing in San              general partner to reduce the project’s
Francisco, CA, HUD OIG audited The                management fee liability for the
Avenue, a 145 bed assisted living facility.       inappropriate      payments,       provide
The objective was to determine whether            documentation to support the unsupported
project funds were administered in                payments or reduce the project’s
compliance with the regulatory agreement          management fee liability for the appropriate
and HUD requirements.                             amount, and implement procedures and
                                                  controls to ensure that future repayments
     The project’s owner misused more than        of owner advances are made only from
$32,800 in project funds by entering into a       project surplus cash or with prior HUD
food service contract that had excessive          approval and project funds are used
costs and paid Feng Shui Consulting for           according to HUD’s requirements. (Audit
ineligible expenses.                              Report: 2006-CH-1002)

    OIG recommended that HUD require
the owner to repay The Avenue more than



HUD’s Multifamily Housing Programs                                                                65
     Section 8 Contract
     Administrators
         In response to a request from HUD, OIG
     audited the Idaho Housing and Finance
     Association in Boise, ID. The objective was
     to determine whether Idaho Housing
     monitored projects in accordance with its
     annual contributions contract with HUD to
     ensure that project funds were expended
     appropriately.

          Idaho Housing inappropriately allowed
     excessive owner distributions; duplicate and
     other unsupported reimbursements from
     replacement reserves; a conflict-of-interest
     to exist between itself and The Housing
     Company, a nonprofit owner of subsidized
     multifamily projects; and excessive
     management fees. These deficiencies
     resulted in questioned costs of more than
     $3.8 million and unsupported costs of more
     than $182,000.

          OIG recommended that HUD require
     Idaho Housing to reimburse the affected
     projects’ residual receipts accounts for the
     excessive       distributions,        duplicate
     reimbursement, and excessive management
     fees; provide supporting documentation or
     reimburse the affected projects’ replacement
     reserve accounts for unsupported
     reimbursements; and take corrective action
     to resolve the conflict of interest relationship.
     OIG also recommended that HUD obtain a
     formal legal opinion to determine whether
     the 1988 housing assistance payments
     amendments subject the owners of the
     projects to limitations on distributions in
     accordance with 24 CFR 883.702(e). (Audit
     Report: 2006-SE-1001)




66                                                       HUD’s Multifamily Housing Programs
 Investigations                                                 falsified her reported income and failed to
                                                                disclose property she owned in Sacramento,
      During this reporting period, OIG                         CA. Under the plea agreement, Williams
 opened 74 investigation cases and closed 105                   agreed to pay HUD $45,072 in restitution for
 cases in the multifamily housing program                       Section 8 subsidies to which she was not
 area. Judicial action taken on these cases                     entitled.
 during the period included $3,931,894 in
 investigative recoveries, 60 indictments/                           Carsereena Red Dog, a Section 8
 informations, 30 convictions/pleas/pretrial                    Moderate Rehabilitation recipient and
 diversions, 101 arrests, 1 civil action, 1                     accountant for Opportunities Inc. (OI), a
 personnel action, and 81 administrative                        HUD funded nonprofit organization in
 actions.                                                       Great Falls, MT, along with Leslie Red Dog,
                                                                also an OI Section 8 Moderate Rehabilitation
                                                                recipient, were each indicted in U.S. District
Chart 4.2: Multifamily Housing Recoveries
                                                                Court, District of Montana, Billings, MT, on
                           Contract Fraud
                                                                one count of conspiracy and one count of
                 Embezzlement   1% Davis Bacon                  false statements to HUD. Carsereena and
   Section 8         2%                   3%
      9%                                     False Statements   Leslie Red Dog allegedly failed to report all
                                                   15%          income on annual rental assistance
                                                                recertification documents submitted to OI.
                                                                As a result, HUD’s loss is estimated at
                                                                $36,000.
                                       Equity Skimming
  Total Recoveries $3,931,894                70%                    Rosalyn Tillery, a former Section 8
                                                                tenant at La Salle Apartments, a HUD-
                                                                subsidized multifamily housing complex,
      Multifamily rental assistance fraud is                    was indicted in U.S. District Court, Northern
 one of the investigative priorities for the                    District of California, San Francisco, CA, on
 Office of Investigation. OIG continues rental                  one count of making false statements to
 assistance fraud initiatives nationwide that                   HUD. From July 1995 through December
 will help reduce fraud in HUD rental                           2001, Tillery allegedly failed to claim her
 assistance programs and support the                            employment with the County and City of
 HUD        Rental     Housing      Integrity                   San Francisco or her 1997 purchase and co-
 Improvement Project (RHIIP). Some of the                       ownership of a single-family residence in
 investigations discussed in this report were                   Hercules, CA, on HUD documents. As a
 conducted jointly with Federal, State, and                     result, Tillery received approximately
 local law enforcement agencies. The                            $35,759 in Section 8 housing assistance to
 results of OIG’s more significant                              which she was not entitled.
 investigations are described below.
                                                                     Shaneen Edwards, a Miami Department
                                                                of Community Development (MDCD)
 Rental Assistance Fraud                                        Section 8 tenant, was indicted in U.S. District
                                                                Court, Southern District of Florida, Miami,
      Olandria Williams, a former Section 8                     FL, on two counts of false statements to HUD
 tenant at Shoreview Apartments, a HUD-                         and 44 counts of theft of government funds.
 subsidized housing complex, pled guilty in                     Edwards allegedly concealed her
 the U.S. District Court, Northern District of                  employment as a teacher with the Miami-
 California, San Francisco, CA, to one count                    Dade County Public Schools to qualify for
 of false statements to HUD. Williams                           continued MDCD housing assistance, and



  HUD’s Multifamily Housing Programs                                                                              67
     failed to use her subsidized unit as her               Manila McCloud, a Miami Department
     primary residence. As a result, HUD               of Community Development (MDCD)
     realized losses of $25,445.                       Section 8 tenant, was indicted in U.S. District
                                                       Court, Southern District of Florida, Miami,
          Rhonda Olkowski, a former Section 8          FL, on one count of false statements to HUD
     tenant, South Middlesex Opportunity               and 39 counts of theft of government funds.
     Council (SMOC), was sentenced in the U.S          McCloud allegedly concealed her
     District Court, Boston, MA, to 6 months           employment with Miami-Dade Transit
     probation and ordered to pay HUD $30,360          Agency to qualify for MDCD housing
     in restitution for her guilty plea to one count   assistance and failed to use her subsidized
     of false statements on November 9, 2005.          unit as her primary residence. As a result,
     From February 2001 to April 2004,                 HUD realized losses of $22,695.
     Olkowski, whose husband is a U.S. Federal
     Air Marshal, failed to report her husband’s            Alan C. Maki, a Section 8 tenant at
     income on SMOC documents.                         Canterbury Towers Apartments, a HUD-
                                                       assisted multifamily housing complex, was
                                                       charged in Worcester District Court,
                                                       Worcester, MA, with perjury and larceny
                                                       over $250 by false pretense. Maki allegedly
                                                       failed to disclose his previous sex offender
                                                       conviction on housing assistance
                                                       documents.

                                                            Eight Walnut Grove Apartment Section
                                                       8 tenants were arrested in Kansas City, MO,
                                                       on outstanding felony warrants involving
                                                       fraud, tampering, and other charges by the
                                                       Kansas City, MO, Police Department; State
                                                       of Missouri, Division of Family Services,
                                                       Department of Social Services Investigation
                                                       Section; and HUD OIG. Five of the felony
                                                       warrants relate to housing assistance fraud
                                                       cases filed against Walnut Grove project-
                                                       based Section 8 tenants for failing to report
                                                       income.

                                                       Theft and Embezzlement
                                                           Golam Mostafa, owner of Mostafa
                                                       Contracting and T&MTT, construction
                                                       companies based in Brooklyn, NY, was
                                                       found guilty in U.S. District Court, Southern
                                                       District of New York, New York, NY, on five
                                                       counts of Federal income tax evasion and
                                                       one count of filing a false Federal Income
                                                       Tax Return. From 1997 through 2003,
                                                       Mostafa Contracting and T&MTT received
     Copyright, 2006. Daily News - Boston, MA.         $17,708,578 in HUD funds through ARCO,
     Reprinted with permission.                        a $425 million HUD contractor that



68                                                               HUD’s Multifamily Housing Programs
managed Caldwell Houses, Gates Avenue              embezzled cash rents from tenants and utility
Houses, Jose Diego Beekman, JD Beekman,            reimbursements from HUD associated with
Medgar Evers, Mott Haven 6, Willow Street          these units. HUD’s loss is $87,775.
Apartments, West Street Apartments,
Oxford Knolls Apartments, 31 North
Virginia Avenue, Willard J. Price, and
                                                   Other Fraud/Crimes
Pueblo, all HUD mortgagee in possession
(MIP) multifamily properties. Mostafa’s                 American Management Incorporated
contract with HUD/ARCO required him to             (AMI), a property management company for
complete all building and unit renovations         HUD-owned multifamily properties, was
and rehabilitations on HUD MIP                     named in a civil complaint filed in U.S.
multifamily properties, but Mostafa                District Court, Eastern District of Michigan,
subcontracted building and unit                    Detroit, MI. AMI and its employees
renovations back to ARCO employees                 allegedly fabricated repair and service
instead. From 1998 through 2002, while             subcontracts totaling $133,364 at HUD-
under contract with HUD/ARCO, Mostafa              owned multifamily properties managed by
sent approximately $7 million to Bangladesh        AMI. The complaint further alleges AMI
via a money remitter, reporting this amount        facilitated the issuance of purchase orders
as a cost-of-goods-sold expense for income         for employee labor previously paid by HUD.
tax purposes. Mostafa was arrested on
March 22, 2005, by HUD OIG and remains                 Mark Rolfsema, a former Section 8
incarcerated.                                      tenant, Andover Commons Apartments,
                                                   was sentenced in U.S. District Court,
     Jill M. Trayner, former executive director,   District of Massachusetts, Andover, MA, to
United Methodist Retirement Center of              57 months incarceration and 3 years
Tampa, Inc., also known as Methodist Place,        supervised release following his previous
a HUD multifamily housing complex for the          guilty plea to possession of child
elderly, pled guilty in U.S. District Court,       pornography. Rolfsema possessed child
Middle District of Florida, Tampa, FL, to a one-   pornography found during a search of his
count information charging her with theft of       Section 8 apartment.
government funds. The plea agreement
requires Trayner to pay $366,228 in restitution        Joel Hernandez Pedroso, was arrested
to Methodist Place. Trayner diverted               in Miami, FL, following the unsealing of a
Methodist Place program funds into an              Federal indictment charging Hernandez
unknown account and used the funds to pay          Pedroso with one count of conspiracy to
her gambling, vehicle, credit card, and other      commit fraud against the United States.
personal expenses. Trayner was arrested            Hernandez Pedroso, in conjunction with
after her plea.                                    employees of Maloney Properties and
                                                   United Housing Management, allegedly
    Jessica Elaine Thompson Miller, Green          facilitated and received approximately
River Management, Inc., was charged in             $8,000 in cash from at least five individuals
State Court, Payne County, OK, Stillwater,         in exchange for Section 8 subsidized units
OK, with one count of embezzlement. From           at several HUD-assisted multifamily
May 1992 until December 2003, Miller was           housing complexes in Boston. During the
the on-site manager for Southern Heights           investigation, Hernandez Pedroso fled to
Apartments, a HUD-subsidized multifamily           Miami where he was arrested by HUD OIG,
complex. Miller allegedly moved tenants into       U.S. Marshal’s Service, and the Miami Police
vacant units, reported tenant move outs when       Department.
tenants remained in their apartments, and



HUD’s Multifamily Housing Programs                                                                 69
     Copyright, 2006. The Enterprise - Brockton, MA. Reprinted with permission.


          Wanda Mercado, former Property                  on Mercado’s personal residence in
     Manager for Peabody Properties, was                  Brockton, MA.
     indicted in U.S. District Court, Boston, MA,
     on five counts of bribery. Mercado solicited             Francis Oppong, an illegal resident of
     and accepted approximately $26,000 in                Lincoln Village Apartments, a HUD-assisted
     bribes from five Section 8 applicants in             multifamily housing complex, was arrested
     exchange for subsidized rental units at              in Worcester, MA, on an outstanding
     Schoolhouse 77, a Boston multifamily                 Immigration and Customs Enforcement
     complex. In addition to criminal charges,            deportation warrant.
     Peabody Properties placed a $350,000 lien




70                                                                   HUD’s Multifamily Housing Programs
       Chapter 5
HUD’s Community Planning
and Development Programs
          The Office of Community Planning and                 eligible activities and adequately monitored
     Development (CPD) seeks to develop viable                 their performance to ensure they were paid
     communities by promoting integrated                       in accordance with the contract terms, met
     approaches that provide decent housing,                   contract objectives, and properly accounted
     suitable living environments, and expanded                for Emergency Demolition and Repair
     economic opportunities for low- and                       program income.
     moderate-income persons. The primary
     means toward this end is the development                       The City paid more than $1 million in
     of partnerships among all levels of                       ineligible costs associated with 5 of the 17
     government and the private sector.                        activities reviewed. Of the ineligible costs,
                                                               more than $831,000 related to activities
     Audits                                                    ineligible under the CDBG program, and
                                                               approximately $207,000 related to an activity
                                                               that was ineligible under the cited eligibility
         During this reporting period, the Office
                                                               category. OIG also identified more than
     of Inspector General (OIG) issued eight
                                                               $394,000 allocated for ineligible activities for
     external audit reports in the CPD program
                                                               the City’s CDBG program year beginning
     area. These reports disclosed nearly $2
                                                               July 1, 2005. In addition, although the City
     million in questioned costs and more than
                                                               paid subrecipients in accordance with the
     $1 million in recommendations that funds
                                                               contracts, we could not always determine
     be put to better use.
                                                               whether the contract objectives were met.
         OIG audited Community Development
                                                                    The City also did not properly account
     Block Grant (CDBG) program, Home
                                                               for approximately $147,000 in CDBG
     Investment Partnership program (HOME),
                                                               program income generated through its
     and Special Purpose Grants program.
                                                               Emergency Demolition and Repairs
                                                               program. In addition, more than $525,000
                                                               in receivables is at risk of not being returned
       Chart 5.1: Community Planning and                       because of ineffective internal controls over
             Development Dollars                               the program receipts.
      5,000,000
      4,000,000
                                                                    OIG recommended that HUD require
                                                               the City to develop and implement
      3,000,000
                                                               procedures to ensure that only eligible
      2,000,000
                                                               activities meeting CDBG program objectives
      1,000,000                                                are funded. In addition, HUD should
             0                                                 require the City to repay more than $831,000
                  Questioned Costs   Funds Put to Better Use
                                                               in ineligible costs, repay approximately
                                                               $207,000 in costs that were improperly
                                                               classified as direct homeownership
     Community Development                                     assistance, reprogram more than $394,000
     Block Grant Program                                       allocated for ineligible activities in the
                                                               program year beginning July 1, 2005, repay
                                                               more than $62,000 in Emergency Demolition
         HUD OIG audited the City of Hartford,
                                                               and Repair program income, and provide
     CT, Division of Grants Management,
                                                               support for or repay the more than $85,000
     regarding its administration of the CDBG
                                                               in Emergency Demolition Repair program
     program in response to a Hotline complaint.
                                                               payments. (Audit Report: 2006-BO-1001)
     The objectives were to determine whether
     the City awarded grants to subrecipients for



72                                                      HUD’s Community Planning and Development Programs
     This is the sixth of HUD OIG’s ongoing
audits of the Lower Manhattan
                                              Special Purpose Grant
Development Corporation’s administration      Program
of the CDBG Disaster Recovery Assistance
funds, which were provided to the State of         HUD OIG audited NorthStar
New York as a result of the September 11,     Community Development Corporation’s
2001, terrorist attacks on the World Trade    Economic Development Initiative – Special
Center in New York City, NY. The auditee      Purpose Grant in Detroit, MI, as part of its
disbursed $64 million of these funds during   2005 annual audit plan. OIG chose
OIG’s audit period of April 1 through         NorthStar’s Grant because it disbursed 90
September 30, 2005. The objectives of the     percent or more of its funds. The objectives
current review were to determine whether      were to determine whether NorthStar used
the auditee disbursed the funds in            its Grant funds in accordance with HUD’s
accordance with HUD-approved action           requirements and recorded HUD’s interest
plans, expended the funds for eligible        on the assisted properties.
planning and administrative expenses in
accordance with applicable laws and                NorthStar improperly used more than
regulations, and maintained a financial       $123,000 in Grant funds and lacked
management system that adequately             documentation to support that nearly $2,000
safeguarded the funds.                        in Grant funds was used according to
                                              NorthStar’s amended budget. In addition,
     The auditee generally disbursed          NorthStar used more than $184,000 in Grant
Disaster Recovery Assistance funds in         funds to acquire or aid in the acquisition of
accordance with the HUD-approved action       and/or rehabilitate real property; however,
plans. The auditee also expended the funds    it did not place covenants on the properties’
for eligible planning and administrative      titles, assuring nondiscrimination based on
expenses in accordance with applicable laws   race, color, national origin, or handicap.
and regulations and maintained a financial    Further, NorthStar did not record HUD’s
management system that adequately             interest on the properties’ titles.
safeguarded the funds.           However,
weaknesses in the auditee’s control               OIG recommended that HUD
procedures permitted funds to be disbursed    require NorthStar to reimburse HUD
contrary to the terms of its subrecipient     from nonfederal funds for the
agreements and charged to the wrong           inappropriate         expenses;      provide
program. More than $259,000 was               supporting documentation or reimburse
disbursed contrary to a subrecipient          HUD for unsupported expenses; implement
agreement, $7.5 million was disbursed for     procedures and controls to address the
eligible costs but without auditee approval   deficiencies identified; and record covenants
as required, and more than $7,000 was         and liens on the titles. If the covenants and
charged to the wrong program.                 liens are not recorded, NorthStar should
                                              reimburse HUD the more than $184,000
     OIG recommended that HUD require         used on the properties. (Audit Report: 2006-
the auditee to obtain reimbursement for the   CH-1006)
more than $259,000 disbursed contrary to
the subrecipient agreement, strengthen its        HUD OIG audited the City of St. Ignace,
controls over the Disaster Recovery           MI’s Economic Development Initiative –
Assistance funds to ensure that funds are     Special Purpose Grant as part of its 2005
not disbursed without proper approval and/    annual audit plan. OIG chose the City’s
or authorization, and obtain reimbursement    grant because it had disbursed 90 percent
for more than $7,000 charged to the wrong     or more of its funds. The objectives were to
program. (Audit Report: 2006-NY-1006)

HUD’s Community Planning and Development Programs                                             73
     determine whether the City used its Grant            OIG recommended that HUD require
     funds in accordance with HUD’s                  the City to record a covenant on the title,
     requirements and recorded HUD’s interest        assuring nondiscrimination based on race,
     on the assisted property.                       color, national origin, or handicap and
                                                     record a lien on the property title for the
          The City used the Grant funds in           access road showing HUD’s interest in the
     accordance with HUD’s requirements. It          assisted property. If the covenant and lien
     used the funds to pay for the construction      are not recorded, the City should reimburse
     of the St. Ignace Public Library. However,      HUD approximately $47,600 for the Grant
     it did not place a covenant on the property     funds used to pay for the construction of the
     title    for    the    library,   assuring      access road. (Audit Report: 2006-CH-1003)
     nondiscrimination based on race, color,
     national origin, or handicap.                   Supportive Housing Program
          OIG recommended that HUD assure                HUD OIG audited the Fontana Native
     the covenant, executed on October 18, 2005,     American Indian Center in Fontana, CA, in
     on the library’s property title, ensuring       response to a request from HUD. The
     nondiscrimination based on race, color,         objectives were to determine whether the
     national origin, or handicap, includes HUD’s    Center administered its Supportive Housing
     remedies in the event that discrimination       Program grant in accordance with HUD
     occurs. The appropriately executed              requirements and its grant agreement.
     covenant with HUD’s remedies should help
     ensure that the City protects HUD’s interest        The Center spent more than $194,500
     in the more than $223,000 in Grant funds        in grant funds for ineligible, unsupported,
     used for the library. (Audit Report: 2006-      and unnecessary expenses. Additionally, the
     CH-1001)                                        Center ’s financial management and
                                                     record-keeping systems were inadequate.
          HUD OIG audited the City of
     Rhinelander, WI’s Economic Development               HUD OIG recommended that HUD
     Initiative – Special Purpose Grant. OIG         require the Center to reimburse the grant or
     chose the City’s grant because it had           repay HUD for the ineligible, unsupported,
     disbursed 90 percent or more of its funds.      and unnecessary expenses. OIG also
     The objectives were to determine whether        recommended that HUD require the Center
     the City used its Grant funds in accordance     to establish and implement financial
     with HUD’s requirements and recorded            management and record-keeping systems
     HUD’s interest on the assisted property.        that meet Federal requirements and not
                                                     award the Center additional funding until
         The City used the Grant funds in            it has implemented adequate systems and
     accordance with HUD’s requirements. It          controls. (Audit Report: 2006-LA-1009)
     used $120,000 in Grant funds to pay for the
     reconstruction of U.S. Highway 8, which             In response to a complaint from the
     included the construction of a rail spur        Government Accountability Office (GAO),
     crossing and access road. However, it did       HUD OIG completed a limited review of
     not place a covenant on the property title      Women Rising, Inc., located in Jersey City,
     for    the    access     road,    assuring      NJ. The complaint generally alleged that the
     nondiscrimination based on race, color,         grantee was misappropriating funds in
     national origin, or handicap. Further, HUD      regard to reimbursable expenses and the
     did not request that the City record HUD’s      payment of salaries under its Program
     interest on the access road’s property title.   Home, part of HUD’s Supportive Housing
                                                     program. The review objectives were to


74                                          HUD’s Community Planning and Development Programs
determine whether the allegations in the
complaint were valid, the grantee had
adequate controls over disbursements and
drawdowns, and the grantee’s cost
allocation plan was approved by HUD.

    The allegations in the complaint
regarding HUD funding were not valid. The
grantee generally had adequate controls
over disbursement and drawdowns;
however, more than $94,000 of the final
drawdown was not supported by invoices
or evidence that costs were incurred.
Additionally, the grantee’s cost allocation
plan had not been approved by HUD.

     OIG recommended that the grantee be
directed to provide documentation to
support more than $94,000 in drawdowns
or reimburse HUD for the unsupported
costs. In addition, the grantee should ensure
that all drawdowns are properly supported
with documentation and submit its cost
allocation plan to HUD for review and
approval. (Audit Report: 2006-NY-1002)




HUD’s Community Planning and Development Programs   75
      Investigations                                              probation and ordered to pay the U.S.
                                                                  Department of Justice (DOJ) $5,000 in
          During this reporting period, OIG                       restitution. On December 14, 2005, Lippa
      opened 42 investigative cases and closed                    and Mark Stedman, former City of
      36 cases in the CPD program area. Judicial                  Rochester rehabilitation specialists, were
      action taken on these cases during the                      sentenced for their earlier guilty pleas to one
      period included $8,205,359 in investigative                 count of bribery. Lippa was sentenced to 5
      recoveries, 43 indictments/informations,                    months incarceration, 5 months home
      13 convictions/pleas/pretrial diversions, 49                confinement, and 3 years probation; fined
      arrests, 2 civil actions, 3 personnel actions,              $3,000; and ordered to perform 40 hours of
      and 17 administration actions.                              community service. Stedman was sentenced
                                                                  to 2 years probation and 6 months home
                                                                  confinement and fined $1,000. Lippa and
        Chart 5.2: Community Planning and                         Stedman solicited kickbacks from
             Development Recoveries                               contractors in exchange for City of
                                                                  Rochester rehabilitation contracts. The City
                  False Statements   Embezzlement
                         1%              11%                      of Rochester Rehabilitation program
     Theft of Government                              Kickbacks   receives $2 million yearly in HUD CDBG
           Property
              2%
                                                         3%       and HOME grant funds to rehabilitate
                                                                  housing for low-income families in the City
                                                                  of Rochester.

                                           Public Corruption
                                                                      Emmanuel Onunwor, the former mayor
                                                  83%             and director of East Cleveland Department
       Total Recoveries $8,205,359
                                                                  of Community Development (ECDCD), a
                                                                  HUD-funded organization, and Cuyahoga
                                                                  Metropolitan Housing Authority (CMHA)
          Some of the investigations discussed in
                                                                  Section 8 landlord, was sentenced in U.S.
      this report were conducted jointly with
                                                                  District Court, Northern District of Ohio,
      Federal, State, and local law enforcement
                                                                  Cleveland, OH, to 9 years in prison and 3
      agencies. The results of OIG’s more
                                                                  years probation and ordered to pay the
      significant investigations are described
                                                                  Bankruptcy Court and Internal Revenue
      below.
                                                                  Service (IRS) $5,111,000 in restitution.
                                                                  Onunwor was convicted of violating the
      Public Corruption                                           Racketeering        Influenced      Corrupt
                                                                  Organizations Act (RICO), mail fraud,
           Jose Cipolla, a contractor with Mardell                extortion, witness tampering, and filing false
      Construction Company, and Frank Guido,                      Federal income tax returns from 1998 to
      owner of Franklin Construction Company,                     2002. Onunwor solicited and received
      were sentenced in U.S. District Court,                      bribes, kickbacks, and secret payoffs
      Western District of New York, Rochester,                    through intermediaries using HUD funds as
      NY, following their earlier guilty pleas to one             an inducement for contractor bribes while
      count of perjury for lying to a Federal grand               he was director of ECDCD and mayor of East
      jury by denying they paid kickbacks to City                 Cleveland. In addition, Onunwor filed false
      of Rochester rehabilitation specialist David                disclosure forms with the Ohio Ethics
      Lippa. Cipolla was sentenced to 6 months                    Commission and failed to disclose his receipt
      home confinement and 5 years probation                      of Section 8 housing assistance payments
      and ordered to pay HUD $5,000 in                            from CMHA to the Bankruptcy Court or IRS.
      restitution; Giudo was sentenced to 5 years



76                                                         HUD’s Community Planning and Development Programs
        Copyright, 2006. Downtown Express - New York, NY. Reprinted with permission.


    Mark Marcucilli, assistant director of        September 11, 2001, terrorist attacks. Mark
housing management, New York State                Marcucilli was arrested on December 21,
Division of Housing and Community                 2005.
Renewal (DHCR), and his father, Fred
Marcucilli, were each indicted in U.S.                 Warren Godbolt, former executive
District Court, New York, NY, on eight            director, Progressive Training Associates
counts of conspiracy to commit mail fraud         (PTA), a non-profit organization receiving
and theft of government funds. The                funds through HUD’s Supportive Housing
Marcucillis allegedly deceived and obtained       Program, and Ernest Newton, a former State
HUD and Lower Manhattan Development               senator, were sentenced in U.S. District
Corporation (LMDC) funds by falsely               Court, Bridgeport, CT, followingtheir
claiming residence in the lower Manhattan         earlier guilty pleas. Godbolt was sentenced
World Trade Center area. HUD provided             to 6 months home confinement, 5 years
$2.7 billion for LMDC, an organization            probation, and ordered to perform 300 hours
created to coordinate the rebuilding and          of community service and pay a $25,000 fine.
revitalization of lower Manhattan after the       Godbolt pled guilty on August 2, 2005, to


HUD’s Community Planning and Development Programs                                                77
     two counts of bribery and one count of          the former Springfield Housing Authority
     conspiracy for embezzling more than             executive director, facilitated Keough’s
     $100,000 from PTA, which he used for a          receipt of $50,000 in consulting fees from a
     cruise and to purchase a BMW automobile         publicly funded housing project for
     and for paying a $5,000 bribe to Newton for     negotiating a Hampden County position for
     his assistance in securing a $125,000 grant     his son, James Asselin. James Asselin was
     for PTA. Newton was sentenced to 5 years        convicted of embezzling more than $600,000
     prison and 3 years probation and ordered        from a CDBG-funded agency in March 2004.
     to pay the State of Connecticut Elections
     Enforcement Commission approximately
     $14,000 in restitution. Newton pled guilty
     on September 20, 2005, to one count of
     bribery, one count of mail fraud and one
     count of tax evasion, for accepting a $5,000
     bribe from Godbolt and assisting PTA in
     securing a $125,000 grant.

         Francis G. Keough III, the former
     director of Friends of the Homeless, Inc.
     (FOH), Angel T. Guzman, and Michael P.
     Hallahan, former employees of FOH, were
     charged in a 50-count superseding
     indictment with conspiracy to defraud the
     U.S. Government, obstruction of justice,
     extortion, mail fraud, theft of honest
     services, false statements, perjury, criminal
     contempt, filing false Federal income tax
     returns, and witness tampering in U.S.
     District Court, Springfield, MA. The
     superseding indictment also seeks more
     than $1 million in forfeitures. On January
     13, 2006, Guzman and Hallahan were
     arrested; Keough remains in Federal
     custody pending trial.

         The superseding indictment charges
     Keough, Guzman, and Hallahan with
     receiving CDBG and Emergency Shelter
     Grants funds for their personal use and
     conspiring to produce and issue false
     documents. Further charges allege Keough
     received more than $225,000 in salary
     payments to which he was not entitled,
     concealed income and expenses to avoid
     paying Federal income tax, pilfered
     appliances from FOH, used shelter and city
     employees to rehabilitate his beach house
     in Rhode Island, and provided jobs and          Copyright, 2006. The Republican - Springfield, MA.
     housing in exchange for sex or cash. The        Reprinted with permission.
     indictment also alleges Raymond Asselin,


78                                          HUD’s Community Planning and Development Programs
    Reverend Lamar Wright, president and            administered by HIV Services, was
chief executive officer of Save Our Children        sentenced to 3 months home confinement
Community Project (SOCC) and SOCC                   and 3 years probation and ordered to pay
subsidiary People United For Change                 the Arkansas Department of Human
(PUFC), nonprofits funded by HUD, signed            Services $15,427 in restitution. On October
a pretrial diversion agreement in U.S.              4, 2005, Langston pled guilty to one count
District Court, Eastern District of Arkansas,       of theft of Federal property. From May 2003
Little Rock, AR, and agreed to pay the              through March 2004, Langston admitted
Arkansas Department of Human Services               taking approximately $16,000 from a PV
$14,000 in restitution and perform 100 hours        bank account, creating a false invoice, and
of community service in return for 18               giving $2,000 to codefendant Thrower.
months deferred adjudication. Wright,               Langston kept the remaining funds,
previously indicted on June 7, 2005,                approximately $14,000, for services he never
admitted to aiding and abetting in the theft        performed.
of Federal grant money. From April 2002
through January 2003, Wright transferred                 Richard Goyette, mayor of Chicopee,
Federal grant money from SOCC and PUFC              MA, was indicted in U.S. District Court,
bank accounts to his personal account; wrote        Springfield, MA, on two counts of extortion.
checks from his personal account to                 Goyette allegedly extorted two $5,000 cash
codefendant Lola Thrower, the former                campaign contributions: one from a
program administrator for Human                     developer holding a contract with
Immunodeficiency Virus (HIV) Services,              Chicopee’s Office of Economic Development
Arkansas Department of Health, a HUD-               (ECD), a HUD funded entity, and the second
and Health and Human Services (HHS)-                from a local towing company. In return for
funded State organization; and fabricated           the cash contributions, Goyette allegedly
invoices and other documents to hide the            promised the developer he would intercede
money transfers and personal checks to              on his behalf in a planned ECD project and
Thrower. In addition, Lee Langston, former          promised the towing company continuation
executive director of Positive Voices (PV), a       of city contracts. Goyette was arrested on
nonprofit subgrantee of Federal funds               November 1, 2005.




   Copyright, 2006. The Republican - Springfield, MA. Reprinted with permission.


HUD’s Community Planning and Development Programs                                                  79
     Copyright, 2006. The Republican - Springfield, MA. Reprinted with permission.


          Anthony M. Ardolino, former                     Empire State Development Corporation
     Springfield City chief of staff, Chester J.          (ESDC) of $ 118,876 in Federal grant money.
     Ardolino, former Springfield police officer,         ESDC is a HUD-funded nonprofit
     and Matthew D. Campagnari, a real estate             established to provide assistance to
     developer, were indicted in U.S. District            businesses in lower Manhattan after the
     Court, Springfield, MA, on 16 counts of              September 11, 2001, terrorist attacks. Sheng
     conspiracy to defraud the U.S. Government            Yu, president of American McKinley
     filing false Federal income tax returns, and         Venture Management, Inc., allegedly
     witness tampering. A fourth individual,              obtained a Business Recovery Grant (BRG)
     John J. Walsh, doing business as J. Walsh            and attempted to fraudulently obtain a
     and Sons Building and Remodeling, was                Small Firm Attraction and Retention
     also charged with perjury and obstruction            Grant (SFARG) through ESDC.
     of justice. Anthony Ardolino allegedly
     attempted to steer HUD CDBG funds to the                 Jarmena To, a General Services
     Façade program, a program established                Administration (GSA) employee, pled guilty
     to renovate downtown Springfield                     in U.S. District Court, Southern District of
     storefronts. Several bars owned by the               New York, New York, NY, to one count of
     Ardolinos and Campagnari were included               theft of government funds. To, indicted on
     in the storefront renovations. The                   July 1, 2005, fraudulently obtained Lower
     defendants were arrested on October 31,              Manhattan Development Corporation
     2005, after the indictments were unsealed.           (LMDC) grant funds after subletting and
                                                          relocating from a LMDC qualified
     Theft/Embezzlement                                   apartment.       LMDC, a HUD-funded
                                                          nonprofit, was created to assist in the
                                                          revitalization of lower Manhattan after the
          Chang Sheng Yu, a Chinese national and          September 2001 terrorist attacks.
     resident of Queens, NY, was arrested and
     indicted on eight counts of theft of
                                                              Yvonne Grimes, former executive
     government funds, mail fraud, and
                                                          director, Amistad Development Corporation
     submission of false Social Security numbers
                                                          (ADC), a HUD-funded nonprofit, pled guilty
     for his role in a scheme to defraud HUD and
                                                          in Court of Common Pleas, Cuyahoga


80                                               HUD’s Community Planning and Development Programs
County, Cleveland, OH, to forgery and            submitting a fictitious HUD block grant
theft. Grimes was sentenced to 2 years           study and false documentation supporting
probation and ordered to pay HUD $1,200          $30,000 in phony expenses to the City of
in restitution. Grimes prepared, signed, and     Milwaukee.
submitted a claim for a round-trip airline
ticket she did not use and expended ADC               In a Civil Judgment filed in U.S. District
funds to pay personal expenses.                  Court, New York, NY, Arthur Gregory
                                                 agreed to pay $36,500 to settle civil fraud
      Letitia Slack, a former employee of East   charges filed by the U.S. Government under
Saint Louis Community Development                the False Claims Act. Gregory submitted
(ESLCD), was sentenced in U.S. District          false lease documents and secured two Small
Court, Southern District of Illinois, East St.   Business grants from the World Trade Center
Louis, IL, to 18 months in prison and            Small Firm Attraction and Retention Grant
ordered to pay HUD $158,279 in restitution       Program (SFARG), a HUD-funded nonprofit
and $41,588 in delinquent taxes. On              organization created to redevelop lower
November 3, 2005, Slack pled guilty to an        Manhattan after the September 11, 2001,
information charging her with mail fraud         terrorist attacks.
and tax evasion. Slack admitted she
embezzled $158,279 from ESLCD, a                     James Thomas Jr., owner of Thomas
nonprofit organization funded by HUD             Wrecking, pled guilty to an Information filed
through the HOME and CDBG programs.              in U.S. District Court, Eastern District of
From 2002 to 2005, Slack created false           Missouri, St. Louis, MO, charging him with
vendor numbers and invoices to receive           one count of Federal income tax evasion.
checks for services and materials not            Thomas admitted using his company as the
provided. Slack, using her personal              “front company” for Spiritas Wrecking to
checking account, deposited and spent the        satisfy the HUD-funded St. Louis
fictitious vendor payments.                      Community Development Authority’s
                                                 (CDA) regulations relating to minority
Other Fraud/Crimes                               business participation in the renovation of
                                                 old St. Louis City Hospital. Thomas
                                                 funneled Spiritas Wrecking payroll checks
     Mhammad Aziz Abu-Shawish was                through his company to make it appear as if
sentenced in U.S. District Court, Eastern        a minority contractor was involved in the St.
District of Wisconsin, Milwaukee, WI, to 3       Louis City Hospital project, as certified to
years incarceration and 3 years supervised       CDA. Thomas agreed to run Spiritas’ payroll
release, ordered to pay HUD $75,000 in           through his company in return for Spiritas
restitution, and fined $1,000. On July 13,       forgiving a debt owed by Thomas.
2005, Abu-Shawish was found guilty of




HUD’s Community Planning and Development Programs                                                  81
        Chapter 6
Hurricane Relief Oversight
     “I think it’s important to
     remember why we’re here.
     We’re here for one reason: to
     help the citizens and
     communities affected by
     Hurricane Katrina. … The
     road to full recovery is long
     and I expect that we will be
     there every step of the way to
     support the process that helps
     the displaced families and
     disaster-stricken communities
     rebuild, recover, and reclaim
     their lives.”
     Remarks by Inspector General
     Kenneth M. Donohue regarding
     the hurricane-affected States
     while in Biloxi, MI - March 3, 2006.



     Introduction and Background
         Hurricanes Katrina, Rita, and Wilma               The destruction and aftereffects of
     had a dramatic impact on HUD’s Gulf Coast        Hurricanes Katrina, Wilma, and Rita will
     operations as well as residents, HUD             present challenges to HUD OIG that will far
     employees, and the business community.           surpass the reconstruction of lower
     The potential losses to HUD and its housing      Manhattan following the September 11
     and community development programs are           attack. HUD OIG’s continuing oversight of
     significant. OIG’s Offices of Audit and          the funds allocated to the Lower Manhattan
     Investigation continue to maintain a             Redevelopment Corporation has become a
     presence in the Gulf Coast disaster area.        template on how to oversee funds allocated
     HUD OIG has established a base of                to recovery from such disasters.
     operations in New Orleans and has                Consequently, the HUD OIG audit and
     established new offices in Baton Rouge, LA,      investigative staffs have started to provide
     and Hattiesburg, MS. To accomplish its           a continuing and comprehensive review of
     goals, OIG will readdress its available assets   the expenditure of funds and will stand
     and will reallocate them as availability and     guard against those who would seek to
     demand rise. HUD OIG foresees and                defraud the government.
     anticipates a continuing leadership role in
     detecting and preventing fraud regarding
     disaster recovery funding in the Gulf Coast
     States and elsewhere.




84                                                                     Hurricane Relief Oversight
Audit                                           Is monitoring/analyzing HUD
                                                contracting efforts relating to disaster
      In the wake of the Gulf Coast disaster,   recovery efforts as part of the U.S.
the HUD OIG Office of Audit has responded       Department of Health and Human
quickly to establish an office for Hurricane    Services (HHS) Contract Oversight
Katrina oversight to prepare for the long       Task Force.
process of recovery. The Office of Audit and
HUD are not generally first responders;         Is working with OIG legal counsel to
however, the Office of Audit has established    gain access to FEMA data for
an office, developed an audit plan, and         matching purposes.
begun reviews in the disaster areas. The
Office of Audit’s initial assignment was to     Is conducting an internal audit of the
evaluate HUD’s use of real estate owned         HUD contracting process relating to di-
(REO) properties to house disaster evacuees.    saster recovery.
It also is performing audits of the more than
$17 million in contracts issued for disaster-   Is monitoring the FEMA mission
related procurement activities. These           assignment activities and internal
reviews are timely and will assist in           controls.
establishing a presence and acting as a real-
time deterrent to waste and abuse in HUD’s
activities. Below is a summary of the
ongoing Katrina audit-related activities.

    HUD OIG, Office of Audit, Hurricane
Recovery Audit Oversight Division

     Has started audits of HUD’s use of
     REO properties to house disaster
     evacuees including management and
     marketing contractors’ rehabilitation
     cost billings.

     Is currently reviewing two
     management        and      marketing
     contractors in two States.

     Is identifying/analyzing all fund
     drawdowns (usage) by PHAs in the
     disaster areas for audit and
     investigation followup.

     Has identified PHAs providing
     KDHAP vouchers; is planning an
     audit of the KDHAP voucher process/
     matching review.

     Has reviewed all HUD waivers to
     assure that statutory requirements are
     not waived.


Hurricane Relief Oversight                                                                 85
     Investigations                                 (SAR) that will be given to HUD grantees,
                                                    subgrantees, and others associated with
          The HUD OIG Office of Investigation       delivering disaster funds. The SAR is a
     immediately responded to the HUD               method of informing HUD OIG of suspected
     challenges and role in rebuilding the Gulf     irregularities in the delivery of HUD
     Coast by establishing the Hurricane Katrina    program money. OIG forensic auditors have
     Fraud Task Force (HKFTF). This task force      been assigned to review temporary housing
     works jointly with the Federal Bureau of       programs and FEMA payments to HUD-
     Investigation (FBI), the U.S. Department of    assisted housing residents. OIG plans to use
     Justice (DOJ) Command Center in Baton          forensic auditors to review all programs that
     Rouge, LA and State investigative agencies     are not audited by the Office of Audit.
     to investigate fraud in all HUD programs
     affected by the hurricanes in the Gulf.             HUD OIG opened 18 cases during the
     HKFTF is based in New Orleans with             semiannual reporting period, ending March
     personnel also assigned in Arlington and       31, 2006, which resulted in six indictments,
     Houston, TX; Baton Rouge, LA; and              six arrests, and two convictions.
     Hattiesburg, MS.
                                                    Hurricane-Related Benefit
         To assist with the many oversight
     responsibilities of an endeavor of this        Fraud
     magnitude, the Hurricane Recovery
     Oversight Division (HROD) was also                 Carolyn Richard and George Davis III
     established in the Office of Investigation     were convicted by a Federal jury in
     Headquarters. HROD is responsible for:         Harrisburg, PA, for providing false
     (1) liaison; (2) research, analysis and        information on their applications for
     recommendations; (3) monitoring, reporting     emergency housing through the Housing
     and dissemination; and (4) strategic           Choice Voucher and public housing
     planning and implementation of Office of       programs. Richard and Davis, who
     Investigation directives associated with       relocated to Columbia, PA, from New
     disaster assistance and recovery.              Orleans, LA, following Hurricane Katrina,
                                                    applied for housing assistance with
         The Office of Investigation has created    Lancaster City Housing Authority (LCHA)
     a far-reaching fraud prevention program        but failed to report their extensive criminal
     designed to (1) create a training course for   histories, including Richard’s incarceration
     agents/auditors and program officials to       in Louisiana and later release as a result of
     teach them to identify fraud in CPD/grant      Hurricane Katrina flooding.
     programs; (2) sponsor fraud prevention
     meetings between HUD OIG and the major             Gilbert Gasice, a housing choice
     programs of HUD; and (3) sponsor fraud         voucher recipient, was indicted in U.S.
     prevention meetings between HUD OIG and        District Court, Eastern District of California,
     industry groups, the Mortgage Bankers          Sacramento, CA, on two counts of mail and
     Association, the Public Housing Authorities    wire fraud, and two counts of making false
     Directors Association, the National            statements. Gasice was arrested in
     Association of Housing and Redevelopment       Georgetown, CA, after he allegedly schemed
     Officials, private insurance companies,        to defraud the County of Sacramento, when
     multifamily owners, public housing             it was discovered that he claimed to have
     executive directors, State governments, and    been a victim of Hurricane Katrina and
     economic development agencies. As part of      received monetary and lodging aid from the
     our fraud prevention program, HUD OIG          Red Cross and other charitable
     has created a suspicious activity report       organizations. As a part of his scheme,


86                                                                    Hurricane Relief Oversight
Gasice moved from his subsidized unit in            In Baton Rouge, LA, Assistant Inspector
Sacramento, CA, and relocated to               General for Investigation (AIGI) Joseph
Georgetown, CA, but failed to report his       Haban, DAIGI John McCarty, and Assistant
move from the subsidized unit as required      Special Agent in Charge (ASAC) Thomas
and failed to live in the subsidized unit as   Luke of HKFTF briefed DOJ Command
his sole residence. The loss to HUD is         Center members consisting of the U.S.
approximately $6,000.                          Attorneys from Louisiana and Mississippi
                                               as well as FBI special agents. The Command
    Jermine O. White, Stevie Lawson, and       Center is directed by U.S. Attorney David
Morris L. Singleton were arrested and          Dugas of the Middle District of Louisiana.
indicted in Baton Rouge, LA, for falsely       The briefing covered HUD programs
representing themselves as hurricane           affected by the hurricanes and the
evacuees displaced from public housing due     opportunity for fraud to be committed
to Hurricane Katrina and using their status    within FHA single-family and multifamily
as hurricane evacuees to receive FEMA          programs, CPD grants, and public housing.
monetary assistance. The investigation         Early coordination was established for
determined that White, Lawson, and             exchange of data, joint investigations, and
Singleton did not live in public housing       strategies of future initiatives.
during the hurricanes and received benefits
to which they were not entitled.                  AIGI Joseph Haban, DAIGI John
                                             McCarty, and ASAC Thomas Luke met
Hurricane-Related OIG                        the senior State management teams with
                                             both the Mississippi Development
Hotline                                      Authority and the Louisiana Recovery
                                             Authority in Jackson, MS, and Baton
    During this reporting period, the Rouge, LA, respectively, to discuss their
Hotline received and processed 81 action plans for the use of HUD CDBG
complaints related to Hurricanes Katrina, in rebuilding their communities. They
Rita, and Wilma.                             discussed means by which to combat fraud
                                             opportunities and audit weaknesses within
Hurricane-Related                            their plans. They agreed to develop a
                                             proactive program integrity campaign
Outreach                                     directed at homeowners, contractors, and
                                             employees of the States.
    In Gulfport, MS, Inspector General Ken
Donohue met with the Gulf Coast State             Special Agent in Charge (SAC) Joseph
auditors whose States where damaged by Clarke and HUD OIG special agents located
the Hurricanes of 2005. Assistant Inspector in New Orleans, LA, Atlanta, GA, and
General for Audit (AIGA) James Heist, Arlington, TX, met with HUD KDHAP
Deputy Assistant Inspector General for coordinators and FEMA Disaster Recovery
Audit (DAIGA) Bob Gwin, and Deputy Centers. They presented fraud awareness
Assistant     Inspector     General      for briefings and distributed HUD OIG Hotline
Investigation (DAIGI) – Inspections and materials to their staffs.
Evaluations John McCarty briefed the State
auditors from Florida, Alabama, Mississippi,      DAIGI John McCarty and SAC Joseph
Louisiana, and Texas on HUD programs, Clarke led the efforts of special agents and
audit applications, and fraud prevention. other HUD OIG staff assigned to damage
Mississippi State Auditor Phil Bryant assessment teams, who began at the water
chaired the meeting.                         line in New Orleans, LA, and photographed,
                                             assessed, and documented hurricane-


Hurricane Relief Oversight                                                                    87
     related damage to all HUD public housing
     and multifamily projects in the States of
     Louisiana and Mississippi.

         In Jackson, MS, ASAC Thomas Luke,
     SAC Larry Amaker, Supervisory Forensic
     Auditor Windell Durant, and Senior Special
     Agent Sandra Hackworth addressed
     the Southeastern Affordable Housing
     Management Association about issues
     affecting multifamily development in the
     Gulf Coast region and opportunities for
     fraud associated with hurricane recovery
     funding.

          ASAC Thomas Luke and Supervisory
     Forensic Auditor Windell Durant have
     developed fraud prevention training and
     scheduled presentations to the Mississippi
     Development Authority’s homeowner
     service centers, property appraisers, and
     contract employees overseeing quality
     control programs. Training seminars are
     scheduled for Gautier, Gulfport, and Bay
     St. Louis, MS.

         AIGI Joseph Haban and DAIGI John
     McCarty met with the Mortgage Bankers
     Association in Washington, DC, to establish
     fraud prevention training and fraud-
     reporting protocols for disaster-related
     matters.

         ASAC Thomas Luke and SAC Larry
     Amaker are working with Louisiana
     Recovery Authority officials located in
     Baton Rouge, LA, to establish lines of
     communication and coordinate fraud
     prevention efforts.




88                                                 Hurricane Relief Oversight
Pictures of HUD OIG’s Hurricane Relief and
Recovery Efforts




                                                   HUD Inspector General Kenneth Donohue (center),
                                                   AIGI Joseph Haban, and DAIGI Lester Davis survey
                                                   damage at Abundance Development
HUD OIG special agents at Industrial Canal levee
breach.




                                                   SAC Joseph Clarke organizing HUD OIG’s
                                                   Operation Hurricane Assessment in New Orleans,
HUD OIG special agents at the Industrial Canal
                                                   LA.
levee breach overlooking lower 9th Ward.




                                                   HUD Inspector General Kenneth Donohue stands
                                                   below waterline viewing damage at Abundance
HUD OIG special agents assessing damage in New     Development.
Orleans, LA.


 Hurricane Relief Oversight                                                                           89
                             AIGI Haban (left) and IG Donohue (right) outside of
                             the Housing Authority of New Orleans.




     Christopher Homes




                             Malta Square




     B.W. Cooper Extention




90                                               Hurricane Relief Oversight
           Chapter 7
 Other Significant HUD Audits
and Investigations/OIG Hotline
     Audit                                                           analysis and liability estimation
                                                                     process and
          During this reporting period, the Office
                                                                     Continue to improve its review over the
     of Inspector General (OIG) issued nine
     internal reports involving areas of U.S.                        FHA credit reform estimation process.
     Department of Housing and Urban
     Development (HUD) operations that do not                       OIG also reported on six reportable
     fall under major HUD programs reported                     conditions in internal controls related to the
     in previous chapters.                                      need to

         OIG’s more significant audits are                           Comply with Federal Financial
     discussed below.                                                Management System requirements
                                                                     and continue to enhance FHA’s
                                                                     management of controls over its
     Chart 7.1: Other Significant Audit Dollars
                                                                     portfolio of integrated insurance and
     450,000,000                                                     financial systems,
     400,000,000
     350,000,000
     300,000,000
                                                                     Improve oversight and monitoring
     250,000,000                                                     of subsidy calculations and
     200,000,000                                                     intermediaries’ program performance,
     150,000,000
     100,000,000
                                                                     Further strengthen controls over
      50,000,000
               0
                                                                     HUD’s computing environment,
                   Questioned Costs   Funds Put to Better Use

                                                                     Improve personnel security practices
                                                                     for access to the Department’s critical
     Audit of HUD’s Financial                                        financial systems,
     Statements                                                      Improve processes for reviewing
                                                                     obligation balances, and
         HUD OIG audited HUD’s fiscal year
     (FY) 2005 consolidated financial statements
                                                                     Improve controls for developing
     in accordance with the Chief Financial
                                                                     estimates of budget authority required
     Officers Act of 1990, and the report on those
                                                                     for the Section 236 Interest Reduction
     financial statements is included in HUD’s FY
     2005 Performance and Accountability Report.                     Program.
     In OIG’s opinion, HUD’s FY 2005 financial
     statements were presented fairly. In                           In addition, HUD did not substantially
     conjunction with OIG’s audit of HUD’s FY                   comply with the Federal Financial
     2005 financial statements, OIG also reported               Management Improvement Act (FFMIA)
     on two material weaknesses related to                      regarding system requirements. The audit
     HUD’s need to                                              also identified more than $377 million in
                                                                excess obligations recorded in HUD’s
                                                                records, which represent funds that HUD
             Incorporate better risk factors and
                                                                could put to better use. (Audit Report: 2006-
             monitoring tools into Federal Housing
                                                                FO-0003)
             Administration’s (FHA) single-family
             insured mortgage program risk




92                                               Other Significant HUD Audits and Investigations/OIG Hotline
Audit of the Process HUD Used to were not denied awards they should have
                                 received. (Audit Report: 2006-PH-0001)
Award its FY 2004 Healthy
Homes and Lead Hazard Control HUD’s Information Security
Properly                         Program and Practices
     In response to a number of                      HUD OIG performed an annual
congressional inquiries and complaints,          independent evaluation of HUD’s
HUD OIG audited the process HUD used             information security program and practices
to award its FY 2004 Healthy Homes and           as directed by the Federal Information
Lead Hazard Control grants. The objective        Security Management Act of 2002 (FISMA).
of the audit was to determine whether the
grants were properly awarded.                        HUD has made significant efforts to
                                                 improve its system security program, but
     HUD did not properly evaluate 34 of 72      continued progress is needed to fully
successful applications reviewed,                comply with Federal requirements. HUD
representing $92.7 million of the $168           has appointed a chief information security
million (55 percent) awarded. HUD                officer, revised its information security
improperly awarded eight grants for $20.5        policy, and completed certification and
million. OIG could not determine the             accreditation for more than 90 percent of its
propriety of the remaining 26 grant              applications. However, the quality of the
applications receiving $72.3 million because     underlying documents and the certification
the documents needed to support HUD’s            and accreditation process vary by
award decisions could not be provided. In        application. While a number of
addition, HUD files pertaining to 54 of 55       vulnerabilities have been corrected,
applications (98 percent) reviewed for           additional vulnerabilities, identified
applicants that did not receive funding did      through oversight activities, were not
not support the decision to reject the grant     corrected before accreditation.
applications. Of these 54 applicants, HUD
denied one applicant approximately                    HUD program officials and system
$365,700 in grant funds that it was eligible     owners have not fully met their
to receive.                                      responsibilities as specified in FISMA,
                                                 section 3544(a). Also, HUD has not fully
     OIG recommended that HUD (1)                implemented an agencywide information
implement controls to ensure it properly         system security program as specified in
evaluates the grant applications and             FISMA, section 3544(b). Improvements are
supports all awards; (2) continue recovery       needed in maintaining an adequate system
efforts or obtain a legal opinion to determine   inventory, categorizing security impact level
whether it can pursue recovery of the $20.5      properly for information systems, providing
million in improperly awarded grants it          sufficient training to program officials and
provided to eight applicants; (3) depending      contractor staff, and developing and testing
on the legal opinion, obtain the necessary       contingency plans. (Audit Report: 2006-DP-
documentation to support the award               0801)
decisions relating to 26 other applicants
receiving $72.3 million in grant funds and
recover the amounts it determines were           HUD’s Financial System
improperly awarded; and (4) review the
remaining 135 applications that did not              HUD OIG audited certain components
receive awards to ensure these applicants        of HUD’s financial system to determine


Other Significant HUD Audits and Investigations/OIG Hotline                                      93
     whether it is capable of performing the cost    directories, and configuration of network
     management function as defined in Joint         services of HUD’s Unix operating system.
     Financial Management Improvement
     Program (JFMIP) publication JFMIP-SR-02-             HUD has generally implemented the
     01, “Core Financial System Requirements,”       Unix operating system configuration
     dated November 2001.                            settings properly. However, weaknesses in
                                                     the configuration of network services still
         HUD’s core financial systems (1) cannot     exist, and user access and security controls
     perform all of the mandatory cost               to files and directories are not sufficiently
     management functions specified in JFMIP         tightened.
     SR-02-01 and (2) cannot accumulate
     nonfinancial data that would be needed to            OIG’s report presents detailed results of
     internally calculate cost management            our assessment and appropriate
     information. Without these capabilities,        recommendations for corrective action that
     HUD’s core financial system does not            will improve HUD’s overall security posture
     provide all of the nonfinancial data elements   through recommended configurations. OIG
     needed to support the integration of budget,    has determined that the contents of this
     cost, and performance measures. This            report would not be appropriate for public
     information is obtained from sources that       disclosure; therefore, it has limited its
     include both automated and manual               distribution to selected HUD officials.
     processes, procedures, controls, data,          (Audit Report: 2006-DP-0002)
     software, and support personnel that are not
     integrated through a common database or
     electronically interfaced with the core
                                                     FHA Financial Statements
     financial system.
                                                         Urbach, Kahn, and Werlin, LLP (UKW),
         OIG recommended that HUD develop            audited FHA’s financial statements for the
     compliant cost management functional            year ending September 30, 2005.
     requirements that support the integration
     of budget, cost, and performance measures           UKW concluded that FHA’s fiscal year
     as part of the HUD Integrated Financial         2005 principal financial statements were
     Management Improvement Project.                 presented fairly, in all material respects, in
     While HUD disagreed with OIG’s                  conformity with accounting principles
     recommendation,          OIG     obtained       generally accepted in the United States of
     documentation from the Project that             America.
     includes       mandatory       functional
     requirements for the accumulation of                  UKW’s consideration of internal control
     nonfinancial data. (Audit Report: 2006-DP-      over financial reporting resulted in the
     0001)                                           following matters being identified as
                                                     reportable conditions and with respect to the
                                                     first two items, material weaknesses:
     Security Configuration
     Assessment of HUD’s Servers                          FHA must incorporate better risk
                                                          factors and monitoring tools into its
         HUD OIG completed a security                     single-family insured mortgage
     configuration assessment of HUD’s servers            program risk analysis and loan
     on which FHA financial applications reside.          liability estimation process.
     The objective of the audit was to review user
     access, security controls to files and



94                                     Other Significant HUD Audits and Investigations/OIG Hotline
     FHA management must continue to systems through the performance of
     improve its review over the credit penetration testing.
     reform estimation process.
                                               Although HUD has implemented
     FHA must continue to enhance the controls to protect its network from external
     management of controls over its intruders, internal penetration testing
     portfolio of integrated insurance and identified security configuration and
     financial systems.                    technical controls deficiencies.

    UKW found no reportable instances of             OIG has determined that the contents
noncompliance with certain provisions of        of this report would not be appropriate for
applicable laws, regulations, contracts, and    public disclosure; therefore, it has limited
grant agreements. (Audit Report: 2006-FO-       its distribution to selected HUD officials.
0002)                                           (Audit Report: 2006-DP-0003)


Audit of the Government                         Audit of HUD’s Information
National Mortgage Association’s                 Security Program Compliance
(Ginnie Mae) Financial                          with Federal Requirements
Statements                                          HUD OIG audited HUD’s information
                                                security program compliance with Federal
    HUD OIG audited the Government              requirements. OIG evaluated (1) the
National Mortgage Association’s (Ginnie         adequacy of the categorization of HUD’s
Mae) financial statements for FY 2005.          major systems, (2) whether HUD’s Office of
                                                the Chief Information Officer has developed
    The financial statements present fairly     security policies and implemented and
the financial position of Ginnie Mae in all     monitored enterprisewide controls, and (3)
material respects. There were no material       whether HUD program officials and system
weaknesses or reportable conditions in          owners have properly implemented
Ginnie Mae’s internal controls or reportable    information security responsibilities
instances of noncompliance with laws,           assigned to them.
regulations, and provisions or contracts.
(Audit Report: 2006-FO-0001)                        HUD has made considerable progress
                                                in implementing a comprehensive,
Network Vulnerability                           entitywide information system security
                                                program. However, there are several
Assessment                                      matters that require management attention:
                                                (1) HUD’s program officials and system
    HUD OIG completed a network                 owners have not properly categorized
vulnerability assessment of HUD to evaluate     HUD’s application systems and utilities,
whether its network security systems,           which could result in unnecessary
including security controls and practices,      expenditure of funds; (2) HUD’s Office of the
adequately protect the integrity,               Chief Information Officer has not fully
confidentiality, and availability of data and   implemented an effective entitywide
information from unauthorized access to its     information security program; and (3)
                                                HUD’s program officials and system owners
                                                have not complied with security




Other Significant HUD Audits and Investigations/OIG Hotline                                     95
     Investigation                                  OIG Hotline
         During this reporting period, OIG               The HUD OIG Hotline is operational 5
     opened 19 investigation cases and closed 6     days a week, Monday through Friday, from
     cases involving areas of HUD operations        10:00 a.m. to 4:30 p.m. The Hotline is staffed
     that do not fall under specific program        by seven full-time OIG employees, who take
     categories. Judicial action taken on these     allegations of waste, fraud, abuse, or serious
     cases during the period included $30,685 in    mismanagement in HUD or in HUD-funded
     investigative recoveries, three indictments/   programs from HUD employees,
     informations, five arrests, and two            contractors, and the public and coordinate
     convictions/pleas/pretrial diversions.         reviews with internal audit and investigative
                                                    units or with HUD program offices.
          Some of the investigations discussed in
     this report were conducted by OIG, while          During this reporting period, the
     others were conducted jointly with Federal,  Hotline received and processed 9,416
     State, and local law enforcement agencies.   complaints – 73 percent received by
     The results of OIG’s more significant        telephone, 22 percent by mail, and 5 percent
     investigations are described below.          by e-mail. Every allegation received by the
                                                  Hotline is logged into a database and
         James Joyce, a HUD employee, was tracked.
     indicted in U.S. District Court, District of
     New Hampshire, Manchester, NH, on two             Of the complaints received, 1,270 were
     counts of possession of firearms and related to the mission of the OIG and were
     dangerous weapons in Federal facilities. addressed as Hotline cases. Hotline cases
     Joyce allegedly carried a knife and firearm are referred to OIG’s Offices of Audit and
     into the HUD office at the Manchester Investigation or to HUD program offices for
     Federal building.                            action and response. The following
                                                  illustration shows the distribution of Hotline
         Toulu Thao, a HUD housing specialist, case referrals by percentage.
     was indicted in U.S. District Court, Eastern
     District of California, Fresno, CA, on four       Hotline closed 918 cases this reporting
     counts of false statements. Thao allegedly period. The closed Hotline cases included
     received $125,000 from organizations doing 146 substantiated allegations. The
     business with HUD but failed to disclose substantiated allegations resulted in four
     income, business arrangements, and/or administrative sanctions against HUD
     business agreements he had with these employees for personnel violations or
     organizations on his Office of Government against investors for improprieties involved
     Ethics (OGE) Form 450, “Confidential in the purchase of a home. The Department
     Financial Disclosure.” Thao was arrested on also took 142 corrective actions that resulted
     February 13, 2006.                           in $82,697 in recoveries of losses and
                                                  $2,352,885 in HUD funding that could be put
                                                  to better use. The recoveries included an
                                                  unsupportable appraisal which resulted in
                                                  an overinsured FHA-insured mortgage.
                                                  Some of the funds that could be put to better
                                                  use were the result of cases in which tenants
                                                  improperly reported their incomes or family
                                                  composition to qualify for rental assistance.




96                                     Other Significant HUD Audits and Investigations/OIG Hotline
                      Chart 7.2: Hotline Cases Opened by Program Area


                                               OIG Audit and             Other HUD
                                                Investigation              Offices
                                                     9%                      5%
                                                                                              Single-Family
                                                                                                 Housing
                                                                                                   6%
    Public and Indian
        Housing
           67%                                                                                        Multifamily
                                                                                                       Housing
                                                                                                         13%




                     Chart 77.3
                             .3
                             .3:: Hotline Dollar Impact from Program Offices
         2,500,000

                                                                                         $1,995,252
         2,000,000


         1,500,000


         1,000,000


          500,000                                             $357,633

                          $27,284                   $17,164                    $38,249
                0
                       Single-Family Housing       Multifamily Housing       Public and Indian Housing

                       Recoveries $82,697           Funds Put to Better Use $2,352,885




      Chart 77.4
              .4
              .4:: Substantiated Cases by Type of Complaint Received by Hotline

                                                   Owner/Occupant
                                                     Violations   Mismanagement
                                               Other    2%             2%
                                                1%
     Rental Fraud and                                                               Conflict of
      Improprieties                                                                  Interest
           93%                                                                         2%




Other Significant HUD Audits and Investigations/OIG Hotline                                                         97
  Chapter 8
Outreach Efforts
          To foster cooperative, informative, and      Housing and Redevelopment Officials
      mutually beneficial relationships with           (NAHRO) on February 5, 2006. Ms. Hobbs
      agencies and organizations whose intent is       was a member of a three-person panel to
      to assist the accomplishment of the U.S.         discuss housing oversight by the board
      Department of Housing and Urban                  of commissioners. Approximately 20
      Development’s (HUD) mission, the Office of       commissioners attended the session,
      Inspector General (OIG) participates in a        which included a discussion regarding
      number of special outreach efforts. These        the growing amount of fraud being detected
      efforts, as described below, are in addition     in housing authorities.
      to OIG’s regular coordination with Federal,
      State, and local law enforcement agencies,           RIGA Frank Baca, Assistant Regional
      other OIGs, and various congressional            Inspector General (ARIG) Will Nixon, and
      committees and subcommittees. During             Senior Auditor Beth Howard gave a
      these outreach efforts, OIG presented the        presentation on Single Family Mortgage
      results of its audit and investigative work      Fraud to the Oklahoma City, OK,
      and discussed its goals, objectives, and         Greater Metropolitan Title Association.
      provided information about its role and          Approximately 425 realtors and title
      function.                                        company representatives attended the
                                                       meeting. Other speakers included officials
           Assistant Inspector General for             from the Federal Bureau of Investigation
      Investigations (AIGI) R. Joseph Haban,           (FBI) and First Fidelity Bank.
      Assistant Special Agent in Charge (ASAC)
      Robert Gale, and Special Agent (SA) Linda             Special Agent in Charge (SAC) Robert
      Cisco attended a press conference headed         Brickley, ASAC Rene Febles, and Senior
      by Senator Barbara Mikulski in Baltimore,        Special Agent (SSA) Daniel Ellis participated
      MD. This press conference, used to               in two presentations at Penn Del Associated
      publicize the final report prepared by the       Housing Management Association’s
      Baltimore City Flipping and Predatory            (AHMA) annual seminar in Lancaster, PA.
      Lending (BCFPL) task force, announced that       SAC Brickley described HUD OIG’s
      Baltimore property flipping had dropped 77       investigative process and procedures to
      percent since 1999. The BCFPL task force         follow when documenting files and referring
      focuses on five fronts in the war on flipping:   matters for investigation. ASAC Febles and
      law enforcement, implementing regulatory         SSA Ellis participated in a HUD Multifamily
      reforms, education and prevention efforts,       Rental Housing Integrity Improvement
      victims’ assistance, and rebuilding              Project (RHIIP) workshop to promote
      neighborhoods. Since 2000, the U.S.              cooperative working relationships among
      Attorney’s Office, District of Maryland, has     HUD, HUD OIG, and rental housing owners
      sought criminal charges against 104              and/or managers.
      defendants who participated in mortgage
      fraud within Baltimore City and Prince               SAC Peter Emerzian, ASAC Diane
      Georges County. The results include 100          DeChellis, ASAC Maureen Nelting, and SA
      convictions and four acquittals. Senator         Jessica Piecuch participated in a
      Paul Sarbanes, Congressman Elijah                Massachusetts Anti-Gang Conference
      Cummings, and U.S. Attorney Rod                  sponsored by the Massachusetts U.S.
      Rosenstein were also in attendance.              Attorney’s Office in Boston, MA. Keynote
                                                       speakers included the Massachusetts
          Regional Inspector General for Audit         lieutenant governor, current and former
      (RIGA) Joan Hobbs of Los Angeles, CA,            Boston police commissioners, and
      spoke at the Northern California/Nevada          representatives from various Federal law
      Chapter of the National Association of           enforcement agencies in Washington, DC.


100                                                                               Outreach Efforts
                                                 in conjunction with other agencies,
                                                 discussed current schemes affecting the real
                                                 estate industry and ways to coordinate
                                                 efforts to prevent duplication when
                                                 investigating fraud. Keynote speakers at the
                                                 meeting included representatives from the
                                                 City of Chicago Division of Housing and
                                                 United States Attorney’s Office. The
                                                 Working Group is comprised of
                                                 representatives from HUD, the State of
                                                 Illinois/Division of Banks and Real Estate,
                                                 the Internal Revenue Service (IRS), Fannie
                                                 Mae, the Financial Crimes Enforcement
SAC Peter Emerzian discussing HUD OIG’s          Network (FINCEN), the HUD Quality
relocation program
                                                 Assurance Division, the Illinois Attorney
                                                 General’s Office, the FBI, Freddie Mac, the
  SAC Emerzian, a panelist addressing victim     Chicago Police Department, the Cook
  intimidation, discussed HUD OIG’s              County States Attorney’s Office, the U.S.
  relocation program. More than 300              Postal Inspection (USPIS), and the United
  members representing Massachusetts’ local,     States Trustee’s Office.
  State, and Federal law enforcement and
  prosecutive agencies attended the                  SAC James Beaudette, ASAC Lori Chan,
  conference.                                    and SA Jason Constantine offered an
                                                 overview of HUD OIG, information on
      SAC James Beaudette and ASAC Lori          rental assistance initiatives, a presentation
  Chan provided an overview of HUD OIG           entitled “Trends in Housing Fraud,” and
  and mortgage fraud schemes to                  case studies to Federal and local fraud
  approximately 35 Institute of Appraisers,      investigators in Seattle, WA. Those in
  Northwest regional members in San              attendance included special agents from the
  Francisco, CA. After the presentation, SAC     Social Security Administration (SSA) OIG,
  Beaudette and ASAC Chan hosted a               the Washington Department of Social and
  question and answer forum.                     Health Services, and investigators assigned
                                                 to housing authorities.
       SAC Robert Brickley presented HUD
  OIG’s background, mission, and role in             ASAC Larry Amaker and SA Michael
  criminal investigations at the Maryland        Wagenhauser spoke at the National
  Chapter Appraisal Institute meeting held in    Affordable     Housing     Management
  Atlantic City, NJ. SAC Brickley illustrated    Association (NAHMA), Mid Atlantic
  Federal Housing Administration (FHA)           Region, annual conference in Richmond,
  fraud and predatory lending schemes,           VA. ASAC Amaker and SA Wagenhauser
  explained specific FHA violations, described   explained HUD OIG’s mission and ways in
  civil and administrative remedies, and         which NAHMA can assist with identifying,
  expanded on appraisers’ responsibilities to    investigating, and prosecuting rental
  report wrongdoing. Approximately 30            assistance fraud in multifamily housing.
  individuals attended.                          ASAC Amaker and SA Wagenhauser also
                                                 presented an overview of HUD OIG’s
      SAC Barry McLaughlin hosted the            fugitive felon and RHIIP initiatives.
  quarterly Northern Illinois Real Estate        Approximately 250 individual attended the
  Fraud Working Group meeting in Chicago,        conference.
  IL. This group, created by SAC McLaughlin


   Outreach Efforts                                                                              101
           ASAC Ray Espinosa participated in          results to illustrate the nature of OIG’s work.
      Northern Illinois University’s Criminal         The ARIGAs also talked about the
      Justice Career Fair in Dekalb, IL. ASAC         environment and culture of OIG and career
      Espinosa, along with representatives from       opportunities in the auditing field.
      the U. S. Secret Service and FBI, provided a
      presentation describing career and                   ARIGA Ed Schmidt, along with SAs
      internship opportunities with various law       Jason Constantine and Charles Grace, gave
      enforcement agencies.                           a presentation describing the functions of
                                                      HUD OIG to a group of newer employees at
           ASAC Brad Geary, along with                the HUD regional office in Seattle, WA. The
      representatives from the FBI, the U.S.          presentation was part of HUD’s world
      Department of Veterans Affairs (VA) OIG,        training program in the HUD Seattle
      and a private security firm, participated in    regional office. ARIGA Schmidt described
      a panel discussion at a REO MAC                 HUD OIG’s statutory missions, how HUD
      conference in New York City, NY. REO            OIG is organized, the divisions and
      MAC is a national organization specializing     responsibilities between the Offices of Audit
      in the purchase of HUD real estate owned        and Investigation, areas of audit work, and
      (REO) properties. More than 50 people           the audit reporting process.             SAs
      attended a breakout session discussing          Constantine and Grace explained the work
      various schemes and frauds affecting the        of the Office of Investigation.
      real estate industry. SSA Kevin McBride
      from HUD OIG Headquarters also attended.             ARIGA Ron Farrell and Auditor Kim
                                                      Toler, Region 5, participated in Cleveland
           ASAC Brad Geary presented a fraud          State University’s 27th Annual Spring Career
      awareness briefing at the Appraisal Institute   Fair in Cleveland, OH, on March 3, 2006,
      in Chicago, IL. ASAC Geary discussed            along with more than 150 other employers.
      fraud schemes affecting HUD and the real        Mr. Farrell and Ms. Toler spoke with more
      estate trade, along with newly implemented      than 100 students about OIG’s mission and
      changes in FHA underwriting and their           the benefits of pursuing a student volunteer
      impact on the appraisal industry. More than     position/career with HUD OIG. They
      30 appraisers attended the meeting.             accepted resumes from students interested
                                                      in a student volunteer position with HUD
          Assistant Regional Inspector General        OIG/Audit in Columbus, OH, or Detroit, MI.
      for Audit (ARIGA) Tom Towers and ASAC
      George Dobrovic presented an overview of             ARIGA Fred Smith spoke to the Beta
      current OIG goals and initiatives to HUD        Alpha Phi accounting association at the
      employees at the Detroit, MI, field office.     University of Northern Colorado in Denver,
      The presentation also focused on how OIG        CO. ARIGA Smith presented HUD’s
      can be a resource to supplement their           mission statement and strategic goals and
      detection of fraud, waste, and abuse.           discussed ways in which OIG interacts with
                                                      HUD to accomplish its mission and goals.
           ARIGAs Tanya Schulze and Vince             ARIGA Smith also discussed HUD’s mission
      Mussetter gave a presentation to the            of increasing home ownership, supporting
      California State University, Los Angeles,       community development, and increasing
      CA, Accounting Society. In response to their    access to affordable housing free from
      request, ARIGAs Schulze and Mussetter           discrimination, as well as the benefits of a
      gave a presentation to about 30 students on     career in the Federal Government. ARIGA
      the background of HUD and OIG’s mission,        Smith fielded questions from the
      organization, and responsibilities. ARIGA       approximately 20 student and professors in
      Mussetter also discussed some recent audit      the audience.


102                                                                               Outreach Efforts
     ASAC Michael Wilson provided an           and various schemes used by criminals.
overview of HUD OIG and single-family          ASAC Harvell and SA Carter responded to
fraud schemes at the Appraisal Institute in    questions and encouraged reporting or
Dallas, TX. ASAC Wilson described              contacting HUD OIG with waste, fraud,
common criminal schemes and presented          and/or abuse issues involving any HUD
case studies of single-family fraud            program.
investigations. Approximately 30 members
of the Appraisal Institute attended.                SAs Gary Diers and Kris Kanakares
                                               addressed the 2005 Annual Kansas NAHRO
     ASACs Brad Geary and Ray Espinosa         convention held in Topeka, KS. SAs Diers
provided a presentation on the role and        and Kanakares presented an overview of
relationship of HUD OIG and Joint              successful fraud investigations in the Great
Terrorism Task Force (JTTF) investigations     Plains Region. Approximately 50 public and
at the Anti-Terrorism Advisory Committee       assisted housing professionals attended this
meeting sponsored by U. S. Attorney Patrick    seminar.
Fitzgerald and the Chicago Office of the FBI
in Chicago, IL. In addition to discussing           SAs Jason Constantine and Charles
HUD’s four major program areas and frauds      Grace presented HUD OIG’s role regarding
associated with each, current JTTF/HUD         Seattle Housing Authority (SHA) crime and
OIG investigations from Detroit,               fraud at a conference held at the King
Milwaukee, and Indianapolis were               County Police Academy, Burien, WA. Those
presented to the 75 law enforcement            in attendance included representatives from
attendees.                                     the Seattle Police Community Policing
                                               Division, Seattle Police Patrol Division, and
     ASAC Lori Chan presented HUD OIG          Seattle City Prosecutors Office. SAs
initiatives at a Law Enforcement Database      Constantine and Grace responded to
Seminar hosted by the Northern District of     questions and provided information on
California U.S. Marshal’s Service (USMS)       referring SHA crimes to HUD OIG.
and Western Regional Inspector General
Council in Oakland, CA. ASAC Chan                   SA Heather Yanello provided
responded to inquiries during a question       information on property flipping and
and answer session. Approximately 150          mortgage fraud at the Suspicious Activity
individuals representing about 50 State,       Reports (SAR) training seminar hosted by
county, and local law enforcement agencies     members of the Western New York SAR
attended.                                      review team in Buffalo, NY. SAR review
                                               team members include personnel from the
    ASAC Herschell Harvell, Jr., and SA        U.S. Attorney’s Office, IRS Criminal
David Carter attended the Southern             Investigation Division (CID), New York
California Housing Authority Manager’s         State Attorney General’s Office of the
Association (SCHAMA) meeting at                Inspector General, and U.S. Secret Service.
Riverside County Housing Authority,            The SAR training covered general guidelines
Riverside, CA. ASAC Harvell presented          in preparing SARs, SAR legal requirements
HUD OIG’s mission and strategies for an        established by FINCEN, and information on
effective alliance between housing             property flipping and mortgage fraud. SA
authorities and HUD OIG and provided an        Yanello also discussed mortgage fraud as a
overview of HUD OIG’s Sex Offender and         financial crime, how mortgage fraud relates
Fugitive Felon initiatives and U.S. Postal     to the Bank Secrecy Act, and a property
Service (USPS) OIG iiitiatives. SA Carter      flipping scheme shown on the HBO
provided a brief overview of Section 8         series “The Sopranos.” Approximately 100
program fraud, “Red Flag” fraud indicators,    bank compliance and bank investigators


Outreach Efforts                                                                               103
      attended this training in person and via            SAs Keith Fong and Eric Huhtala
      teleconferencing.                               presented an overview of HUD OIG’s
                                                      mission and role in investigating and
           SAs Donald Varner and Brian Caldwell       prosecuting fraud to 25 attendees at a
      presented information on fraud scemes to        Sacramento County District Attorney’s
      45 senior appraisers at the Appraisal           Office training seminar in Sacramento, CA.
      Institute for Region IX in Atlanta, GA. An      The audience included investigators from
      extensive question and answer forum             the Sacramento County Department of
      followed the presentation.                      Human Assistance, Investigations Division,
                                                      along with Child Action, Inc., a nonprofit
          SA Louis Mancini attended a U.S.            contractor for Sacramento County child
      Department of Justice (DOJ)-sponsored           assistance programs. Information on
      conference in Philadelphia, PA, to exchange     detecting, preventing, and reporting fraud
      ideas and best practices for the DOJ-           was also provided by SAs Fong and Huhtala.
      sponsored Public Housing Safety Initiatives
      (PHSI) under development in major US                 A Weed and Seed Panel, comprised of
      metropolitan areas. The purpose of the          Donna Schulz, Law Enforcement
      conference was to facilitate continuity and     Coordinator Manager and William Daniels,
      cooperation among all agencies                  Law Enforcement Coordinator, U.S.
      participating in the various PHSI with          Attorney’s Office; Delores McLaughlin,
      regard to law enforcement, community            Brevard County Weed and Seed
      building, and crime prevention. The             Coordinator; and ASAC Timothy Mowery,
      Philadelphia PHSI includes HUD OIG,             HUD OIG, made individual presentations
      USMS, the Bureau of Alcohol, Tobacco, and       for the Public Housing Authorities Directors
      Firearms (ATF), the Drug Enforcement            Association (PHADA) during the 2006
      Administration (DEA), and the Philadelphia      PHADA National Conference in St.
      Police Department.                              Petersburg, FL.          ASAC Mowery’s
                                                      presentation reflected HUD OIG’s effort to
           SA David Carranza provided an              identify and remove sexual offenders,
      overview of HUD OIG’s mission, structure,       fugitive felons, and HUD program
      and resources to police officers and            participants committing illicit drug offenses
      detectives from the Ventura, CA, Police         from HUD-funded programs. Conference
      Department, Narcotics and Investigations        attendees were advised on how local and
      Division, Crimes Suppression Team. SA           national HUD OIG initiatives compliment
      Carranza also discussed HUD OIG’s               the overall objective of the Weed and Seed
      authority in the Fugitive Felon, Sexual         Program, a HUD-funded DOJ-administered
      Offender, and Rental Assistance initiatives,    program.
      along with the need for networking and
      information sharing to achieve common                On October 5, 2005, Senior Auditor
      goals. In addition to SA Carranza, the          Anthony Anderson and Auditor Lanre
      Ventura Housing Authority’s deputy              Iwayemi represented OIG at a career fair at
      director and housing manager provided           Southern       Illinois    University      in
      information and answered questions              Edwardsville, IL. Anthony and Lanre met
      relating to housing eligibility, narcotic and   with students during the event, offering
      violent crimes leading to terminations,         information about OIG and explaining how
      sexual offender policies, and annual            OIG hires employees and where it currently
      certifications and inspections of tenants and   has openings. They collected about a dozen
      their housing units.                            resumes and, as requested by the students,
                                                      forwarded two of the resumes to the Region
                                                      III Office of Audit and two to the Region VII
                                                      Office of Investigation.

104                                                                              Outreach Efforts
     SA Joshua Stockman gave a                          SA Scott Savedow discussed fraudulent
presentation to the Identity Theft                 schemes and the impact and consequences
Investigators of Arizona (IDTIA) at the            of loan origination fraud on the FHA to the
Maricopa County Sheriff ’s Training                Mortgage Bankers Association during their
Auditorium in Phoenix, AZ. SA Stockman’s           two-day Fraud Detection seminar in Miami,
presentation focused on HUD OIG’s                  FL. Approximately 40 bank and mortgage
mortgage and rental assistance fraud               company executives attended the seminar.
initiatives and included examples of
successful HUD OIG investigations in the               SA Charles Grace presented the
Phoenix metropolitan area. Approximately           Inspector General’s role in HUD programs
75 representatives from varied law                 at the Association of Oregon Housing
enforcement agencies, including the                Authorities (AOHA) biannual meeting, held
Maricopa County Sheriff ’s Office, the             at the Portland Housing Authority in
Arizona Department of Public Safety, USPIS,        Portland, OR. The attendees included
the Social Security Administration OIG, the        Oregon housing authorities executive
Maricopa County Attorney’s Office, the             directors and an Oregon State lobbyist from
Arizona Attorney General’s Office, and             Salem, OR. SA Grace responded to
police departments from Phoenix, Mesa,             questions involving Section 8 tenant/
and Chandler, attended. SA Stockman                landlord fraud, prosecutorial advice, fraud
responded to questions relating to HUD             indicators, budgetary items, and contact
rental assistance programs, FHA mortgage           information and advised AOHA members
insurance, and the Real Estate Settlement          of HUD OIG’s active pursuit of fraud
Procedures Act (RESPA).                            investigations.

     SA James Carrieres gave presentations              ARIGA Fred Smith spoke to the Beta
to the San Diego, CA, Appraisal Institute          Alpha Phi accounting association at the
and Phoneix, AZ, Appraisals, a private             University of Northern Colorado, Greeley,
group of residential appraisers. SA                CO. ARIGA Smith discussed HUD’s
Carrieres presentations included an                mission statement and strategic goals and
overview of HUD OIG and successful                 how OIG interacts with HUD to accomplish
single-family fraud cases prosecuted in            its mission and goals. ARIGA Smith
Arizona. Approximately 110 appraisers              discussed how OIG accomplishes its
attended these events.                             mission by conducting independent and
                                                   objective audits, investigations, and other
    ASAC Brad Geary, along with a                  activities relevant to the HUD mission and
representative from the United States              how OIG keeps the Secretary of HUD,
Trustee’s Office, Northern District of Illinois,   Congress, and the American public fully and
provided three break-out presentations at a        currently informed.
Bankruptcy Fraud Training seminar held at
Department of Justice National Advocacy                SA Neil McMullen met with members
Center, Columbia, SC. The presentations            of the Hill Street Community Association
focused on the relationship between single-        (HSCA) in Inglewood, CA. HSCA members
family loan fraud and fraud within the             include homeowners and landlords who
bankruptcy courts. Those attending                 participate in the Inglewood Housing
included Federal agents, assistant United          Authority’s (IHA) rental assistance program
States attorney’s, and trial attorneys from        by providing housing for Section 8
United States Trustee’s offices throughout         recipients. SA McMullen provided an
the country.                                       overview of HUD OIG’s mission and
                                                   authority, described ways in which HSCA
                                                   members may assist IHA in preventing


Outreach Efforts                                                                                 105
      Section 8 fraud, and explained HUD OIG’s     Children, FHA, and Hurricane Relief
      successful partnership with the Inglewood    programs. Approximately 35 FAHA
      Police Department in addressing gang and     members attended.
      drug activity through Section 8
      fraud prosecutions. Both SA McMullen              SA James Carrieres met with members
      and Inglewood Police Department              of the Hispanic Association of Real Estate
      representatives emphasized the importance    Professionals and provided an overview
      of community involvement in reducing         of HUD OIG’s mission, HUD’s FHA
      violent criminal activity in subsidized      programs, and successful single-family
      housing.                                     fraud prosecutions in Phoenix, AZ.
                                                   Approximately 100 real estate agents,
          SA Malinda Antonik presented HUD         appraisers, loan officers, and escrow officers
      OIG’s mission and role in preserving the     attended.
      integrity of the HUD-funded programs at
      the Florida Association of Homes for the          HUD Newark Field Office Director,
      Aging’s (FAHA) 2006 Legislative Workshop     Diane Johnson, presented the Newark, NJ,
      in Tallahassee, FL. Topics discussed         HUD OIG Office of Investigation with a
      included HUD OIG’s efforts to identify and   certificate of appreciation in recognition of
      eliminate fraudulent schemes in HUD’s        the “blue ribbon service” provided to HUD
      Rental Assistance, Fugitive Felon, Missing   clients in New Jersey.




106                                                                           Outreach Efforts
   Chapter 9
Policy Directives
          Reviewing           and         making     Use of Capital and Operating
      recommendations          on     legislation,
      regulations, and policy issues is a critical   Funds for Financing Activities
      part of the Office of Inspector General’s
      (OIG) responsibilities under the Inspector     Conversion of Developments from
      General Act. During this 6-month
      reporting period, OIG reviewed 120 policy      Public Stock: Methodology for
      notices. This chapter highlights some of       Comparing Costs of Public
      OIG’s recommendations on these
      notices as well as other policy directives.
                                                     Housing and Tenant-Based
                                                     Assistance
      Proposed Rules
                                                     Public Housing Capital Fund
      HUD’s Proposed Interim Rule for
                                                          The following information about the
      Project-Based Voucher Rents for                above three subject draft rules was included
      Units Receiving Low-Income                     in the March 31, 2005, Semiannual Report to
                                                     Congress, and HUD has not reached a final
      Housing Tax Credits--24 CFR                    decision. Therefore, OIG is repeating the
      Part 983                                       issues in this report.

          This rule relates to project-based              For the three subject draft rules, the
      vouchers in low-income housing tax credit      Office of Public and Indian Housing (PIH)
      projects. HUD OIG did not concur with the      has not conducted a risk assessment. The
      proposed interim rule since it did not         Appropriations Act mandates that a risk
      allow for a comment period before              assessment be conducted on each program.
      implementation and also because it did not     The Department policy and handbooks
      provide support for the proposed action.       provide the method for meeting the
                                                     statutory requirement relating to a risk
          The Department was reviewing OIG’s         assessment and provide that a risk
      comments at the end of this semiannual         assessment must be completed before
      reporting period.                              issuing a rule. Additionally, HUD OIG has
                                                     communicated other issues on each draft
                                                     rule and cannot concur in the proposed rules
      Housing Opportunities for                      until the issues are addressed.
      Persons with Aids
                                                          For the conversion of developments
          This rule is proposed for the Housing      from public stock, HUD incorporated OIG
      Opportunities for Persons with Aids            comments and issued its final rule on March
      (HOPWA) program. OIG commented                 21, 2006, to become effective April 20, 2006.
      because the proposed rule change does not      The Department is still considering OIG’s
      address several requirements that the          comments on the other two rules.
      Inspector General believes are important.

          The Department is incorporating OIG
      changes but has not published the proposed
      rule as of the end of this semiannual
      reporting period.



108                                                                              Policy Directives
Revision to the Public Housing                  baseline comparisons, cost savings, final
                                                outcomes, and quality of life issues.
Operating Fund Program (Final
Rule)                                                The United States Housing Act of 1937
                                                as amended states that to ensure the
     The proposed final rule amends the         accuracy of any housing agency
regulations of the Public Housing Operating     certification, HUD is authorized to require
Fund program to provide a new formula for       an independent auditor to substantiate each
distributing operating subsidies to public      certification submitted by the agency and
housing agencies and to establish               withhold assistance to pay for the review.
requirements for housing agencies to            The statutory requirement extends beyond
convert to asset management. Annually,          the single audit compliance supplement
about $3 billion in operating subsidies is      scope and will generate a separate
disbursed through the formula. OMB              procurement for an attestation engagement.
identified the draft rule as being              The draft rule does not provide the
economically significant.                       organizational element accountable for
                                                procuring this attestation engagement, the
    OIG provided the following comments         indicators identifying the need for the
to PIH concerning the proposed rule.            attestation engagement, and the
                                                requirement for withholding funds.
    Executive Order 12898 requires HUD to
identify and address human health and               Further, the United States Housing Act
environmental effects of its policies,          of 1937 as amended states that the formula
programs, and activities on minority            should provide an incentive to encourage
populations and low-income populations.         housing authorities to facilitate increases in
Additionally, it requires HUD to collect,       earned income by families in occupancy and
maintain, and analyze information assessing     the incentive may be used only to benefit
environmental and human health risks            low-income housing or residents of the
borne by populations identified by race,        agency. The draft rule does not provide for
national origin, or income. This is important   control measures to ensure the benefits
to ensure that nonassisted low-income           accruing to the agency are used for low-
families are not adversely affected by the      income housing or for residents of the
placement of assisted families.                 agency.

     The Department issued the “Regulatory          The Office of Public and Indian Housing
Impact Analysis of Revisions to the             revised the draft rule and is currently
Operating Fund Program,” subject to OMB         issuing additional guidance to clear the
Circular A-4. It specified the proposed need    remainder of our comments.
for the formula as required by the circular.
However, its discussion on the different        Proposed Notices
alternative approaches to the proposed rule
did not comply with the circular regarding
the enforcement methods, different degrees      Project-Based Voucher Units
of stringency, different requirements for       with Low-Income Housing Tax
different geographic regions, performance
standards, market versus direct controls,
                                                Credit Allocations
and informational measures rather than
regulations. Also, its cost-benefit analysis        The HUD draft notice was to supersede
did not comply with the circular regarding      Notice PIH 2002-22 and add requirements
                                                for public housing agencies to cap rent


Policy Directives                                                                                109
      amounts under the project-based voucher          of 1937. In OIG’s opinion, the draft notice is
      program for units receiving low-income           effectively extending the vouchers and is
      housing tax credits so as not to exceed the      contrary to the provision on prohibiting
      tax credit rent based on the project-based       funding for the Section 8 program in the
      final rule effective November 14, 2005. It       statute.
      also addressed applicability based on the
      effective date of the rule.                           The Appropriation Acts for both fiscal
                                                       years (FY) 2004 and 2005 state that no part
           OIG commented that the notice was not       of the appropriation shall be available for
      clear in its language on the applicability as    any program, project, or activity in excess
      well as all of the terminology included in       of amounts set forth in the budget estimates
      the notice. Also the notice incorrectly stated   submitted to Congress. HUD estimated in
      in the subject line and purpose that it          the budget to Congress that HOME tenant-
      applied to project-based and tenant-based        based assistance funds would assist 13,335
      programs.                                        families. The notice does not provide a
                                                       control measure for limiting tenant-based
           Based on OIG’s comments, HUD                assistance to 13,335 families and obtaining
      eliminated confusing and unnecessary             compliance with the Appropriation Acts.
      wording and issued an amendment to
      Notice PIH 2002-22 rather than superseding           Executive Order 12898 requires HUD to
      the notice. The language regarding               identify and address human health and
      applicability was clarified to ensure the new    environmental effects of its policies,
      final rule requirements are only applied to      programs, and activities on minority
      projects selected after the effective date of    populations and low-income populations
      the final rule.                                  and to collect, maintain, and analyze
                                                       information assessing environmental and
      Using HOME Tenant-Based                          human health risks borne by populations
                                                       identified by race, national origin, or income.
      Assistance to Mitigate                           The draft notice does not specify the
      Displacement                                     reporting methodology to obtain compliance
                                                       with this executive order.
          The OIG did not concur with HUD’s
                                                           HUD regulations state that it is the
      draft notice for using HOME Investment
                                                       policy of the Department to provide for
      Partnership funds to mitigate the
                                                       public participation in rule making with
      displacement of low-income tenants who
                                                       respect to all HUD programs and functions,
      are losing their monthly housing choice
                                                       including matters that relate to grants, even
      voucher rental subsidy because the local
                                                       though such matters would not otherwise
      housing authority must terminate housing
                                                       be subject to rule making by law or executive
      assistance payments contracts with the
                                                       policy. Therefore, HUD publishes notices of
      tenants’ landlords due to insufficient
                                                       proposed rule making in the Federal
      subsidy funds.
                                                       Register and gives interested persons an
                                                       opportunity to participate in the rule making
          OIG did not concur with the proposed
                                                       through submission of written data and
      notice for the following reasons:
                                                       arguments. Rules are defined as all or part
                                                       of any HUD statement of general or
           The HOME Investment Partnership Act
                                                       particular applicability and future effect
      states funds may not be used to provide
                                                       designed to (1) implement, interpret, or
      tenant-based rental assistance or extend or
                                                       prescribe law or policy or (2) describe HUD’s
      renew tenant-based assistance under
                                                       organization or its procedure or practice
      Section 8 of the United States Housing Act


110                                                                                 Policy Directives
requirements. Rule making is defined as the     successful prosecutions or other remedial
process for considering and formulating the     actions. OIG has pending investigations
issuance, modification, or repeal of a rule.    involving tenants who have defrauded PIH
In OIG’s opinion, this draft notice meets the   assistance programs. The draft notice
standard as a rule and should be published      threatens      to    jeopardize    current
in the Federal Register for comment.            investigations and to undermine the fairness
                                                of past convictions.
    The Department decided not to issue the
proposed notice based on OIG’s comments.            The Office of Public and Indian Housing
                                                decided not to issue the draft notice based
Establishment of Amnesty                        on OIG’s comments.

Program at Public Housing
Agencies Resulting from
                                                Mortgagee Letters
Inspections of Family Income                    Special Authority for Use of Deed
    The OIG reported on this issue in the
                                                in Lieu of Foreclosure to Assist
March 31, 2005, Semiannual Report to            Victims of Hurricanes
Congress, and HUD had not reached a final
decision as of that date.                            HUD drafted a mortgagee letter to make
                                                it easier for mortgagees to accept voluntary
     The draft Notice PIH 2004 provides         conveyances of property from borrowers in
requirements to housing agencies that plan      those cases in which, due to storm damage,
to offer tenants amnesty as a result of the     the home is not habitable and will not be
Upfront Income Verification System              restored. The proposed change included a
detecting a difference between the tenants’     $5,000 incentive payment to the borrower or
claim of income and the income reported by      mortgagee, as applicable, to complete a
their employers or agencies providing           deed-in-lieu agreement. OIG commented
income assistance. The Department               that the $5,000 payment constituted an
initiated the Upfront Income Verification       enhanced entitlement and an unexpected
System to reduce subsidy errors resulting       windfall to the borrowers but at a cost to
from tenants underreporting or not              HUD that simply increased claim losses
reporting their income.                         without a material corresponding benefit.
                                                HUD believes this cost is more than offset
     OIG did not concur with this draft         by a decrease in the interest and other costs
notice because it inappropriately empowers      that would be payable in an insurance claim
housing agencies to decide who will be          if the loans foreclose. OIG recommended
prosecuted. The U.S. Code states that the       that the deed-in-lieu transactions be tracked
Attorney General of the United States is        so that the Department could evaluate the
responsible for deciding who will be            participation levels and borrower eligibility.
prosecuted for a Federal offense. In the
Tenth Amendment to the United States             It is not known if the Department will
Constitution, the determination on who will monitor the transactions. The proposed
be prosecuted under State law is reserved letter was published May 3, 2006, after the
to State authorities.                        end of this semiannual period as Mortgagee
                                             Letter 2006-10.
     OIG has investigated numerous cases
involving tenants who falsely reported their
incomes. These investigations resulted in


Policy Directives                                                                                111
      Expanded Streamline (K) Limited              insurance and file a partial claim for the
                                                   amount of the advance. Homeowners would
      Repair Program                               be required to sign a repayment agreement.

           HUD drafted a mortgagee letter to           OIG commented that the agreement
      modify documentation and control             should be securitized through a promissory
      requirements over 203(k) Rehabilitation      note or other appropriate instrument and
      Mortgage loans, an acknowledged higher       recorded as a lien against the property.
      risk Federal Housing Administration (FHA)    Without a lien, recovery of the advance
      insurance program. The proposed change       would not occur as a distribution from the
      eliminated the $5,000 repair minimum and     closing of a future property sale, and the
      raised the maximum to $35,000. OIG           agreement would not provide a strong and
      commented that financing as much             enforceable legal document in seeking
      as $35,000 of “minor repairs” could          repayment directly from the borrower.
      expose unwary borrowers to problems
      associated with past program abuses and          The Department addressed our issues
      recommended that the Department require      and published this proposal under
      a final inspection of the work when repair   Mortgagee Letter 2005-46 on December 1,
      costs exceeded $15,000.                      2005.

           HUD agreed and included the
      inspection requirement when it published
                                                   Late Request for Endorsement
      Mortgagee Letter 2005-50, dated December     Procedures/Certification
      29, 2005.                                    Eliminated, Proposed Mortgagee
      Tax-Exempt Status for Nonprofit              Letter
      Downpayment Gift Providers                        HUD drafted a mortgagee letter to
                                                   remove the certification requirement from
           HUD drafted a mortgagee letter          FHA’s late endorsement procedures. HUD
      regarding nonprofit “downpayment             believes the certification requirement does
      assistance providers”. OIG nonconcurred.     not materially contribute to reducing
                                                   insurance risk.
         The Department was reviewing OIG’s
      nonconcurring comments at the end of the          OIG nonconcurred because the
      semiannual reporting period.                 certification is a critical document in
                                                   supporting and enforcing departmental
                                                   remedies for noncompliance, and, therefore,
      Special Authority for Use of                 OIG disagrees with its proposed
      Partial Claims and Loan                      elimination. OIG has done significant
      Modifications to Assist Victims of           testing of “late endorsement” compliance by
                                                   major direct endorsement lenders as part of
      Hurricane Katrina                            its audit focus on FHA single-family lending
                                                   practices beginning in 2004. OIG found that
          HUD drafted a mortgagee letter to        lenders certified full compliance and
      provide financial relief to victims of       eligibility for FHA insurance, when some
      Hurricane Katrina who owned FHA-             loans were not eligible because the
      financed homes. The mortgagee letter         borrowers were in arrears on their mortgage
      would allow lenders to advance up to 12      payments. OIG recommended that HUD
      months of principal, interest, taxes, and    take appropriate remedies to reduce


112                                                                           Policy Directives
noncompliance,        including         loan   Premium Pricing on FHA-Insured
indemnifications and Program Fraud Civil
Remedies Act recoveries. It remains a          Mortgages
concern because these ineligible late-
endorsed loans were early defaults that were       OIG reported on premium pricing on
subsequently endorsed for insurance.           FHA-insured mortgages in the March 31,
                                               2005, Semiannual Report to Congress, and
     The Department issued Mortgagee           HUD had not reached a final decision.
Letter 2005-23, which modified late
endorsement procedures but retained a               Department action on the proposed
certification requirement.                     letter was still pending at the end of this
                                               semiannual reporting period.




Policy Directives                                                                            113
  Chapter 10
Audit Resolution
          In the audit resolution process, Office       Audits of FHA’s FY 1991 through
      of Inspector General (OIG) and U.S.
      Department of Housing and Urban                   1995 Financial Statements
      Development (HUD) management agree
      upon the needed actions and timeframes for             First issued March 27, 1992. FHA has
      resolving audit recommendations. Through          prepared financial statements for 15 years
      this process, OIG hopes to achieve                under the Chief Financial Officers Act,
      measurable improvements in HUD                    beginning with FY 1991. The audit of FHA’s
      programs and operations. The overall              FY 2005 financial statements discussed
      responsibility for assuring that the agreed-      FHA’s need to improve its review of the
      upon changes are implemented rests with           credit reform estimation process as a
      HUD managers. This chapter describes              material weakness. The finding revealed that
      significant pending issues for which              FHA management did not adequately
      resolution action has been delayed. It also       review the underlying data supporting the
      contains a status report on HUD’s                 assumptions in the estimation cash flow or
      implementation of the Federal Financial           functionality models. This resulted in
      Management Improvement Act of 1996                material errors in the FHA mark-to-market
      (FFMIA). In addition to this chapter on audit     loan loss reserve and the liability for loan
      resolution, see appendix 2, table A, “Audit       guarantee subsidy re-estimates. The audit
      Reports Issued before Start of Period with        continues to recognize that FHA needs to (1)
      No Management Decision as of March 31,            improve its information technology
      2006,” and table B, “Significant Audit            (primarily accounting and financial
      Reports Described in Previous Semiannual          management systems) to more effectively
      Reports in Which Final Action Had Not Been        support FHA’s business and budget
      Completed as of March 31, 2006.”                  processes and (2) continue to improve early
                                                        warning and loss prevention for single-
      Delayed Actions                                   family insured mortgages through more
                                                        emphasis       on    monitoring      lender
                                                        underwriting and more effective use of loan
      Audits of HUD’s FY 1991 through                   portfolio risk assessment tools. A weakness
      1995 Financial Statements                         reported since the FY 1992 financial
                                                        statement audit relates to the need for FHA
                                                        to more effectively manage controls over its
           First issued June 30 1992. HUD has been      information systems’ general and
      preparing consolidated financial statements       application level security controls. FHA’s
      under the requirements of the Chief               latest action plan continues to report
      Financial Officers Act for 15 years beginning     progress toward resolving these remaining
      with fiscal year (FY) 1991. Various internal      long-standing issues, with final actions
      control weaknesses have been reported in          targeted over the next 3 years.
      these audits. As a result of the FY 2005
      financial audit process, OIG reported HUD’s
      need to (1) incorporate better risk factors and   Guild Mortgage Company DBA,
      monitoring tools into the Federal Housing         Residential Mortgage Bankers,
      Administration’s (FHA) single-family
      insured mortgage program risk analysis and
                                                        Nonsupervised Direct Endorser -
      liability estimation process and (2) improve      Downey, CA
      FHA’s management review of the credit
      reform estimation process. Corrective action          Issued July 9, 2004. Guild Mortgage
      plans to resolve these issues have final action   Company (Guild) allowed predatory
      targeted by the end of calendar year 2006.        lending practices, a prohibited net branch
                                                        arrangement, and did not always follow

116                                                                              Audit Resolution
prudent lending practices. Guild allowed its    satisfied and giving HUD 30 days to provide
branch, Residential Mortgage Bankers, to        an action plan. On June 8, 2005, we received
charge excessive fees for underwriting and      a response from the General Deputy
processing, as well as allowing loan discount   Assistant Secretary for Housing-Deputy
points and premium rate pricing for which       Federal       Housing      Administration
the interest rates were not reduced and the     Commissioner stating that the Office of
borrowers did not receive any value or          Housing did not agree that loans with
services for the charges. In addition,          discount point charges, in which there was
Residential Mortgage Bankers was                no interest rate reduction, were a HUD or
established as an independent mortgage          Real Estate Settlement Procedures Act
corporation originating FHA loans without       requirement. Further, the memorandum
meeting HUD’s application and asset             stated that the Real Estate Settlement
requirements. Guild also failed to establish    Procedures Act Office would provide the
appropriate loan processing and                 official written confirmation response on its
underwriting controls to ensure HUD             decision regarding this issue by June 30,
requirements were followed during the loan      2005.
origination process. OIG recommended that
Guild (1) be referred to the Mortgagee               In November 2005, OIG received the
Review Board and assessed civil money           referenced legal opinion, dated November
penalties for engaging in predatory lending     3, 2005, whose subject line was – Availability
practices, (2) be required to review and        of Enforcement Action Under RESPA Based
analyze all FHA loans originated by             on Discount Points Charged in Above-Par
Residential Mortgage Bankers in which loan      Loans. The opinion memorandum
discount points were charged and there was      concluded that Guild’s charging of discount
no interest rate reduction, (3) make refunds    points in these transactions is contrary to
as required by HUD regulations, (4) repay       HUD’s regulations and statements of policy
HUD losses totaling more than $811,000,         interpreting Section 8(b) of RESPA. It also
and (5) indemnify the remaining loans           noted that the statute of limitations expired
amounting to more than $159 million.            before our audit and several appellate courts
                                                have questioned aspects of HUD’s
     OIG received a management decision,        interpretation of Section 8(b). The opinion
dated November 8, 2004, which included a        also concluded there may be a violation of
decision for recommendation 1C, which           Section 4 of RESPA if the disclosures
states that a written legal opinion would be    provided did not accurately describe the
requested from the Office of General            function of the discount points. OIG’s
Counsel regarding loan discount points and      conclusion, as described in the audit report,
premium rate pricing. A legal opinion, dated    was that the fees labeled as discount points
December 7, 2004, from the Office of General    were actually unearned fees disguised as
Counsel only addressed the issue of             discount points on the HUD-1 Settlement
premium rate, pricing but the opinion went      Statements. As a result, neither the Good
on to state that issues regarding discount      Faith Estimates nor the HUD-1 Settlement
points would be addressed by the Office of      Statements accurately described the
Real Estate Settlement Procedures Act/          function of the fees labeled as discount
Office of Land Sales. HUD, however, closed      points that went to the lender as additional
the recommendation on February 7, 2005,         compensation instead of providing interest
as having been satisfied. On March 29, 2005,    rate deductions to the borrowers.
OIG reopened this recommendation and
issued a memorandum to the Assistant               In a letter, dated December 22, 2005,
Secretary for Housing, explaining that the      OIG asked the Assistant Secretary for
original recommendation had not been fully      Housing to refer the lender to the Mortgagee


Audit Resolution                                                                                 117
      Review Board for civil money penalties for          OIG recommended that HUD require U.S.
      the violations cited for the loans in question,     Veterans Initiative and/or its continuums
      and we are still awaiting a reply. OIG              Los Angeles Homeless Services Authority
      followed up with more correspondence on             and City of Long Beach to (1) repay HUD
      February 8, 2006, with notification that none       from nonfederal funds for the $6,589,242 in
      of the targeted action dates have been met          SHP grant expenditures that did not have
      for the recommendations in the July 9, 2004,        the required matching funds unless it can
      audit report. As of March 31, 2006, none of         provide the supporting documentation, (2)
      the borrowers have received refunds and no          comply with Federal requirements in
      civil money penalties have been assessed to         carrying out its SHP grant activities, (3)
      the lender. The maximum civil money                 reimburse the SHP grants and/or repay
      penalty assessment is $6,500 per violation          HUD from nonfederal funds for the $633,348
      up to a limit of $1.25 million for all violations   in ineligible and unsupported expenses, (4)
      committed during any 1-year period.                 revise U.S. Veterans Initiative’s financial
      (Report No. 2004-LA-1005)                           management system, (5) competitively
                                                          procure the services in the business services
      United States Veterans Initiative,                  agreement, (6) develop and/or update the
                                                          indirect cost rates, and (7) submit financial
      Inc. - Supportive Housing                           closeout reports for expired grants.
      Program Grantee - Inglewood,
                                                               On April 4, 2005, the Deputy Secretary
      CA                                                  made final management decisions1 for this
                                                          audit and the Office Community Planning
          Issued September 27, 2004. United               and Development (CPD) agreed to complete
      States Veterans Initiative, Inc. – Supportive       final actions by March 17, 2006. As part of
      Housing Program Grantee                             the management decision for finding 1, CPD
                                                          agreed to contact the U.S. Department of
           Issued September 27, 2004. Contrary to         Labor (DOL), the U.S Department of
      Federal regulations and grant requirements,         Veterans Affairs (VA), and Americorp to
      U.S. Veterans Initiative was unable to              determine whether their funds can be used
      support that it met cash matching funds             as match for the SHP. If the funds can be
      requirements for any of the $7,222,590 in           used, CPD agreed to request a legal opinion
      Supportive Housing Program (SHP) grant              from HUD’s Office of General Counsel
      funds expended during the audit period.             (OGC) regarding (1) the definition of
      U.S. Veterans Initiative also spent at least        “budget line item” and (2) whether match
      $633,348 in SHP funds for ineligible                may be applied project to project or used
      ($498,248) and unsupported ($135,100)               based on budget line item or must be applied
      salaries and other expenses. We also found          to the lower accounting level. If the funds
      that U.S. Veterans Initiative did not               cannot be used as match, $1,254,570 will be
      administer its SHP grants in accordance             disallowed. With regard to finding 2, CPD
      with requirements because it failed to (1)          agreed to request a legal opinion from OGC
      develop an adequate financial management            to determine whether approval can be
      system, (2) comply with procurement and             granted after the fact for expenditures that
      contract administration requirements, (3)           were not included as budget line items but
      establish and implement indirect cost rates         were SHP eligible. Regarding finding 3,
      as required, and (4) close out expired grants.      CPD agreed to suspend the processing of


      1
       In our Semiannual Report to the Congress covering the period October 1, 2004, through March 31,
      2005, we reported our disagreement with the Deputy Secretary’s final management decision on this
      audit.

118                                                                                   Audit Resolution
any new grant agreements until the audit         determine the appropriateness of the course
issues have been resolved. The Deputy            of action for these recommendations. In
Secretary also determined that grant             addition, OIG advised CPD to obtain a
renewals, subsequent to those awarded            written legal opinion from OGC to
under the 2004 Continuum of Care                 determine the allowability of the debt
competition, will not be funded until            repayment proposal to allow some of the
management decisions from the audit are          debt to repaid with payment in kind to a
resolved. Final action was scheduled to be       third party grantee and whether such
completed for findings 1 and 2 by January        payments in kind, in the absence of a
4, 2006, and for finding 3 by March 17, 2006.    reduction by an equal amount of HUD’s
                                                 liability to the third party grantee, constitute
    On February 7, 2006, CPD sent a              an augmentation of HUD’s appropriation or
memorandum to provide a status update            violation of the HUD Reform Act.
and request revisions to the management          Regarding finding 3, we advised that the
decisions and attached a December 19, 2005,      management decision required all the audit
legal opinion from OGC. With regard to           issues to be resolved before the corrective
finding 1, CPD had not yet determined            action can be considered complete.
whether funds from DOL, VA, and                  Therefore, final action was past due as of
Americorp could be used as match for the         March 31, 2006. (Report No. 2004-LA-1008)
SHP. CPD explained that it had received
inconsistent responses from the agencies;
therefore, on December 13, 2005, it had
                                                 Significant Management
requested opinions from the agencies’
counsels and is currently waiting for their
                                                 Decision with Which the
responses. CPD requested an extension            OIG Disagrees
until June 30, 2006, to complete final action.
With regard to finding 2, OGC ruled that             Section 5(a)(12) of the Inspector General
CPD could grant approval for grant               Act, as amended, requires that OIG report
expenditures that were not included as           information concerning any significant
budget line items but were SHP eligible.         management decisions with which OIG is
Based on this opinion, CPD requested a           in disagreement. During the current
revised management decision to revise the        reporting period, OIG disagreed with
disallowed amounts and request our               significant management decisions for one
concurrence to allow U.S. veterans to repay      audits.
the disallowed costs through (1) a
repayment plan, (2) recovery through offsets
on active grants, and (3) recovery through
                                                 Idaho Housing and Finance
property in lieu of cash. On finding 3, CPD      Association - Boise, ID
requested concurrence to close the
recommendation based on the receipt of the           Issued September 16, 2005. Idaho Housing
OGC legal opinion.                               and Finance (Idaho Housing), Boise, ID, did
                                                 not follow Federal regulations and HUD
     On February 22, 2006, OIG responded         guidelines when it allowed 10 project
to CPD’s memorandum and advised that for         owners to prepay project mortgages.
finding 1, OIG cannot extend the final action    According to the Housing Assistance
target date since there was no change in the     Payment (HAP) contracts for these projects,
management decision. Therefore, final            the prepayment of the projects’ permanent
action is considered past due after March        financing cancels the HAP contracts.
31, 2006. With regard to finding 2, OIG          However, Idaho Housing did not enforce the
requested supporting documentation to            HAP contract termination, causing HUD to


Audit Resolution                                                                                    119
      pay more than $8.5 million in rent subsidies    behalf of the owners, HUD’s written
      in excess of fair market rents.                 approval to prepay.

          OIG found no documentation showing              OIG believes the Office of Multifamily
      Idaho Housing informed HUD of the               Housing’s policy of allowing the owners of
      prepayments for 7 of the 10 projects it         noninsured subsidized projects to
      reviewed. As a result, Idaho Housing did        unilaterally choose one of the three options
      not give HUD the opportunity to offer any       does not protect HUD’s interests and comply
      options regarding the rent subsidies. Idaho     with amendments made to Section 524 of
      Housing’s failure to notify HUD of these        MAHRA, effective September 30, 2001.
      prepayments is a violation of HUD
      regulations at 24 CFR 883.307(b)(2) and a            The HAP contract termination for the 10
      breach of its annual contributions contract,    projects in OIG’s report is covered under
      which requires compliance with the U.S.         MAHRA Sections 524(b)(1) and 524 (b)(2).
      Housing Act of 1937 and all applicable          Therefore, by statute, HUD can only offer
      regulations and requirements.                   the HAP renewal option stated in Section
                                                      524(b)(1). Due to the application of an
           OIG recommended that HUD require           annual adjustment factor through March
      Idaho Housing to reimburse HUD for the          1995, the 10 prepaid Idaho Housing projects
      $8.5 million in excessive subsidy payments      in OIG’s report had subsidized rents that
      for the projects without valid HAP contracts.   were as much as 191 percent of applicable
      OIG also recommended that HUD                   fair market rents. OIG estimates that HUD
      renegotiate the terminated HAP contracts        would save more than $1.3 million in excess
      with the owners and Idaho Housing, taking       section 8 subsidy payments over the next
      into consideration the projects’ condition      year if it renegotiated the HAP contracts in
      and fair market rents. The Office of            conformance with MAHRA.
      Multifamily Housing disagreed with both
      recommendations. Subsequently, OIG held              Initially, OIG agreed to modify its two
      discussions with the Deputy Assistant           recommendations and eliminate $8.5 million
      Secretary for Multifamily Housing to            in ineligible costs if the Office of Multifamily
      discuss issues relating to HUD’s policy on      Housing would commit to changing its
      extending HAP contracts upon contract           policy of allowing project owners to
      termination due to prepayment.                  unilaterally choose the option of extending
                                                      HAP contracts that terminated due to
           Regarding the issue of prepaid projects,   prepayment. OIG stated that any new policy
      the Office of Multifamily Housing stated        must be in conformance with the applicable
      that HUD’s practice since 2002 is to offer      provisions of MAHRA. On March 14, 2006,
      owners who contact HUD the options of (1)       the Assistant Inspector General for Audit
      extending the term of the HAP contract to       referred the issue to the Assistant Secretary
      the originally scheduled maturity date of the   for Housing because OIG could not reach
      permanent financing, (2) renewing the HAP       an agreement with the Office of Multifamily
      contract under the provisions of the            Housing on the two recommendations
      Multifamily Assisted Housing Reform Act         within established timeframes.
      (MAHRA), or (3) opting out of the Section 8
      program. According to the Office of                 On March 31, 2006, the Inspector
      Multifamily Housing, it would have allowed      General received a memorandum from the
      the HAP contract extensions using existing      Deputy Secretary stating that he agreed with
      terms if Idaho Housing had (1) recognized       the Office of Housing’s proposed
      the termination provision at the time of the    management decision. This decision states
      refinancing and (2) sought and received, on     that the Office of Housing will not require


120                                                                               Audit Resolution
Idaho Housing to reimburse HUD for the       requirements within 3 years or obtain Office
excessive subsidy payments and renegotiate   of Management and Budget concurrence if
the subsidy contracts with the 10 project    more time is needed. FFMIA requires OIG
owners. OIG disagrees with the Deputy        to report in its semiannual reports to the
Secretary’s management decision and          Congress instances and reasons when an
question HUD’s reluctance to commit to       agency has not met the intermediate target
changing its policy on prepaid, noninsured   dates established in its mediation plan
multifamily housing projects to conform to   required by FFMIA. In April 1998, HUD
MAHRA. OIG has asked for a formal Office     determined that 38 of its systems were not
of General Counsel legal opinion on this     in substantial compliance with FFMIA. At
issue. (Report No. 2005-SE-1008)             the end of 2005, the Department continued
                                             to report that 2 of its 44 financial
Federal Financial                            management systems were not in
                                             substantial compliance with FFMIA. These
Management                                   two systems are Loan Accounting

Improvement Act of 1996                      System(LAS), and Facilities Integrated
                                             Resources Management System (FIRMS).
                                             HUD is in the process of replacing LAS with
    FFMIA requires that HUD implement        a commercial off-the-shelf software package
a remediation plan that will bring           in the second quarter of 2006. HUD
financial systems into compliance with       reported FIRMS as noncompliant in its
Federal Financial Management System          2005 self-assessment.




Audit Resolution                                                                            121
   Appendix 1
Audit Reports Issued
      Internal Reports
      11 Audit Reports
      Chief Financial Officer (2 Reports)
      2006-DP-0001      HUD Compliance with Joint Financial Management Improvement
                        Program, Core Financial System Requirements for Cost Management,
                        10/07/2005.
      2006-FO-0003      Additional Details to Supplement Our Reports on HUD’s FY 2005
                        and 2004 Financial Statements, 11/15/2005. Better Use: $377,593,323.
      Chief Information Officer (4 Reports)
      2006-DP-0002      Security Configuration of FHA Unix Operating System, 10/31/2005.
      2006-DP-0003      Vulnerability Assessment of HUD’s Computer Network, 01/31/2006.
      2006-DP-0004      Review of HUD’s Information Security Program, 02/14/2006.
                        Better Use: $9,980,000.
      2006-DP-0801      OIG Response to Questions From the OMB Under the Federal
                        Information System Management Act of 2002, 10/04/2005.
      Government National Mortgage Association (1 Report)
      2006-FO-0001       GNMA Financial Statements for FY 2005 and 2004, 11/07/2005.
      Housing (2 Reports)
      2006-FO-0002     FHA Financial Statements for FY 2005 and 2004, 11/07/2005.
      2006-KC-0001     The HUD Office of Affordable Housing Preservation Appropriately
                       Approved the Mark-to-Market Eligibility and Exception Rents, and
                       Assessed the Physical Condition of Evergreen Terrace I, Joliet, IL,
                       02/09/2006.
      Lead Hazard Control (1 Report)
      2006-PH-0001     HUD Did Not Properly Award FY 2004 Healthy Homes and Lead
                       Hazard Control Grants, 12/07/2005. Questioned: $3,000,000; Better
                       Use: $20,496,000.
      Public and Indian Housing (1 Report)
      2006-CH-0001      Real Estate Assessment Center’s Physical Condition Assessment Was
                        Compromised, Washington, DC, 11/30/2005.




124                                                                        Audit Reports Issued
External Reports
66 Audit Reports
Community Planning and Development (8 Reports)
2006-BO-1001   The Division of Grants Management, City of Hartford, CT, Paid
                $1,039,296 for Ineligible CDBG Activities, 10/07/2005. Questioned:
                $981,461; Unsupported: $85,581; Better Use: $1,127,861.
2006-BO-1003    The City of Malden Working to Ensure Appropriate Use of CDBG and
                HOME Program Administrative Funds, Malden, MA, 01/23/2006.
2006-CH-1001    HUD’s Interest in More Than $220,000 in Economic Development
                Initiative-Special Purpose Grant Funds Awarded to the City of St.
                Ignace, MI, Was Not Secured, 11/10/2005. Better Use: $223,537.
2006-CH-1003    HUD’s Interest in $47,668 in Economic Development Initiative-Special
                Purpose Grant Funds Awarded to the City of Rhinelander, WI, Was Not
                Secured, 12/05/2005. Better Use: $47,668.
2006-CH-1006    Northstar Community Development Corporation Inappropriately Used
                More Than $120,000 in Economic Development Initiative-Special
                Purpose Grant Funds and HUD’s Interest in More Than $180,000 in
                Grant Funds Was Not Secured, Detroit, MI, 12/30/2005. Questioned:
                $125,342; Unsupported: $1,970; Better Use: $184,871.
2006-LA-1009    Fontana Native American Indian Center Did Not Adequately Administer
                Its Supportive Housing Program Grant, Fontana, CA, 03/03/2006.
                Questioned: $194,541; Unsupported: $55,776.
2006-NY-1002    WomenRising, Inc., Did Not Always Comply with HUD’s Supportive
                Housing Program, Jersey City, NJ, 01/31/2006. Questioned: $94,759;
                Unsupported: $94,759.
2006-NY-1006    Lower Manhattan Development Corporation, CDBG Disaster Recovery
                Assistance Fund, New York, NY, 03/31/2006. Questioned: $266,802.
Housing (28 Reports)
2006-AT-1003     Certified Home Loans of Florida Did Not Always Comply with FHA
                 Requirements, Miami, FL, 01/12/2006. Questioned: $728,479; Better
                 Use: $660,699.
2006-BO-1004     Mount Saint Francis Health Center, Providence, RI, 03/03/2006.
                 Questioned: $4,402,305; Unsupported: $2,743,728.
2006-BO-1006     Coventry Health Center, Providence, RI, 03/28/2006. Questioned:
                 $1,858,100; Unsupported: $992,979.
2006-CH-1002     The General Partner of The Sanctuary of Geneva, OH, Improperly
                 Used More Than $43,000 in Project Funds, 11/17/2005. Questioned:
                 $43,484; Unsupported: $5,475.
2006-CH-1004     Trustcorp Mortgage Company, Non-Supervised Lender, Substantially
                 Complied with Requirements Regarding Late Requests for Endorsements
                 and Underwriting of Loans, South Bend, IN, 12/22/2005. Questioned:
                 $2,889; Better Use: $102,02.
2006-CH-1007     Huntington National Bank, Supervised Lender, Generally Complied
                 with Requirements Regarding Submission of Late Requests for
                 Endorsement and Underwriting of Loans, Columbus, OH, 03/15/
                 2006. Questioned: $1,325; Better Use: $2,702,616.


Audit Reports Issued                                                                   125
      2006-CH-1008   US Bank NA, Supervised Lender, Did Not Always Comply with HUD’s
                     Requirements Regarding Late Requests for Endorsements and
                     Underwriting of Loans, Minneapolis, MN, 03/31/2006. Questioned:
                     $584,252; Unsupported: $129,686; Better Use: $2,957,090.
      2006-DE-1001   First Magnus Financial Corporation Did Not Follow HUD Requirements
                     in Underwriting 31 Insured Loans, Denver, CO, 12/20/2005. Questioned:
                     $873,455; Unsupported: $638,618; Better Use: $1,936,792.
      2006-DE-1002   American Title Services Did Not Comply with Contract Terms for
                     Closing Sales of HUD Homes, Greenwood Village, CO, 02/01/2006.
                     Questioned: $6,858.
      2006-FW-1004   K Hovnanian American Mortgage, LLC, Violated Underwriting
                     Requirements and Did Not Meet All Quality Control or Branch
                     Requirements, Plano, TX, 01/26/2006. Questioned: $608,333; Better Use:
                     $736,517.
      2006-FW-1006   America’s Mortgage Resource, Inc., Branch Manager Formed an
                     Identity-of-Interest Entity That Provided Gift Funds; and Did Not
                     Always Meet HUD Loan Origination and Quality Control Plan
                     Requirements, Metairie, LA, 03/28/2006. Questioned: $708,258; Better
                     Use: $6,904,509.
      2006-FW-1007   BSM Financial LP Originated Loans on Overvalued Properties to Less
                     Than Creditworthy Borrowers, Putting Borrowers and HUD at Risk,
                     Allen, TX, 03/31/2006. Questioned: $1,989,588; Better Use: $3,084,886.
      2006-KC-1002   First Magnus Financial Corporation Did Not Follow HUD Regulations
                     When Underwriting 23 FHA Loans, Overland Park, KS, 12/12/2005.
                     Questioned: $221,337; Better Use: $2,429,604.
      2006-KC-1004   Major Mortgage Improperly Submitted Late Requests for Endorsement
                     of FHA Loans, Cheyenne, WY, 01/20/2006. Questioned: $168,054;
                     Unsupported: $132,562; Better Use: $1,098,180.
      2006-KC-1005   Matrix Financial Services Corporation’s St. Louis Branch Did Not
                     Properly Underwrite and/or Close 40 FHA Loans, St. Louis, MO,
                     01/31/2006. Questioned: $234,122; Unsupported: $58,147; Better Use:
                     $2,630,627.
      2006-KC-1007   American Lending Group Did Not Properly Originate 9 Loans and Did
                     Not Have Adequate Quality Control Procedures, St. Peters, MO,
                     03/15/2006. Questioned: $416,555; Unsupported: $364,198; Better Use:
                     $646,907.
      2006-LA-1001   Ryland Mortgage Company Did Not Follow HUD Requirements in the
                     Origination of Insured Loans, Tempe, AZ, 10/31/2005. Questioned:
                     $89,741; Better Use: $2,730,099.
      2006-LA-1003   The Owners of The Avenue Misused More Than $32,000 in Project Funds,
                     San Francisco, CA, 12/07/2005. Questioned: $32,851.
      2006-LA-1005   The Villas at Camelback Crossing - Phase I Used Project Funds Totaling
                     $1,039,034 for Ineligible or Undocumented Costs, Glendale, AZ,
                     12/13/2005. Questioned: $1,039,034; Unsupported: $165,051.
      2006-LA-1006   The Villas at Camelback Crossing - Phase II Used Project Funds Totaling
                     $1,008,215 for Ineligible or Undocumented Costs, Glendale, AZ,
                     12/13/2005. Questioned: $1,008,215; Unsupported: $182,595.




126                                                                      Audit Reports Issued
2006-LA-1007           The Villas at Augusta Ranch Used Project Funds Totaling $965,316 for
                       Ineligible or Undocumented Costs, Mesa, AZ, 12/13/2005. Better Use:
                       $17,710,686.
2006-LA-1010           The Owner and Agent of Holiday Apartments, LA PRO 30, and Two
                       Worlds II Mismanaged Project Finances and Operations, Los Angeles,
                       CA, 03/03/2006. Questioned: $3,097,469; Unsupported: $719,899; Better
                       Use: $1,246,866.
2006-NY-1001           United Mortgage Corporation Did Not Always Comply with HUD/
                       FHA Loan Origination Requirements, Hauppauge, NY, 11/18/2005.
                       Questioned: $154,921; Better Use: $2,666,050.
2006-PH-1004           Homestead Funding Corp. Issued and Submitted for Endorsement Loans
                       with an Increased Risk of Defaults and Claims, Allentown, PA,
                       12/02/2005. Questioned: $175,594; Unsupported: $175,594; Better Use:
                       $95,107.
2006-PH-1006           Allied Mortgage Group Issued and Submitted for Endorsement Loans
                       with an Increased Risk of Defaults and Claims, Bala Cynwyd, PA,
                       02/08/2006. Questioned: $205,164; Unsupported: $204,153; Better Use:
                       $595,418.
2006-PH-1007           The Loan Origination Process and Quality Control Plan of American
                       Mortgage, Inc., Did Not Comply with HUD Regulations and
                       Requirements, Cherry Hill, NJ, 02/15/2006. Questioned: $4,589; Better
                       Use: $1,632,468.
2006-PH-1008           1st Preference Mortgage Corporation, York, PA, and Greenbelt, MD,
                       Did Not Originate All FHA Loans in Accordance with HUD
                       Requirements, York, PA, 03/23/2006.
2006-SE-1001           Idaho Housing and Finance Association Did Not Monitor Subsidized
                       Multifamily Projects in Accordance with Regulations or Its Annual
                       Contributions Contract with HUD, Boise, ID, 01/26/2006. Questioned:
                       $4,050,085; Unsupported: $182,264; Better Use: $357,986.
Public and Indian Housing (30 Reports)
2006-AT-1001      Miami Dade Housing Agency Did Not Ensure Section 8 Assisted Units
                  Met Housing Quality Standards, Miami, FL, 12/21/2005. Questioned:
                  $7,300; Better Use: $25,971,988.
2006-AT-1002      The Housing Authority of the City of Prichard’s Controls over the Sale
                  of Affordable Housing Units, Use of Sales Proceeds, and Expenditure
                  of Low-Income Funds Were Inadequate, Prichard, AL, 01/11/2006.
                  Better Use: $15,444,527.
2006-AT-1004      The Housing Authority of the City of Prichard Did Not Ensure Section
                  8 Subsidy Payments Were for Eligible Units, Tenants, and Landlords,
                  Prichard, AL, 01/13/2006. Questioned: $325,374; Better Use: $14,625,468.
2006-AT-1005      The Housing Authority of the City of Winston-Salem Did Not Ensure
                  Section 8 Assisted Units Were Decent, Safe, and Sanitary, Winston-
                  Salem, NC, 01/18/2006. Better Use: $6,435,360.
2006-AT-1006      The Municipality of San Juan Housing Authority Did Not Ensure
                  Section 8 Assisted Units Were Decent, Safe, and Sanitary, San Juan, PR,
                  02/23/2006. Better Use: $5,834,496.
2006-AT-1007      The Housing Authority of the City of Winston-Salem Used More Than
                  $4.9 Million in Operating Subsidies for Other Programs, Winston-
                  Salem, NC, 03/30/2006. Questioned: $4,976,616; Better Use: $475,000.


Audit Reports Issued                                                                           127
      2006-BO-1002   Review of Worcester Housing Authority Identified $1.9 million of Its
                     Public Housing Operating Funds Used for Non-Program Purposes,
                     Worcester, MA, 11/29/2005. Questioned: $1,943,662; Better Use:
                     $1,011,733.
      2006-BO-1005   Hartford Housing Authority Had Housing Choice Voucher Program
                     Deficiencies Resulting in More Than $2.6 Million in Costs Exceptions,
                     Hartford, CT, 03/10/2006. Questioned: $1,715,809; Better Use: $960,332.
      2006-CH-1005   Fairfield Metropolitan Housing Authority Used Annual Contributions
                     Contract Funds for Development Activities Outside Its Annual
                     Contributions Contract, Lancaster, OH, 12/30/2005. Questioned:
                     $543,483.
      2006-DE-1003   The Housing Authority of the City and County of Denver Properly
                     Assigned Section 8 Voucher Sizes But Made Errors on Nine Vouchers,
                     Denver, CO, 03/15/2006. Better Use: $26,683.
      2006-FW-1001   The Fort Worth Housing Authority Did Not Properly Apply Its Section
                     8 Subsidy Size Standards for Existing Tenants, Fort Worth, TX,
                     10/21/2005. Questioned: $180,618; Unsupported: $174,667; Better Use:
                     $2,646,373.
      2006-FW-1002   Baytown Housing Authority Improperly Advanced, Transferred, and
                     Encumbered Its Public Housing Funds, Baytown, TX, 12/13/2005.
                     Questioned: $2,030,233; Unsupported: $1,237,873; Better Use: $5,956,761.
      2006-FW-1003   Palacios Housing Authority Did Not Fully Comply with HUD’s
                     Standards, Palacios, TX, 12/22/2005. Better Use: $44,657.
      2006-FW-1005   Albuquerque Housing Services Generally Complied with HUD’s
                     Standards, Albuquerque, NM, 02/16/2006.
      2006-KC-1001   The Columbia Housing Authority Is Unnecessarily Paying Housing
                     Choice Voucher Program Funds for Overhoused Tenants, Columbia,
                     MO, 11/30/2005. Questioned: $216,352; Better Use: $300,276.
      2006-KC-1003   The Omaha Housing Authority of Omaha, NE, Does Not Have
                     Adequate Controls Over Its Housing Quality Standards Process and
                     Tenant Eligibility Verification Procedures, Omaha, NE, 01/12/2006.
                     Questioned: $58,511.
      2006-KC-1006   The Housing Authority of Kansas City Unnecessarily Paid Housing
                     Choice Voucher Program Funds for Overhoused Tenants, Kansas City,
                     MO, 03/03/2006. Questioned: $30,946; Better Use: $73,692.
      2006-KC-1008   Housing Authority of St. Joseph Overhoused 16 Tenants Under the
                     Section 8 Housing Choice Voucher Program, St. Joseph, MO, 03/30/
                     2006. Questioned: $20,108; Better Use: $54,036.
      2006-LA-1002   The Housing Authority of the City of Los Angeles Did Not Adequately
                     Determine and Support Section 8 Rents, Los Angeles, CA, 11/07/2005.
                     Questioned: $186,881; Unsupported: $186,881.
      2006-LA-1004   Inglewood Housing Authority Did Not Adequately Administer Its
                     Section 8 Housing Choice Voucher Program, Inglewood, CA, 12/07/
                     2005. Better Use: $975,833.
      2006-LA-1008   Housing Authority of the City of Los Angeles, CA, Did Not Adequately
                     Administer and Maintain Its Section 8 Waiting List, 03/01/2006.




128                                                                      Audit Reports Issued
2006-NY-1003           The Housing Authority of the City of Newark’s Controls Over Bond
                       Financing Activities, Obtaining Supporting Documentation, and Legal
                       Settlements Require Improvement, Newark, NJ, 02/14/2006.
                       Questioned: $7,228,933; Unsupported: $7,228,933; Better Use:
                       $3,560,123.
2006-NY-1004           Mount Vernon Urban Renewal Agency, Section 8 Housing Choice
                       Voucher Program Has Administrative and Financial Management
                       Weaknesses, Mount Vernon, NY, 02/16/2006. Questioned: $1,893,134;
                       Unsupported: $699,934; Better Use: $4,868,715.
2006-NY-1005           Utica Municipal Housing Authority, Operational and Administrative
                       Weaknesses Have Resulted in Unsupported and Ineligible
                       Expenditures, Utica, NY, 02/21/2006. Questioned: $758,087;
                       Unsupported: $237,957; Better Use: $33,150.
2006-PH-1001           The Alexandria Redevelopment and Housing Authority Improperly
                       Used Section 8 Funds to Support Its Other Programs, Alexandria, VA,
                       10/04/2005. Questioned: $462,214; Better Use: $462,214.
2006-PH-1002           The Suffolk Redevelopment and Housing Authority Did Not Always
                       Follow HUD Requirements in Its Section 8 and Low-Rent Programs,
                       Suffolk, VA, 10/17/2005. Questioned: $5,127.
2006-PH-1003           The Franklin Redevelopment and Housing Authority Did Not
                       Adequately Administer Its Section 8 Program, Franklin, VA, 11/30/
                       2005. Questioned: $9,662; Better Use: $1,520.
2006-PH-1005           The Housing Authority of the County of Butler Used HUD Assets
                       Improperly to Develop and Support Its Nonfederal Entities, Butler,
                       PA, 01/10/2006. Questioned: $205,875; Unsupported: $205,875; Better
                       Use: $973,982.
2006-PH-1009           The Housing Authority of the City of Annapolis Did Not Adequately
                       Administer Its Section 8 Waiting List, Annapolis, MD, 03/23/2006.
2006-SE-1002           Northeast Washington Housing Solutions Improperly Administered
                       Housing Choice Vouchers, Spokane, WA, 02/27/2006. Questioned:
                       $460,319; Unsupported: $460,319.




Audit Reports Issued                                                                         129
Appendix 2
  Tables
                                          Table A
                      Audit Reports Issued Prior to Start of Period with No
                          Management Decision at March 31, 2006
                * Significant Audit Reports Described in Previous Semiannual Reports
      Report Number               Reason for Lack of                           Issue Date/Target
      & Title                     Management Decision                           for Management
                                                                                       Decision
      2005-FW-1010 Broad     Management decision has not been                          05/26/2005
      Street Mortgage        reached on one of the three reported                      11/22/2005
      Company,               recommendations. The Inspector General
      Subsidiary of          referred the issue to the Deputy Secretary in
      Fieldstone Mortgage    January 2006 because agreement could not be
      Company,               reached with the Office of Housing. The
      San Antonio, TX        recommendation relates to concerns that we
                             have with this particular mortgagee’s loan
                             origination practices as they relate to the use
                             of downpayment assistance from seller-
                             funded nonprofit organizations. The
                             concerns we have with these downpayment
                             assistance transactions have been
                             long-standing and are consistent with
                             concerns reported by others, including the
                             Government Accountability Office.
                             Moreover, we have other mortgagee audit
                             reports that have been issued or are in
                             process that have similar issues with sellers
                             increasing the original sales price to cover
                             the buyer’s required downpayment and the
                             nonprofit downpayment assistance
                             provider’s fee. The Office of Housing has
                             taken the position that, based on a 1998
                             legal opinion, if the gift of downpayment
                             assistance is made by the nonprofit entity to
                             the buyer before closing, and the seller’s
                             contribution to the nonprofit entity occurs
                             after the closing, then the buyer has not
                             received funds that can be traced to the
                             seller’s contribution. The OIG believes that
                             HUD should establish specific standards
                             regarding a borrower’s investments in the
                             mortgaged property when a gift is provided
                             by a nonprofit organization. As a result of
                             the impasse, we have asked the Deputy
                             Secretary to provide a final management
                             decision.




132                                                                                        Tables
Report Number             Reason for Lack of                        Issue Date/Target
& Title                   Management Decision                        for Management
                                                                            Decision

2005-NY-1008 Lower    Management decision has not been                     09/27/2005
Manhattan             reached on one of the four reported                  03/26/2006
Development           recommendations. On March 31, 2006,
Corporation,          the General Deputy Assistant Secretary
Community             for Community Planning and Development
Development Block     indicated that he agreed with the audit
Grant Program         recommendation that the auditee consider
Disaster Assistance   additional action to recover $6 million in
Fund                  outstanding receivables from recipients of
New York, NY          the Residential Grant Program. However,
                      he did not agree that this amount should
                      be shown as “funds to be put to better use”
                      in our report. OIG maintains that while the
                      auditee may not be able to collect this
                      entire amount from the recipients, any
                      amounts collected by the auditee would
                      represent amounts that would be available
                      for other eligible program purposes.
                      Accordingly, we believe that some amount
                      should be recorded as “funds to be put to
                      better use.” The Inspector General referred
                      the issue to the Assistant Secretary,
                      Community Planning and Development,
                      on April 7, 2006.




Tables                                                                                  133
                                            Table B
      Significant Audit Reports Described in Previous Semiannual Reports in Which Final Action
                           Had Not Been Completed as of March 31, 2006
      Report                 Report Title              Issue        Decision       Final
      Number                                           Date         Date           Action

      1997-CH-1010    Major Mortgage Corporation,     09/17/1997    01/06/1998   10/15/2006
                      Section 203(K) Rehabilitation
                      Home Mortgage Insurance
                      Program, Livonia, MI
      2000-KC-0002    Housing Subsidy Payments        09/29/2000    02/21/2001   12/31/2006
      2001-FO-0002    FHA, FY 2000 Financial          03/01/2001    07/24/2001   12/21/2006
                      Statements
      2001-FO-0003    HUD FY 2000 Financial           03/01/2001    07/18/2001   12/31/2006
                      Statements
      2001-CH-1007    Detroit, MI, Housing        05/16/2001        09/13/2001   06/30/2011
                      Commission, Hope VI Program
      2002-SF-0001    Nonprofit Participation, HUD    11/05/2001    08/30/2002   10/15/2006
                      Single-Family Program
      2002-FO-0002    FHA, FY 2001 and 2000           02/22/2002    05/30/2002   12/31/2006
                      Financial Statements
      2002-FO-0003    HUD, Financial Statements       02/27/2002    08/16/2002   11/15/2006
                      FY 2001 and 2000
      2002-PH-1001    Williamsport, PA, CDBG          03/19/2002    08/27/2002   09/01/2006
                      and HOME Investment
                      Partnership Programs
      2002-BO-1003    Newport, RI, Resident           04/30/2002    09/16/2002   01/15/2008
                      Council, Inc.
      2002-AT-1002    Housing Authority of the City   07/03/2002    10/31/2002   04/30/2010
                      of Tupelo, MS, Housing
                      Programs Operations
      2002-KC-0002    Nationwide Survey of HUD’s      07/31/2002    11/22/2002   06/30/2006
                      Office of Housing Section 232
                      Nursing Home Program
      2002-FW-1002    Houma, LA, Housing Authority, 09/18/2002      01/16/2003    04/15/2006
                      Low Rent Housing Program,
                      Cash & Procurement Controls
      2002-FW-1003    New Mexico Public Interest      09/30/2002    03/31/2003   Note 1
                      Education Fund, Outreach and
                      Training Assistance Grant and
                      Public Entity Grant,
                      Albuquerque, NM




134                                                                                    Tables
Report                Report Title               Issue       Decision      Final
Number                                           Date        Date          Action

2002-PH-1004   Tenants’ Action Group of       09/30/2002     03/31/2003   03/29/2007
               Philadelphia, PA, Outreach and
               Training Assistance Grant
2002-PH-1006   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003   Note 1
               Outreach and Training
               Assistance Grant Number
               FFOT0020MD, Baltimore, MD
2002-PH-1007   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003   Note 1
               Outreach and Training
               Assistance Grant Number
               FFOT98012MD, Baltimore, MD
2002-SF-1006   Legal Aid Society of Honolulu,   09/30/2002   03/31/2003   03/29/2007
               HI, Outreach and Training
               Assistance Grant
2003-SE-1002   Tenants Union, Seattle, WA,     12/02/2002    03/31/2003   03/29/2007
               Outreach and Training Assistance
               Grant and Intermediary Training
               Assistance Grant
2003-AT-1001   Northwestern Regional Housing 01/09/2003      06/02/2003   10/01/2006
               Authority, Public Housing
               Programs, Boone, NC
2003-FO-0002   FHA, FY 2002 and 2001            01/21/2003   05/22/2003   12/31/2006
               Financial Statements
2003-FW-1001   Housing Authority of the City    02/21/2003   06/20/2003   04/15/2006
               of Morgan City, LA, Low-Rent
               Program
2003-AT-1003   Faifield, AL, Housing Authority, 03/24/2003   07/22/2003   10/01/2006
               Housing Programs
2003-NY-1003   Empire State Development       03/25/2003     07/16/2003   06/30/2006
               Corporation, CDBG Disaster
               Assistance Funds, New York, NY
2003-CH-1014   Coshocton, OH, Metropolitan      03/28/2003   07/28/2003   04/30/2047
               Housing Authority, Public
               Housing Program
2003-DE-0001   HUD Office of Multifamily        03/31/2003   03/31/2003   Note 1
               Housing Assistance
               Restructuring’s Oversight of
               the Sec 514 Program Activities
2003-BO-1003   City Of Bridgeport, CT, Home   05/16/2003     09/16/2003   07/31/2006
               Investment Partnership Program
2003-CH-1017   Housing Continuum, Inc.,         06/13/2003   10/10/2003   Note 1
               Homebuyers Assistance
               Program, Geneva, IL

Tables                                                                                 135
      Report                Report Title               Issue        Decision      Final
      Number                                           Date         Date          Action

      2003-AO-0002   HUD Training Academy              07/15/2003   10/24/2003   Note 1
      2003-NY-1005   Empire State Development       09/30/2003      01/28/2004   03/31/2007
                     Corporation, CDBG Disaster
                     Assistance Funds, New York, NY
      2003-BO-1002   Family Living Adult Care       11/04/2003      03/04/2004   09/30/2006
                     Center, Biddeford and Saco, ME
      2004-KC-1001   East Meyer Community              11/24/2003   03/29/2004   04/14/2006
                     Association, Kansas City, MO
      2004-CH-1001   Kankakee, IL, County Housing      11/26/2003   03/24/2004   Note 2
                     Authority, Section 8 Housing
                     Program
      2004-DP-0001   FY 2003 Review of Information 12/01/2003       05/28/2004   12/31/2006
                     Systems Controls in Support
                     of the Financial Statements Audit
      2004-BO-1004   Danbury, CT, Housing              12/05/2003   04/05/2004   12/01/2008
                     Authority, Capital Fund
                     Program
      2004-FO-0003   HUD Financial Statements          12/19/2003   07/20/2004   11/15/2006
                     FY 2003 and 2002
      2004-AT-0001   Public Housing Agency             01/13/2004   05/20/2004   05/13/2006
                     Development Activities
      2004-AT-1001   Housing Authority of the          01/15/2004   05/14/2004   12/31/2006
                     City of Cuthbert, GA,
      2004-AO-0001   Award and Administration of       02/06/2004   06/30/2004   Note 2
                     Lead-Based Paint Hazard
                     Reduction Grants
      2004-DP-1002   Application Control Review of     02/25/2004   07/14/2004   10/15/2006
                     the Tenant Rental Assistance
                     Certification System
      2004-FW-1003   City of New Orleans, LA,          03/15/2004   09/07/2004   04/15/2006
                     Section 108 Loan Program,
                     Jazzland Theme Park
      2004-AT-1006   Puerto Rico Public Housing        04/22/2004   07/12/2004   07/31/2006
                     Administration, San Juan, PR
      2004-LA-1003   Homewide Lending                  05/19/2004   09/01/2004   10/15/2006
                     Corporation, Nonsupervised
                     Mortgagee, Los Angeles, CA
      2004-SE-1004   Seattle, WA, Housing Authority,   05/21/2004   09/20/2004   04/30/2006
                     MTW Demonstration Program
      2004-PH-1007   City of McKeesport, PA,           05/28/2004   09/24/2004   03/31/2009
                     CDBG Program


136                                                                                   Tables
Report                Report Title                  Issue        Decision      Final
Number                                              Date         Date          Action

2004-PH-1008   Safe Haven Outreach Ministry,        06/03/2004   08/31/2004   06/02/2006
               Inc., Washington, DC
2004-FW-1007   City of New Orleans, LA,             06/22/2004   09/20/2004   04/15/2006
               Desire Community Housing
               Corporation
2004-LA-1005   Guild Mortgage Company DBA,          07/09/2004   11/06/2004   Note 2
               Residential Mortgage Bankers,
               San Diego, CA
2004-AT-0002   Effectiveness of the                 07/12/2004   12/13/2004   12/31/2006
               Departmental Enforcement
               Center
2004-KC-1003   Wells Fargo Home Mortgage,           07/16/2004   10/08/2004   Note 2
               Nonsupervised Direct
               Endorsement Lender,
               Des Moines, IA
2004-AT-1012   Housing Authority of the City        08/02/2004   11/29/2004   12/31/2020
               of Durham, NC
2004-PH-1010   Lambeth Apartments, Section          08/04/2004   10/02/2004   06/30/2006
               236/Section 8, Multifamily
               Housing Review, Pittsburgh, PA
2004-CH-1803   Somerset Point Nursing Home,         08/09/2004   08/09/2004   06/29/2006
               Multifamily Equity Skimming,
               Shaker Heights, OH
2004-SE-1006   Apreva, Inc., Nonsupervised          08/19/2004   01/11/2005   10/31/2006
               Mortgagee, Bellevue, WA
2004-CH-1008   Cornerstone Mortgage Group,          09/10/2004   01/05/2005   Note 2
               Limited Nonsupervised Loan
               Correspondent, Inverness, IL
2004-PH-1012   Mortgage America Bankers, LLC, 09/10/2004         01/06/2005   03/31/2007
               Nonsupervised Loan
               Correspondent, Kensington, MD
2004-NY-1004   Lower Manhattan Development 09/15/2004            01/12/2005   06/30/2006
               Corporation, CDBG Disaster
               Assistance Funds, New York, NY
2004-FW-1009   Mays Property Management, Inc., 09/17/2004        02/23/2005   Note 2
               Multifamily Management Agent,
               Little Rock, AR
2004-LA-1007   Housing Authority of Maricopa        09/22/2004   01/14/2005   Note 2
               County, Phoenix, AZ
2004-LA-1008   United States Veterans Initiative,   09/27/2004   03/31/2005   Note 2
               Inc., Inglewood, CA



Tables                                                                                     137
      Report                Report Title               Issue        Decision      Final
      Number                                           Date         Date          Action

      2004-DE-1004   New Freedom Mortgage             09/29/2004    01/28/2005   06/30/2006
                     Corporation, Single-Family
                     Direct Endorsement Mortgagee,
                     Salt Lake City, UT
      2005-KC-1001   Karim Enterprises, DBA Prime     10/04/2004    12/22/2004   06/30/2006
                     Mortgage, Did Not Follow FHA
                     Requirements, St. Charles, MO
      2005-BO-1001   Waterbury Housing Authority,     10/31/2004    02/09/2005   12/31/2006
                     Selected Programs, Waterbury, CT
      2005-DP-0001   FY 2004 Review of Information    10/19/2004    02/16/2005   08/30/2006
                     Systems Controls in Support of
                     the Financial Statements Audit
      2005-SE-1001   Tulalip Tribes Housing           10/21/2004    02/02/2005   06/30/2006
                     Authority Cannot Account for
                     Grant Funds, Marysville, WA
      2005-FW-1801   Highland Meadows Apartments, 11/02/2004        02/24/2005   Note 2
                     Dallas, TX
      2005-LA-1801   The Carmichael Rehabilitation    11/04/2004    01/27/2005   Note 2
                     Center, Carmichael, CA
      2005-FW-1001   City of New Orleans, Section 108 11/05/2004    03/02/2005   04/15/2006
                     Program, Louisiana ArtWorks,
                     New Orleans, LA
      2005-FO-0002   FHA’s Financial Statements for   11/15/2004    11/15/2004   12/31/2006
                     FY 2004 and 2003
      2005-AT-1004   Housing Authority of the City    11/19/2004    03/15/2005   03/15/2015
                     of Durham, NC
      2005-CH-1003   Royal Oak Township Housing       11/29/2004    03/29/2005   10/31/2006
                     Commission, Public Housing
                     Program, Ferndale, MI
      2005-PH-1003   The Town of Clifton, Single-      12/21/2004   04/19/2005   04/19/2006
                     Family Property Disposition
                     Discount Sales Program, Clifton, VA
      2005-PH-1004   Corrective Action Verification    12/21/2004   04/20/2005   04/30/2007
                     Review of the Housing Authority
                     of Baltimore, MD, Section 8
                     Certificate and Voucher Programs,
                     Audit Report No. 2001-PH-1003
      2005-CH-1004   Lakewood Care Center,            12/22/2004    10/07/2005   12/31/2006
                     Multifamily Equity Skimming,
                     Milwaukee, WI




138                                                                                   Tables
Report                Report Title                Issue         Decision      Final
Number                                            Date          Date          Action

2005-CH-1801   RVA Properties Inc.,               12/22/2004    12/26/2004   06/30/2006
               Multifamily Equity Skimming,
               Farmington Hills, MI
2005-CH-1005   Wood Hills Assisted Living         01/12/2005    10/07/2005   12/31/2006
               Facility, Multifamily Equity
               Skimming, Kalamazoo, MI
2005-LA-1805   Housing Authority of the City of 01/21/2005      04/05/2005   10/05/2006
               Los Angeles, CA
2005-NY-1802   Arlington Arms, Jersey City, NJ    01/21/2005    04/11/2005   04/11/2006
2005-KC-1003   Leader Mortgage Company,           01/25/2005    04/08/2005   Note 2
               Did Not Follow HUD
               Requirements When Processing
               Loans, Lenexa, KS
2005-AT-1005   Pan American Financial             01/27/2005    05/17/2005   05/31/2006
               Corporation, Nonsupervised
               Direct Endorsement Lender,
               Guaynabo, PR
2005-FW-1004   American Property Financial,   01/28/2005        05/27/2005   05/31/2006
               Nonsupervised Loan
               Correspondent, San Antonio, TX
2005-SE-1003   Oregon Housing and                 02/09/2005    05/27/2005   05/01/2006
               Community Services, Salem, OR
2005-AT-1006   The Jefferson County Housing       02/24/2005    05/31/2005   04/23/2006
               Authority, Birmingham, AL
2005-FW-1005   New Orleans African-American 02/25/2005          05/12/2005   04/15/2006
               Museum Mismanaged its CDBG
               and Did Not Comply with its
               Grant Agreements, New Orleans, LA
2005-DE-1002   Boulder County Housing             03/09/2005    06/29/2005   12/31/2010
               Authority, Boulder, CO
2005-PH-1007   Lehigh County Housing               03/09/2005   05/02/2005   01/30/2017
               Authority Could Not Support
               All Costs and Used HUD Funds
               to Support its Nonfederal Entities,
               Emmaus, PA
2005-LA-1002   Housing Authority of Maricopa      03/14/2005    07/11/2005   08/31/2007
               County, Mixed Finance
               Development Activities,
               Phoenix, AZ
2005-AT-1007   Interstate Financial Mortgage  03/15/2005        08/04/2005   07/31/2006
               Group Corporation, Nonsupervised
               Direct Endorsement Lender,
               Miami, FL

Tables                                                                                    139
      Report                Report Title               Issue        Decision     Final
      Number                                           Date         Date         Action

      2005-PH-1008   The Housing Authority of the      03/24/2005   07/13/2005   12/31/2006
                     City of Pittsburgh Did Not
                     Effectively Implement its MTW
                     Demonstration Program,
                     Pittsburgh, PA
      2005-AT-1008   Trust America Mortgage, Inc.,  03/25/2005      07/25/2005   04/30/2006
                     Nonsupervised Direct Endorsement
                     Lender, Cape Coral, FL
      2005-CH-1007   RBC Mortgage Company,             03/29/2005   08/05/2005   04/06/2007
                     Nonsupervised Mortgagee,
                     Houston, TX
      2005-PH-1001   Criteria Governing Local         03/29/2005    07/27/2005   01/02/2007
                     Government Participation in
                     HUD’s Single-Family Property
                     Disposition Discount Sales Program
      2005-CH-1010   Kankakee County Housing           04/08/2005   08/05/2005   05/10/2006
                     Authority, Low-Rent Housing
                     Program, Kankakee, IL
      2005-FW-1008   City of New Orleans, Did Not      04/08/2005   05/26/2005   04/15/2006
                     Contribute Approximately $3.6
                     Million in HOME Funds,
                     New Orleans, LA
      2005-PH-1009   Richmond Development and          04/08/2005   07/28/2005   10/31/2006
                     Housing Authority Did Not
                     Always Properly Use HUD
                     Funds, Richmond, VA
      2005-SE-0001   Design and Implementation         04/12/2005   04/12/2005   04/12/2006
                     of the Public Housing/Section 8
                     MTW Demonstration Program
      2005-AT-1009   The Housing Authority of          04/21/2005   08/09/2005   04/30/2006
                     Fulton County, Atlanta, GA
      2005-BO-1003   Milford Housing Authority,        04/25/2005   10/07/2005   12/31/2006
                     Selected Programs, Milford, CT
      2005-DE-1003   Citywide Home Loans,              05/04/2005   09/01/2005   08/31/2006
                     Salt Lake City, UT
      2005-DE-1004   Aspen Home Loans, American        05/06/2005   08/31/2005   06/30/2006
                     Fork, UT
      2005-DE-0001   HUD’s Control Over FHA Claims 05/12/2005       09/09/2005   04/30/2006
                     Payments
      2005-LA-1003   First Source Financial USA,       05/12/2005   09/08/2005   11/30/2006
                     Henderson, WV




140                                                                                   Tables
Report                Report Title                 Issue        Decision      Final
Number                                             Date         Date          Action

2005-KC-1006   Corinthian Mortgage           05/13/2005         09/09/2005   09/30/2006
               Corporation Did Not Always
               Comply with FHA Requirements,
               Mission, KS
2005-NY-1005   The Housing Authority of the     05/26/2005      09/23/2005   12/31/2006
               City of Newark, Bond Financing
               Activities and Section 8 Housing
               Choice Voucher Administrative Fee
               Reserves, Newark, NJ
2005-CH-1011   Stark Metropolitan Housing      05/31/2005       08/31/2005   05/10/2006
               Authority, Nonprofit Development
               Activities, Canton, OH
2005-PH-1012   The Lycoming County Housing         06/06/2005   07/12/2005   06/01/2006
               Authority Risked HUD Assets
               for the Benefit of Its Affiliated
               Nonfederal Entity,
               Williamsport, PA
2005-AT-1010   The Chattanooga Housing             06/09/2005   10/06/2005   06/30/2006
               Authority Did Not Ensure
               Section 8 Assisted Units Were
               Decent, Safe, and Sanitary,
               Chattanooga, TN
2005-AT-1011   The Housing Authority of            06/27/2005   10/24/2005   06/27/2006
               High Point Did Not Properly
               Procure Goods and Services,
               High Point, NC
2005-AT-1012   Crossville Housing Authority   07/06/2005        10/31/2005   10/31/2008
               Improperly Used Public Housing
               Funds for Other Activities,
               Crossville, TN
2005-LA-1005   Housing Authority of the City       07/11/2005   09/09/2005   05/31/2006
               of Inglewood, CA
2005-FW-1012   The Housing Authority of the        07/20/2005   10/05/2005   05/31/2006
               City of Houston Did Not Follow
               Its Section 8 Abatement and
               Termination Policies and
               Procedures, Houston, TX
2005-LA-1006   Maricopa Home Consortium            07/28/2005   11/22/2005   08/31/2007
               Home Program, Mesa, AZ
2005-BO-1004   Housing Choice Voucher and       03/09/2005      06/29/2005   12/31/2010
               Low-Income Public Housing
               Program Deficiencies at the
               Bridgeport Housing Authority
               Resulted in $3.8 Million in
               Questioned Costs, Bridgeport, CT

Tables                                                                                    141
      Report                Report Title               Issue        Decision      Final
      Number                                           Date         Date          Action

      2005-PH-1013   Review of the Commonwealth      07/29/2005     11/22/2005   11/21/2006
                     of Pennsylvania’s HOME
                     Investment Partnership Program,
                     Harrisburg, PA
      2005-PH-1014   Review of the McKeesport         07/29/2005    11/21/2005   11/01/2006
                     Housing Authority’s Section 8
                     and Public Housing Programs,
                     McKeesport, PA
      2005-CH-1012   Savanna Trace Apartments,        08/04/2005    12/28/2005   12/28/2006
                     Multifamily Equity Skimming,
                     Kalamazoo, MI
      2005-CH-1013   Ivan Woods Senior Apartments,    08/05/2005    12/28/2005   12/28/2006
                     Multifamily Equity Skimming,
                     Lansing, MI
      2005-CH-1014   Kankakee County Housing          08/05/2005    12/28/2005   04/30/2006
                     Authority’s Low-Rent Unit
                     Conditions, Kankakee, IL
      2005-NY-1006   Syracuse Housing Authority,      08/10/2005    09/20/2005   05/31/2006
                     Section 8 Housing Choice
                     Voucher Program, Syracuse, NY
      2005-LA-1007   KB Home Mortgage Company,        08/12/2005    12/09/2005   12/31/2006
                     Las Vegas, NV
      2005-BO-1005   Inappropriate Use of Federal      08/31/2005   12/29/2005   07/30/2006
                     Funds Led to $3.5 Million
                     Deficit in HUD Programs
                     Administered by Fall River
                     Housing Authority, Fall River, MA
      2005-BO-1006   The Hartford Housing Authority 09/06/2005      01/03/2005   06/30/2006
                     Improperly Used $3.7 Million
                     in Public Housing Operating
                     Subsidies for Its State and Other
                     Federal Programs, Hartford, CT
      2005-LA-1009   Housing Authority of the City    09/07/2005    11/29/2005   07/01/2006
                     of Inglewood, Housing Quality
                     Standards, Inglewood, CA
      2005-LA-0001   Single-Family Preforeclosure     09/13/2005    01/10/2005   09/30/2006
                     Sale Program
      2005-AT-1013   Corporacion Para el Fomento     09/15/2005     01/11/2005   11/30/2006
                     Economico de la Ciudad Capital
                     Did Not Administer Its Independent
                     Capital Fund in Accordance with
                     HUD Requirements, San Juan, PR




142                                                                                   Tables
Report               Report Title               Issue        Decision      Final
Number                                          Date         Date          Action

2005-AT-1014   National City Mortgage          09/15/2005    11/14/2005   10/31/2006
               Company Did Not Comply
               with FHA Requirements,
               Miamisburg, OH
2005-DE-1005   The Housing Authority of the   09/16/2005     11/22/2005   12/31/2006
               County of Salt Lake Adequately
               Controlled Occupancy Functions
               but Inappropriately Loaned
               Funds, Salt Lake, UT
2005-NY-1007   Security Atlantic Mortgage      09/16/2005    01/13/2006   01/31/2007
               Company, Inc. Did Not Always
               Comply with HUD/FHA Loan
               Origination Requirements,
               Edison, NJ
2005-SE-1007   City Bank, Puyallup, WA         09/16/2005    12/20/2005   06/30/2006
2005-SE-1008   Idaho Housing and Finance       09/16/2005    12/13/2005   Note 3
               Association, Boise, ID
2005-FW-1017   Allied Home Mortgage            09/22/2005    01/05/2006   06/30/2006
               Corporation Did Not Follow
               HUD Requirements When
               Processing Four Loans,
               Houston, TX
2005-CH-1017   Flint Housing Commission,       09/23/2005    01/20/2006   01/20/2016
               Section 8 Housing Program,
               Flint, MI
2005-LA-1010   First Magnus Financial          09/23/2005    01/19/2006   09/23/2006
               Corporation, Las Vegas, NV
2005-BO-1007   Fairfield Financial Mortgage  09/26/2005      01/20/2006   09/30/2006
               Group, Inc., Did Not Always
               Comply with FHA Requirements,
               Danbury, CT
2005-LA-1011   KB Home Mortgage Company      09/26/2005      01/23/2006   01/15/2007
               Did Not Follow HUD
               Requirements When Originating
               Insured Loans, Phoenix, AZ
2005-FW-1018   The Housing Authority of the     09/27/2005   01/24/2006   09/15/2006
               City of Houston Violated HUD
               Regulations Concerning Section 8
               Housing Choice Voucher Tenants
               and Units, Houston, TX
2005-FW-1019   Wells Fargo Did Not Follow      09/28/2005    01/05/2006   06/30/2006
               HUD Requirements When
               Processing 10 Loans,
               Des Moines, IA


Tables                                                                                 143
      Report                 Report Title                   Issue        Decision         Final
      Number                                                Date         Date             Action

      2005-NY-1009    Golden First Mortgage                 09/28/2005    01/20/2006     10/15/2006
                      Corporation, Nonsupervised
                      Direct Endorsement Lender,
                      Great Neck, NY
      2005-AT-1015    The Municipality of San Juan      09/29/2005        01/12/2006     12/29/2006
                      Housing Authority Did Not
                      Properly Administer Its Section 8
                      Housing Choice Voucher Program,
                      San Juan, PR
      2005-CH-1020    Housing Authority of the City         09/29/2005    01/25/1006     12/31/2052
                      of Gary, Section 8 Housing
                      Program, Gary, IN
      2005-BO-0002    HUD Did Not Conduct a                 09/30/2005    12/20/2005     10/01/2006
                      Front-End Risk Assessment
                      and, Therefore, Fully Implement
                      Controls for the Public Housing
                      Mortgages and Security Interest
                      Program
      2005-KC-1009    Washington Mutual Bank Did            09/30/2005    01/11/2006     09/30/2006
                      Not Follow HUD Regulations
                      When Underwriting Six Loans,
                      Seattle, WA



        REPORTS EXCLUDED FROM TABLE:                    NOTES:
        28 audits under repayment plans                 1    Management did not meet the
                                                             target date. Target date is over
        32 where HUD management cannot
        complete final action since recommended              1 year old.
        action is pending formal judicial review,       2    Management did not meet the
        investigation, or legislative solution
                                                             target date. Target date is
                                                             under 1 year old.
                                                        3    No Management decision.




144                                                                                             Tables
                                             Table C
                      Inspector General Issued Report with Questioned and
                              Unsupported Costs at March 31, 2006
                                             (Thousands)
Report s                                  Number of             Questioned               Unsupported
                                          Audit Reports         Costs                    Costs

A1     For which no management                 41                52,969                    16,871
       decision had been made by the
       commencement of the reporting
       period
A2     For which litigation, legislation,      10                18,568                    8,135
       or investigation was pending at
       the commencement of the
       reporting period
A3     For which additional costs were          -                1,485                     0
       added to reports in beginning
       inventory
A4     For which costs were added to           2                 111                       0
       noncost reports
B1     Which were issued during the            53                50,627                    17,365
       reporting period
B2     Which were reopened during the          0                 0                         0
       reporting period

               Subtotals (A + B)               106               123,760                   42,371

C      For which a management                  571               58,627                    16,022
       decision was made during the
       reporting period
       (1) Dollar value of disallowed costs
            Due HUD                            292               11,810                    2,428
             Due program participants          30                27,675                    11,402
       (2) Dollar value of costs not           153               19,142                    2,192
           disallowed
D      For which management decision           10                19,113                    9,667
       had been made not to determine
       costs until completion of litigation,
       legislation, or investigation
E      For which no management                 39                46,020                    16,682
       decision had been made by               <113>4            <46,012>4                 <16,682>4
       the end of the reporting period

1
    36 audit reports also contain recommendations with funds to be put to better use.
2
    4 audit reports also contain recommendations with funds due program participants.
3
    13 audit reports also contain recommendations with funds agreed to by management.
4
    The figures in brackets represent data at the recommendation level as compared to the report level.
    See Explanations of Tables C and D.




Tables                                                                                                    145
                                                   Table D
                   Inspector General Issued Report with Recommendations That Funds Be
                                   Put to Better Use at March 31, 2006
                                                    (Thousands)
      Report s                                                      Number of                   Dollar Value
                                                                    Audit Reports

      A1     For which no management decision had been                     41                         184,495
             made by the commencement of the reporting
             period
      A2     For which litigation, legislation, or investigation           5                           15,102
             was pending at the commencement of the
             reporting period
      A3     For which additional costs were added to reports              -                            73,025
             in beginning inventory
      A4     For which costs were added to noncost reports                 0                                0
      B1     Which were issued during the reporting period                 49                         553,315
      B2     Which were reopened during the reporting period               0                                0

                                       Subtotals (A + B)                   95                         825,937

      C      For which a management decision was made                      52 1                       549,804
             during the reporting period
             (1) Dollar value of recommendations that were
                  agreed to by management
                     Due HUD                                               20                         401,982
                      Due program participants                             26                         125,484
             (2) Dollar value of recommendations that were                 142                         22,338
                  not agreed to by management
      D      For which management decision had been made                   7                          105,692
             not to determine costs until completion of
             litigation, legislation, or investigation
      E      For which no management decision had been                     36                        170,441
             made by the end of the reporting period                       <65>3                   <168,413>3

      1
          36 audit reports also contain recommendations with questioned costs.
      2
          8 audit reports also contain recommendations with funds due program participants.
      3
          The figures in brackets represent data at the recommendation level as compared to the report level.
          See Explanations of Tables C and D.




146                                                                                                    Tables
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and agency
heads to report cost data on management decisions and final actions on audit reports. The
current method of reporting at the “report” level rather than at the individual audit
“recommendation” level results in misleading reporting of cost data. Under the Act, an
audit “report” does not have a management decision or final action until all questioned
cost items or other recommendations have a management decision or final action. Under
these circumstances, the use of the “report” based rather than the “recommendation”
based method of reporting distorts the actual agency efforts to resolve and complete action
on audit recommendations. For example, certain cost items or recommendations could
have a management decision and repayment (final action) in a short period of time. Other
cost items or nonmonetary recommendation issues in the same audit report may be more
complex, requiring a longer period of time for management’s decision or final action.
Although management may have taken timely action on all but one of many
recommendations in an audit report, the current “all or nothing” reporting format does
not take recognition of their efforts.

    The closing inventory for items with no management decision on Tables C and D
(Line E) reflects figures at the report level as well as the recommendation level.




Tables                                                                                        147
HUD OIG Operations
 Telephone Listing
      Office of Audit
      Headquarters Office of Audit, Washington, DC                      202-708-0364
      Region 1           Boston, MA                                     617-994-8380
                         Hartford, CT                                   860-240-4800
      Region2            New York, NY                                   212-264-4174
                         Albany, NY                                     518-464-4200
                         Buffalo, NY                                    716-551-5755
                         Newark, NJ                                     973-622-7900
      Region 3           Philadelphia, PA                               215-656-3401
                         Baltimore, MD                                  410-962-2520
                         Pittsburgh, PA                                 412-644-6372
                         Richmond, VA                                   804-771-2100
      Region 4           Atlanta, GA                                    404-331-3369
                         Miami, FL                                      305-536-5387
                         Greensboro, NC                                 336-547-4001
                         Jacksonville, FL                               904-232-1226
                         Knoxville, TN                                  865-545-4369
                         San Juan, PR                                   787-766-5202
      Region 5           Chicago, IL                                    312-353-7832
                         Columbus, OH                                   614-469-5745
                         Detroit, MI                                    313-226-6190
      Region 6           Fort Worth, TX                                 817-978-9309
                         Houston, TX                                    713-718-3199
                         Oklahoma City, OK                              405-609-8606
                         San Antonio, TX                                210-475-6895
      Regions 7/8        Kansas City, KS                                913-551-5870
                         St. Louis, MO                                  314-539-6339
                         Denver, CO                                     303-672-5452
      Regions 9/10       Los Angeles, CA                                312-894-8016
                         Phoenix, AZ                                    602-379-7243
                         San Francisco, CA                              415-489-6400
                         Seattle, WA                                    206-220-5360
      Hurricane Recovery Oversight                                      504-589-7267




150                                                  HUD OIG Operations Telephone Listing
Office of Investigation
Headquarters Office of Investigation, Washington, DC   202-708-0390
Region 1            Boston, MA                         617-994-8450
                    Hartford, CT                       860-240-4800
                    Manchester, NH                     603-666-7988
Region 2            New York, NY                       212-264-8062
                    Buffalo, NY                        716-551-5755
                    Newark, NJ                         973-622-7900
Region 3            Philadelphia, PA                   215-656-3410
                    Baltimore, MD                      410-962-4502
                    Pittsburgh, PA                     412-644-6598
                    Richmond, VA                       804-771-2100
Region 4            Atlanta, GA                        404-331-3359
                    Miami, FL                          305-536-3087
                    Greensboro, NC                     336-547-4000
                    Nashville, TN                      615-736-7000
                    San Juan, PR                       787-766-5868
                    Tampa, FL                          813-228-2026
Region 5            Chicago, IL                        312-353-4196
                    Cleveland, OH                      216-522-4421
                    Columbus, OH                       614-469-6677
                    Detroit, MI                        313-226-6280
                    Indianapolis, IN                   317-226-5427
                    Minneapolis-St. Paul, MN           612-370-3130
Region 6            Arlington, TX                      817-652-6980
                    Houston, TX                        713-718-3197
                    Little Rock, AR                    501-324-5409
                    Oklahoma City, OK                  405-609-8601
                    San Antonio, TX                    210-475-6822
Region 7/8          Kansas City, KS                    913-551-5866
                    St. Louis, MO                      314-539-6559
                    Denver, CO                         303-672-5350
                    Billings, MT                       406-247-4080
                    Salt Lake City, UT                 801-524-6090
Region 9/10         Los Angeles, CA                    213-894-0219
                    San Francisco, CA                  415-489-6683
                    Phoenix, AZ                        602-379-7251
                    Sacramento, CA                     916-930-5693
                    Las Vegas, NV                      702-366-2144
                    Seattle, WA                        206-220-5380
Hurricane Recovery Oversight                           202-708-0390




HUD OIG Operations Telephone Listing                                  151
Report fraud, waste, and mismanagement
  in HUD programs and operations by:


    Calling the OIG Hotline: 1-800-347-3735

      Faxing the OIG Hotline: 202-708-4829

       Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

 Emailing the OIG Hotline: hotline@hudoig.gov

                   Internet:
 http://www.hud.gov/complaints/fraud_waste.cfm



     All information is confidential,
    and you may remain anonymous.
Semiannual Report to Congress
Ocober 1, 2005 through March 31, 2006

www.hud.gov/offices/oig




No. 55   HUD-2006-03-OIG
